APPENDIX

TABLE OF CONTENTS
Appendix A:

Court of Appeal Decision,
May 15, 2019 .................................. 1a

Appendix B:

District Court Opinion,
July 10, 2017................................ 33a

Appendix C:

District Court Final Judgment,
July 21, 2017.............................. 113a

Appendix D:

Court of Appeals Judgment,
May 15, 2019 ............................. 118a

Appendix E:

Court of Appeals Order on
Petition for Rehearing En Banc,
July 30, 2019.............................. 120a

Appendix F:

Court of Appeals Mandate,
August 6, 2019 ........................... 123a

Appendix G:

U.S. Patent No. 6,926,907 ......... 125a

Appendix H:

U.S. Patent No. 8,557,285 ......... 196a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

NUVO PHARMACEUTICALS (IRELAND)
DESIGNATED ACTIVITY COMPANY, HORIZON
MEDICINES LLC,
Plaintiffs-Cross-Appellants
v.
DR. REDDY’S LABORATORIES INC., DR.
REDDY’S LABORATORIES, LTD., MYLAN, INC.,
MYLAN PHARMACEUTICALS INC., MYLAN
LABORATORIES LIMITED,
Defendant-Appellants,
LUPIN LTD., LUPIN PHARMACEUTICALS, INC.,
Defendants-Appellees.

2017-2473, 2017-2481, 2017-2484, 2017-2486,
2017-2489, 2017-2491, 2017-2492, 2017-2493

Appeals from the United States District Court for
the District of New Jersey in Nos. 3:11-cv-02317MLC-DEA, 3:13-cv-00091-MLC-DEA, 3:13-cv-04022MLC-DEA, Judge Mary L. Cooper.

2a
DECIDED: May 15, 2019

JAMES B. MONROE, Finnegan, Henderson,
Farabow, Garrett & Dunner, LLP, Washington, DC,
argued for plaintiffs-cross-appellants. Plaintiff-crossappellant Horizon Medicines LLC also represented by
CHARLES COLLINS-CHASE.
STEPHEN M. HASH, Baker Botts, LLP, Austin,
TX, for plaintiff-cross-appellant Nuvo Pharmaceuticals (Ireland) Designated Activity Company. Also
represented by JEFFREY SEAN GRITTON.
ALAN HENRY POLLACK, Windels Marx Lane &
Mittendorf LLP, Madison, NJ, argued for all
defendants-appellants. Defendants-appellants Dr.
Reddy's Laboratories Inc., Dr. Reddy's Laboratories,
Ltd. also represented by STUART D. SENDER.
ANDREW DUFRESNE, Perkins Coie LLP,
Madison, WI, argued for all defendants-appellants.
Defendants-appellants
Mylan,
Inc.,
Mylan
Pharmaceuticals Inc., Mylan Laboratories Limited
also represented by AUTUMN N. NERO; DAN L.
BAGATELL,
Hanover,
NH;
SHANNON
BLOODWORTH, Washington, DC.
SAILESH K. PATEL, Schiff Hardin LLP,
Chicago, IL, for defendants-appellees Lupin Ltd.,
Lupin Pharmaceuticals, Inc.
______________________

3a
Before PROST, Chief Judge, CLEVENGER and
WALLACH, Circuit Judges.
CLEVENGER, Circuit Judge.
Dr.
Reddy’s
Laboratories,
Inc.,
Mylan
Pharmaceuticals, and Lupin Pharmaceuticals
(collectively, “the Generics”) appeal from the final
judgment of the United States District Court for the
District of New Jersey following a bench trial
upholding the asserted claims of U.S. Patent Nos.
6,926,907 (“the ’907 patent”) and 8,557,285 (“the ’285
patent”) as nonobvious under 35 U.S.C. § 103, enabled
under 35 U.S.C. § 112, and adequately described
under § 112. Nuvo Pharmaceuticals, Inc. and Horizon
Pharma (collectively, “Nuvo”) cross-appeal from the
district court’s grant of summary judgment of
noninfringement to Dr. Reddy’s, concluding that one
of its drug products will not infringe the claims of the
’907 patent. For the reasons set forth below, we
reverse the appeal and dismiss the cross- appeal.
BACKGROUND
I
Non-steroidal anti-inflammatory drugs, also
known as NSAIDs, control pain. Common NSAIDs
include, among others, aspirin and naproxen. While
NSAIDs control pain, they also have the undesirable
side effect of causing gastrointestinal problems such
as ulcers, erosions, and other lesions in the stomach
and upper small intestine. Some theorize that the

4a
undesirable side effect is tied to the combination of
NSAID with the presence of acid in the stomach and
upper small intestine. So, to treat the side effect, some
practitioners began prescribing acid inhibitors to be
taken by a patient along with the NSAID. The NSAID
treats the pain while the acid inhibitor reduces the
acidity in the gastrointestinal tract, which is achieved
by increasing the pH level in the tract. Common acid
inhibitors include, among others, proton pump
inhibitors (“PPIs”) like omeprazole and esomeprazole.
The combination therapy had complications.
First, stomach acid degraded the PPI before it could
reach the small intestine. To fix that issue, an enteric
coating that wears off after a certain amount of time
has elapsed was placed around the PPI. Second, if the
NSAID was released before the acid inhibitor had
enough time to raise the pH level in the tract, patients
would continue to suffer gastrointestinal damage. To
address those complications, Dr. John Plachetka
invented a new drug form that coordinated the
release of an acid inhibitor and an NSAID in a single
tablet. The tablet contained a core of an NSAID like
naproxen in an amount effective to treat pain, an
enteric coating around the NSAID that prevents its
release before the pH increases to a certain desired
level, and an acid inhibitor like PPI around the
outside of the enteric coating that actively works to
increase the pH to the desired level. Dr. Plachetka’s
invention contemplates using some amount of
uncoated PPI to allow for its immediate release into a
patient’s stomach and upper small intestine. Dr.
Plachetka recognized problems associated with
uncoated PPI, namely that without a coating, the PPI

5a
is at risk of destruction by stomach acid—thereby
undermining the therapeutic effectiveness of the PPI.
Dr. Plachetka received the ’907 patent on his
invention, which he assigned to Pozen Inc. He also
received the ’285 patent, which is a division of an
abandoned application that was a division of another
application that itself was a continuation-in-part of
the application that resulted in the ’907 patent. The
’285 patent is also assigned to Pozen. The two patents
bear the same title, “Pharmaceutical Compositions
for the Coordinated Delivery of NSAIDs,” and have
nearly identical specifications.
Claim 1 of the ’907 patent and claim 1 of the ’285
patent are representative. They read as follows:
1. A pharmaceutical composition in unit
dosage form suitable for oral administration
to a patient, comprising:
(a) an acid inhibitor present in an
amount effective to raise the gastric
pH of said patient to at least 3.5 upon
the administration of one or more of
aid unit dosage forms;
(b) a non-steroidal anti-inflammatory
drug (NSAID) in an amount effective to
reduce
or
eliminate
pain
or
inflammation in said patient upon
administration of one or more of said
unit dosage forms;

6a
and wherein said unit dosage form provides for coordinated release such that:
i)
said NSAID is surrounded by a
coating that, upon ingestion of said
unit dosage form by said patient,
prevents the release of essentially any
NSAID from said dosage form unless
the pH of the surrounding medium is
3.5 or higher;
ii) at least a portion of said acid
inhibitor is not surrounded by an
enteric coating and, upon ingestion of
said unit dosage form by said patient,
is released regardless of whether the
pH of the surrounding medium is
below 3.5 or above 3.5.
’907 patent col. 20 ll. 9–32.
1.
A pharmaceutical composition in unit
dosage form comprising therapeutically
effective amounts of:
(a) esomeprazole, wherein at least a
portion of said esomeprazole is not
surrounded by an enteric coating; and
(b) naproxen surrounded by a coating
that inhibits its release from said unit
dosage form unless said dosage form
is in a medium with a pH of 3.5 or
higher;

7a
wherein said unit dosage form provides for
release of said esomeprazole such that upon
introduction of said unit dosage form into a
medium, at least a portion of said esomeprazole
is released regardless of the pH of the medium.
’285 patent col. 22 ll. 9–19.
The shared specification discloses that the
invention “is directed to a pharmaceutical
composition in unit dosage form suitable for oral
administration to a patient” that “contains an acid
inhibitor present in an amount effective to raise the
gastric pH of a patient to at least 3.5, preferably to at
least 4, and more preferably to at least 5, when one or
more unit dosage forms are administered.” ’907
patent col. 3 ll. 19–25.1 It discloses exemplary acid
inhibitors like PPIs, which the patents teach includes
omeprazole and esomeprazole. It recites amounts of
omeprazole between 5 and 50 mg and amounts of
esomeprazole between 5 and 100 mg, “with about 40
mg per unit dosage form being preferred.” Id. at col. 7
ll. 9–13. The specification discloses that “[t]he
pharmaceutical composition also contains a nonsteroidal anti-inflammatory drug in an amount
effective to reduce or eliminate pain or inflammation.”
Id. at col. 3 ll. 39–41. It provides that “[t]he most
preferred NSAID is naproxen in an amount of
between 50 mg and 1500 mg, and more preferably, in

Because the ’907 and ’285 patents have nearly identical
specifications, we cite to the ’907 patent only un- less stated
otherwise.

1

8a
an amount of between 200 mg and 600 mg.” Id. at col.
3 ll. 48–50.
The specification teaches methods for preparing
and making the claimed drug formulations, including
in tablet dosage forms. It provides examples of the
structure and ingredients of the drug formulations
that comport with the invention. It is undisputed that
there is no experimental data demonstrating the
therapeutic effectiveness of any amount of uncoated
PPI and coated NSAID in a single dosage form.
Appellant’s Opening Br. 23, 33; Appellee’s Resp. Br.
35,
43;
Oral
Arg.
at
34:08–40,
http://oralarguments.cafc.uscourts.gov/default.aspx?f
l=2017-2473.mp3. Furthermore, although the
specification expressly provides that PPIs are “enteric
coated to avoid destruction by stomach acid,” there is
no alternative disclosure explaining that uncoated
PPI could still be effective to raise pH. ’907 patent col.
2 l.6; Oral Arg. at 34:08–39:28.
Pozen ultimately sold its rights to the ’907 and
’285 patents to Nuvo Pharmaceuticals, and Horizon
Pharma maintained its previously obtained license
under those patents. Nuvo makes and sells a drug
called Vimovo®, which is a commercial embodiment
of the ’907 and ’285 patents. The Generics want to
market a generic version of Vimovo®. They submitted
Abbreviated New Drug Applications (“ANDAs”) to the
U.S. Food and Drug Administration (“FDA”) seeking
approval to market products covered by the claims of
the ’907 and ’285 patents. Dr. Reddy’s also submitted
a second ANDA covering a product slightly different
than Vimovo® because it contains a small amount of

9a
uncoated NSAID in the outer layer of the tablet,
which is separate from the enteric-coated NSAID that
releases only when the pH rises to about 5.5.
II
Nuvo sued the Generics in the United States
District Court for the District of New Jersey to
prevent their ANDA products from going to market, if
approved, before the expiration of the ’907 and ’285
patents. Nuvo alleged that all the Generics’ ANDA
products will infringe claims 5, 15, 52, and 53 of the
’907 patent and claims 1–4 of the ’285 patent. 2 The
Generics stipulated to infringement, except with
respect to Dr. Reddy’s second ANDA product, which it
alleged will not infringe the claims of either patent.
The Generics defended against the infringement
assertions by alleging that the asserted patents are
invalid as obvious over the prior art under 35 U.S.C.
§ 103 and for lack of enablement and an adequate
written description under 35 U.S.C. § 112.
Dr. Reddy’s moved for summary judgment of
noninfringement, arguing that its second ANDA
product does not infringe the asserted claims of the
’907 patent. It argued that, because the claims of the
’907 patent prevent “essentially any NSAID” from
being released from the unit dosage form until the pH
reaches at least 3.5, its second ANDA product
containing some amount of NSAID in the outer layer
that is released immediately, regardless of the pH,
cannot infringe those claims. Nuvo countered that the
All the asserted claims of the ’907 and ’285 patents are
dependent on claim 1 of those respective patents.

2

10a
phrase “essentially any NSAID” in the claim language
prevents only NSAID in the core of the tablet from
being released before the pH rises to 3.5 or higher and
that the claimed invention allows for a small amount
of additional NSAID to be released immediately. The
district court agreed with Dr. Reddy’s and granted its
summary judgment motion.
The court then held a six-day bench trial on the
validity of the ’907 and ’285 patents, as well as Dr.
Reddy’s contention that its second ANDA product
does not infringe the asserted claims of the ’285
patent. It concluded that none of the asserted claims
are obvious over the prior art because it was
nonobvious to use a PPI to prevent NSAID-related
gastric injury, and persons of ordinary skill in the art
were discouraged by the prior art from using uncoated
PPI and would not have reasonably expected it to
work. It also determined that the asserted claims of
both patents are enabled because the specification
teaches how to make and use the invention and expert
testimony demonstrated that an ordinarily skilled
artisan would have accepted the usefulness of an
NSAID–PPI combination therapy for treating pain.
The district court went on to reject all three of the
Generics’ written description arguments. First, the
court rejected the “comprising” written description
argument. The Generics argued that, because of the
“comprising” language in the ’285 patent’s claims,
they allow for the drug formulation to include some
uncoated naproxen that is released immediately
regardless of the pH, which is not supported by the
specification and goes against the concept of

11a
coordinated release that is at the heart of the patent’s
invention. The court disagreed because it viewed
uncoated naproxen as a less preferred embodiment of
the claimed invention and thus found that the
invention was supported by the general disclosure in
the specification.
Second, the district court rejected the “inhibit”
written description argument. The Generics
contended that, although the patent discloses only
delayed release formulations, the claims of the ’285
patent recite a broader undescribed invention,
namely sustained release as op- posed to coordinated
release of naproxen. That is because the claims cover
any formulation having a coating that merely
“inhibits” the release of naproxen before the pH
reaches 3.5 or higher, which would include sustained
release drugs that immediately discharge naproxen
albeit at a slower rate than is typical. The court
disagreed that the word “inhibits” meant that the
claims contemplated sustained release drug
formulations and thus concluded that the claims do
not lack written description support on that basis.
Third, the district court rejected the “efficacy”
written description argument. The Generics argued
that, if they lose on their obviousness contention, then
the claims lack written description support for the
claimed effectiveness of uncoated PPI because
ordinarily skilled artisans would not have expected it
to work and the specification provides no
experimental data or analytical reasoning showing
the inventor possessed an effective uncoated PPI.
Nuvo responded that experimental data and an

12a
explanation of why an invention works are not
required, the specification adequately describes using
uncoated PPI, and its effectiveness is necessarily
inherent in the described formulation. The court
rejected the notion that effectiveness does not need to
be described because it is necessarily inherent in the
claimed drug formulation. It also held that the
specification of the ’907 and ’285 patents did not
disclose information regarding the efficacy of
uncoated PPI. But the court nonetheless concluded
that the claims were adequately described because
the specification described the immediate release of
uncoated PPI and the potential disadvantages of
coated PPI, namely that enteric-coated PPI
sometimes works too slowly to raise the intragastric
pH. The district court did not explain why the mere
disclosure of immediate release uncoated PPI,
coupled with the known disadvantages of coated PPI,
is relevant to the therapeutic effectiveness of
uncoated PPI, which the patent itself recognized as
problematic for efficacy due to its potential for
destruction by stomach acid.
Finally, the district court held that Dr. Reddy’s
second ANDA product infringes the claims of the ’285
patent because it satisfies all the limitations recited
in those claims.
The Generics now appeal the first “comprising”
and third “efficacy” written description rulings. They
do not appeal the obviousness holding, the
enablement decision, or the second “inhibit” written
description issue. Nuvo cross-appeals the district
court’s
grant
of
summary
judgment
of

13a
noninfringement. We have jurisdiction to decide the
appeals under 28 U.S.C. § 1295(a)(1).
DISCUSSION
The Generics’ appeal and Nuvo’s cross-appeal
present three main issues. First, the Generics argue
that the district court clearly erred when it concluded
that the specification of the ’907 and ’285 patents
adequately describes the claimed effectiveness of
uncoated PPI. The Generics emphasize the
circumstances in which the written description issue
arises in this case. The asserted claims recite the
therapeutic effectiveness of uncoated PPI, but the
prior art taught away from such effectiveness. In
those circumstances, the Generics argue that
satisfaction of the written description requirement
requires either supporting experimental data, or
some reason, theory, or alternative explanation as to
why the claimed invention is possessed by the
inventor, and that mere recitation of claim language
in the specification cannot suffice. Second, the
Generics argue that the district court clearly erred
when it concluded that the specification of the ’907
and ’285 patents adequately describes uncoated
naproxen. Finally, Nuvo argues that the district court
should not have granted summary judgment of
noninfringement in favor of Dr. Reddy’s because it
incorrectly construed the term “essentially any
NSAID” in the claims of the ’907 patent to prevent
even small amounts of uncoated NSAID in the unit
dosage form.

14a
Whether a claim satisfies the written description
requirement is a question of fact. Allergan, Inc. v.
Sandoz Inc., 796 F.3d 1293, 1308 (Fed. Cir. 2015).
Therefore, on appeal from a bench trial, we review a
written description determination for clear error. Id.
“Under the clear error standard, the court’s findings
will not be overturned in the absence of a ‘definite and
firm conviction’ that a mistake has been made.”
Scanner Techs. Corp. v. ICOS Vision Sys. Corp. N.V.,
528 F.3d 1365, 1374 (Fed. Cir. 2008) (quoting Pfizer,
Inc. v. Teva Pharm. USA, Inc., 518 F.3d 1353, 1366
(Fed. Cir. 2008)).
Our analysis begins and ends with the “efficacy”
written description issue.
I
The written description requirement of 35 U.S.C.
§ 112, ¶ 1 provides, in pertinent part, that “[t]he
specification shall contain a written description of the
invention.” 3 That requirement is satisfied only if the
inventor “convey[s] with reasonable clarity to those
skilled in the art that, as of the filing date sought, he
or she was in possession of the invention,’ and
demonstrate[s] that by disclosure in the specification
of the patent.” Centocor Ortho Biotech, Inc. v. Abbott
Labs., 636 F.3d 1341, 1348 (Fed. Cir. 2011) (quoting
Carnegie Mellon Univ. v. Hoffmann–La Roche Inc.,
541 F.3d 1115, 1122 (Fed. Cir. 2008)). “The essence of
Because the applications resulting in the ’907 and ’285 patents
were filed before the enactment of the Leahy–Smith America
Invents Act (“AIA”), Pub. L. No. 112–29, § 4(c), 125 Stat. 284,
296–97 (2011), we apply the pre-AIA version of 35 U.S.C. § 112.

3

15a
the written description requirement is that a patent
applicant, as part of the bargain with the public, must
describe his or her invention so that the public will
know what it is and that he or she has truly made the
claimed invention.” AbbVie Deutschland GmbH & Co.
v. Janssen Biotech, Inc., 759 F.3d 1285, 1298 (Fed.
Cir. 2014).
The Generics argue that the district court clearly
erred when it concluded that the claimed
effectiveness of uncoated PPI in the ’907 and ’285
patents is supported by adequate written description.
Their argument is straightforward. The ’907 and ’285
patents claim uncoated PPI effective to raise the
gastric pH to at least 3.5, the district court found upon
Nuvo’s insistence as part of its obviousness analysis
that ordinarily skilled artisans would not have
expected uncoated PPIs to be effective, and nothing in
the specification would teach a person of ordinary
skill in the art otherwise.
Nuvo counters that the district court correctly
concluded that the claimed uncoated PPI is supported
by adequate written description. It argues that the
claims do not require any particular degree of efficacy
of the uncoated PPI itself, it is enough that the
specification discloses making and using drug
formulations containing effective amounts of PPI and
NSAID, and experimental data and additional
explanations demonstrating the invention works are
unnecessary.
The district court held that the Generics failed to
prove by clear and convincing evidence that the

16a
asserted claims of the ’907 and ’285 patents are
invalid for lack of written description. But its analysis
does not support its conclusion. The district court,
after finding that the specification lacks “information
regarding the efficacy of uncoated PPIs,” said it was
enough that the specification described the
immediate release of uncoated PPI and the potential
disadvantages of enteric-coated PPI formulations.
J.A. 82–83. But that disclosure it pointed to in no way
provides support for the claimed efficacy of uncoated
PPI. Even if the district court thought that it was
enough that the patents taught how to make and use
drug formulations containing uncoated PPI, it flatly
rejected Nuvo’s argument “that the efficacy of
uncoated PPIs need not be described because it is
‘necessarily inherent’ in a formulation.” J.A. 83.
Nevertheless, because we review the district court’s
decision for clear error, we will scour the record
created below for evidence supporting the district
court’s written description finding.
A
At trial, the parties and the district court
understood that the plain words of the patents claim
effectiveness of uncoated PPI. Beyond the plain
language of the claims, the district court was not
asked to define further the effectiveness limitation.
The parties and the district court also understood that
written description of effective uncoated PPI is
required. Nuvo nonetheless for the first time on
appeal, and as its lead argument, contends that we
can affirm the district court’s written description
finding because the claims do not recite an efficacy

17a
requirement for uncoated PPI. The Generics of course
disagree. We read Nuvo’s appellate brief as
presenting at least five arguments aimed at either
recharacterizing the written description dispute or
rewriting the claim language. We reject them all as
meritless.
Claim 1 of the ’907 patent recites “[a]
pharmaceutical composition in unit dosage form
suitable for oral administration to a patient,
comprising:… an acid inhibitor present in an amount
effective to raise the gastric pH of said patient to at
least 3.5 upon the administration of one or more of
said unit dosage forms” and wherein “at least a
portion of said acid inhibitor is not surrounded by an
enteric coating:…” ’907 patent col. 20 ll. 9–29
(emphasis added). Claim 1 of the ’285 patent recites
“[a] pharmaceutical composition in unit dosage form
comprising therapeutically effective amounts of: (a)
esomeprazole, wherein at least a portion of said
esomeprazole is not surrounded by an enteric coating”
and “wherein said unit dosage form provides for
release of said esomeprazole such that upon introduction of said unit dosage form into a medium, at
least a portion of said esomeprazole is released
regardless of the pH of the medium.” ’285 patent col.
22 ll. 9–19 (emphasis added). The claim also recites
“naproxen surrounded by a coating that inhibits its
release from said unit dosage form unless said dosage
form is in a medium with a pH of 3.5 or higher,” which
means the esomeprazole must be acting to raise the
pH to effect the release of the naproxen from the
dosage form. Id. at col. 22 ll. 13–15. Both patents-insuit therefore recite claims requiring amounts of

18a
uncoated PPI effective to raise the gastric pH to at
least 3.5. No argument was made below that the
claims of the ’907 patent should be treated any
differently than those of the ’285 patent with respect
to the efficacy limitation. And the district court
treated the claims the same with respect to that limitation. So we do not treat them differently on appeal
either.
First, Nuvo argues that there is no requirement
that the dosage form as a whole be effective to raise
the gastric pH. While we agree, we do not understand
the Generics to be arguing that the claims require the
entire drug to be effective to raise the gastric pH to a
certain level. Instead, the uncoated PPI must
effectively do so.
Second, Nuvo contends that the claims do not
require an effective amount of the combined uncoated
PPI and coated naproxen in a single dosage form, but
only amounts of each component effective on their
own. The Generics respond that Nuvo’s argument is
divorced from the claim as a whole, which requires
coordinated release achieved by an effective amount
of uncoated PPI that raises the gastric pH to at least
3.5 and an effective amount of naproxen that is
released to treat pain when the pH reaches the
desired level. Nuvo’s argument was not raised below
and thus is forfeited. See TVIIM, LLC v. McAfee, Inc.,
851 F.3d 1356, 1363 (Fed. Cir. 2017) (“[A] party may
not introduce new claim construction arguments on
appeal or alter the scope of the claim construction
positions it took below. Moreover, litigants waive

19a
their right to present new claim construction disputes
if they are raised for the first time after trial.”).
Third, Nuvo argues that the claims do not require
that the uncoated PPI be effective to raise the gastric
pH to a certain level, but only that the dosage forms
contain an effective amount of uncoated PPI. The
Generics disagree. Nuvo forfeited the argument by
not raising it below. Additionally, it is nonsensical to
read the claims to require effective amounts of
uncoated PPI without specifying the result effectively
achieved. Claim 1 of the ’907 patent expressly states
that the PPI, which is uncoated, must be effective to
raise the gastric pH to at least 3.5. Claim 1 of the ’285
patent at least impliedly requires the same since the
naproxen is only released when the pH reaches at
least 3.5 and the uncoated esomeprazole is the only
other agent available in the dosage form to achieve
that goal.
Fourth, Nuvo contends that the ’907 patent allows
multiple dosage forms rather than a single dosage
form to satisfy any perceived efficacy requirement, so
the specification does not need to show an effective
amount of uncoated PPI in one dosage form. We
disagree. As stated above, Nuvo forfeited any
argument that the ’907 and ’285 patents should be
treated differently with respect to the efficacy
requirement by not raising it to the district court. And
the ’285 patent does not allow for more than one
dosage form. Even if it were true that the ’907 patent
allows more than one dosage form to effectively raise
the gastric pH to at least 3.5 using uncoated PPI, the

20a
specification would still need to provide support for
the notion that uncoated PPI is effective.
Last, Nuvo argues that the Examiner interpreted
the ’907 patent claims as merely requiring certain
amounts of PPI and NSAID effective on their own
rather than requiring an overall efficacy for the
combined drug. The Generics counter that the
Examiner never considered the effectiveness of
uncoated PPI because it was not a claim limitation at
the time of the initial rejection. We already rejected
Nuvo’s argument that the difference between a
dosage form as a whole containing an effective
amount of uncoated PPI and an effective amount of
uncoated PPI as a component meaningfully impacts
the written description analysis. And we also already
rejected its argument that the Generics were
contending that Nuvo had to demonstrate the overall
effectiveness of the entire drug combination.
Furthermore, the argument is forfeited because it was
not presented below. Finally, the Examiner appears
to have interpreted the claims to require an amount
of PPI, whether coated or uncoated, effective to raise
the gastric pH to the desired level. We agree with that
understanding and written description support must
be provided for that limitation.
In sum, the parties appear to have assumed
before the district court that the claims require a
therapeutically effective amount of uncoated PPI that
can raise the gastric pH to at least 3.5. We see no
reason to change course on appeal. Because the
parties’ assumption at the trial court is a fair reading
of the claim language, we will proceed as everyone did

21a
before the district court and search the specification
for written description support for the efficacy of
uncoated PPI.
B
Nuvo argues that credible expert testimony from
its witness, Dr. Williams, identified written
description support in the specification for the
claimed dosage forms comprising an effective amount
of uncoated PPI. Specifically, Nuvo points to Dr.
Williams’s testimony that every limitation of the
asserted claims in the ’907 and ’285 patents has
adequate written description support in the shared
specification.
Dr. Williams identified four parts of the
specification that he thought provide written
description support for amounts of uncoated PPI, and
specifically esomeprazole, effective to raise the gastric
pH of a patient to at least 3.5. He pointed to the
specification’s statement that “[t]he composition
contains an acid inhibitor present in an amount
effective to raise the gastric pH of a patient to at least
3.5.” See J.A. 10787 (quoting ’907 patent col. 3 ll. 21–
23), 10797 (similar). He also pointed to the claims
themselves for written description support. See J.A.
10787 (citing ’907 patent col. 20 ll. 9–32, 42–45),
10798 (similar). He then said the sixth example in the
specification provides support for uncoated PPI
because it includes “omeprazole immediate release” in
the title and provides that a layer of the composition
embodied in the example “contains an acid inhibitor
in an effective amount which is released from the

22a
dosage form as soon as the film coat dissolves,” where
the acid inhibitor is the PPI omeprazole. J.A. 10788–
89 (quoting ’907 patent col. 14 ll. 40–41, col. 15 ll. 1–
3). His last piece of support from the specification was
its statement that “[p]roton pump inhibitors will
typically be present at about 5 milligrams to 600
milligrams per dose” and “[e]someprazole is 5 to 100
milligrams.” J.A. 10798 (quoting ’907 patent col. 7 ll.
7–13).
The Generics argue that the parts of the
specification Dr. Williams identified are not enough
to satisfy the written description requirement. They
argue that the specification provides only typical
dosage amounts of uncoated PPI and the use of
uncoated PPI in a drug formulation, but it never
discusses or explains its efficacy. We agree with the
Generics that Dr. Williams’s testimony does not
identify parts of the specification sufficient to satisfy
the written description requirement. The statements
he points to recite the claim limitation by simply
calling generally for effective amounts of uncoated
PPI, but our precedent clearly establishes that is not
enough.
We have expressly rejected the “argument that
the written description requirement … is necessarily
met as a matter of law because the claim language
appears in ipsis verbis in the specification.” Enzo
Biochem, Inc. v. GenProbe Inc., 323 F.3d 956, 968
(Fed. Cir. 2002). We explained that “[t]he appearance
of mere indistinct words in a specification or a claim,
even an original claim, does not necessarily satisfy” §
112, ¶ 1 because it may not both put others on notice

23a
of the scope of the claimed invention and demonstrate
possession of that invention. Id. at 968–69.
It is true that our case law does not require
experimental data demonstrating effectiveness.
Allergan, 796 F.3d at 1309; see also In re ’318 Patent
Infringement Litig., 583 F.3d 1317, 1324 (Fed. Cir.
2009) (“Typically, patent applications claiming new
methods of treatment are supported by test results.
But it is clear that testing need not be conducted by
the inventor.”). It also does not require theory or
explanation of how or why a claimed composition will
be effective. Allergan, 796 F.3d at 1308–09. Moreover,
we have repeatedly stated that the invention does not
actually have to be reduced to practice. Univ. of
Rochester v. G.D. Searle & Co., 358 F.3d 916, 926
(Fed. Cir. 2004).
Nevertheless, as the Generics point out and Nuvo
cannot reasonably dispute, the record evidence
demonstrates that a person of ordinary skill in the art
would not have known or understood that uncoated
PPI is effective. And there is nothing in the
specification of the patents-in-suit showing “that the
inventor actually invented the invention claimed.”
Centocor, 636 F.3d at 1348 (emphasis added); accord
Ariad Pharm., Inc. v. Eli Lilly & Co., 598 F.3d 1336,
1351 (Fed. Cir. 2010) (en banc). There must be some
description, such as a constructive reduction to
practice, establishing that the inventor “was in
possession of the…claimed invention, including all of
the elements and limitations.” Univ. of Rochester, 358
F.3d at 926 (quoting Hyatt v. Boone, 146 F.3d 1348,
1353 (Fed. Cir. 1998)). Patents are not rewarded for

24a
mere searches, but are intended to compensate their
successful completion. Ariad, 598 F.3d at 1353. That
is why the written description requirement
incentivizes “actual invention,” id., and thus “[a]
‘mere wish or plan’ for obtaining the claimed
invention is not adequate written description,”
Centocor, 636 F.3d at 1348 (quoting Regents of the
Univ. of Cal. v. Eli Lilly & Co., 119 F.3d 1559, 1566
(Fed. Cir. 1997)).
In light of the fact that the specification provides
nothing more than the mere claim that uncoated PPI
might work, even though persons of ordinary skill in
the art would not have thought it would work, the
specification is fatally flawed. It does not demonstrate
that the inventor possessed more than a mere wish or
hope that uncoated PPI would work, and thus it does
not demonstrate that he actually invented what he
claimed: an amount of uncoated PPI that is effective
to raise the gastric pH to at least 3.5. That conclusion
is confirmed by the inventor’s, Dr. Plachetka’s, own
testimony at trial during which he admitted that he
only had a “general concept of coordinated delivery
with acid inhibition” using uncoated PPI at the time
he filed his first patent application. J.A. 9942, 10000–
01. Although Dr. Plachetka said he thought he “put a
rationale in [the specification] as to why [uncoated
PPI] would work,” he did not identify any particular
part
of
the
specification
supporting
that
understanding. J.A. 9997. And his only support in the
specification for “a rationale explaining why [he]
thought the uncoated PPI would be effective for
treating gastric related injury” was that, in its “entire
context,” he explained “why the coordinated delivery

25a
system would be of benefit for patients.” Id. Although
inventor testimony cannot establish written
description support where none exists in the four
corners of the specification, it illuminates the absence
of critical description in this case.4
C
Nuvo’s final arguments are that it is enough to
satisfy the written description requirement that the
specification of the ’907 and ’285 patents teaches how
to make and use the claimed invention, and that we
should accept the therapeutic effectiveness of
uncoated PPI as a matter of inherency. The Generics
respond that Nuvo is wrong because that only
satisfies the enablement requirement, which is
At oral argument, Nuvo also encouraged us to find written
description support for the therapeutic effectiveness of uncoated
PPI based on testimony of Dr. Kibbe, the Generics’ expert. Oral
Arg. at 50:51–52:26. But in that part of the trial transcript Nuvo
directed us to, Dr. Kibbe only discussed what the patent claims
require and he never testified about the written description
support in the specification for the efficacy of uncoated PPI.
Furthermore, although Dr. Kibbe later confirmed during his
trial testimony that he thought “an enteric-coated NSAID
surrounded by an uncoated PPI would be effective for treating
chronic pain,” his confirmation was ambiguous because he
qualified it with “I think I have got that right. I’m not sure.” J.A.
10513. Even if we accepted his statement that uncoated PPI
would be effective for treating chronic pain, the district court
rejected the notion that ordinarily skilled artisans would have
used uncoated PPI in its obviousness analysis, and his testimony
only speaks to treating pain and not to raising the gastric pH to
at least 3.5. Dispositively, Dr. Kibbe’s testimony is irrelevant to
the written de- scription inquiry, because it does not point to any
disclosure in the specification to which the testimony could
relate.
4

26a
separate and distinct from the written description
requirement. As for inherency, the Generics note that
the district court rejected that ground for written
description support, and assert that Nuvo has not
made out a case for inherent disclosure.
1.
Teaching how to make and use an invention does
not necessarily satisfy the written description
requirement. We have recognized that the
enablement requirement, which requires the
specification to teach those skilled in the art how to
make and use the claimed invention without undue
experimentation, is separate and distinct from the
written description requirement. Ariad, 598 F.3d at
1343–51. And the fact that an invention may be
enabled does not mean it is adequately described, and
vice versa. Univ. of Rochester, 358 F.3d at 921–22.
That is because “[t]he purpose of the written
description requirement is broader than to merely
explain how to ‘make and use’ [the invention].” Id. at
920. The focus of the written description requirement is instead on whether the specification notifies
the public about the boundaries and scope of the
claimed invention and shows that the inventor
possessed all the aspects of the claimed invention. Id.
at 926.
Nuvo cites our decision in Alcon Research Ltd. v.
Barr Laboratories, Inc., 745 F.3d 1180 (Fed. Cir.
2014), to support its position that it is enough that the
patents teach making and using the claimed
combination drug formulation. The Generics argue

27a
that case is distinguishable. We agree that Alcon does
not save the claims of the ’907 and ’285 patents.
In Alcon, patent claims were directed to a method
for enhancing the chemical stability of an aqueous
solution containing a therapeutically effective
amount of a known drug. 745 F.3d at 1184. We held
that the claims were adequately described because
the disclosure in the specification demonstrated that
the inventor possessed and actually invented the
claimed stability enhancing features of the method.
Id. at 1191. We noted that the patent referenced the
unexpected nature of the discovery, gave exemplary
formulations, and disclosed data showing stability
testing using the claimed invention. Id.
The factual circumstances in Alcon are markedly
different than the facts presented here. Unlike the
specification of the patent at issue in Alcon, the
specification of the ’907 and ’285 patents does not
provide any data showing that uncoated PPI is
effective in raising the gastric pH of a patient to at
least 3.5. Even though we said in Alcon that “written
description is about whether the skilled reader of the
patent disclosure can recognize that what was
claimed corresponds to what was described” and “is
not about whether the patentee has proven to the
skilled reader that the invention works, or how to
make it work,” we found that the written description
requirement was satisfied at least in part by
accelerated stability testing data showing the claimed
effect. Id. Under those circumstances, it was not
necessary for the patentee to demonstrate or
otherwise “prove” beyond the data disclosed in the

28a
specification that the invention works. Here, there is
no similar hook or disclosure in the specification that
an ordinarily skilled artisan can rely on to understand
that the inventor possessed effective uncoated PPI.
2.
Our case law has recognized that, under a narrow
set of circumstances, the written description
requirement may be satisfied without an explicit
disclosure if the claimed features are necessarily
inherent in what is expressly described. See, e.g.,
Allergan, 796 F.3d at 1309 (“A claim that recites a
property that is necessarily inherent in a formulation
that is adequately described is not invalid as lacking
written description merely because the property itself
is not explicitly described.”); Yeda Research & Dev.
Co. v. Abbott GmbH & Co. KG, 837 F.3d 1341, 1345
(Fed. Cir. 2016) (“Under the doctrine of inherent
disclosure, when a specification describes an
invention that has certain undisclosed yet inherent
properties, that specification serves as adequate
written description to support a subsequent patent
application that explicitly recites the invention’s
inherent properties.”); cf. Manual of Patent
Examining Procedure § 2163 (9th ed. Rev. 3, Jan.
2018) (recognizing that inherency may satisfy the
written description requirement).
Nuvo cites our decision in Allergan to support its
position that the claimed efficacy of uncoated PPI is
necessarily inherent in the specification’s explicit
disclosure of methods for making and using drug
formulations containing uncoated PPI. The Generics

29a
contend that, like Alcon, Allergan is also factually
distinguishable. We agree.
In Allergan, the patentee claimed a drug
combination effective for reducing intraocular
pressure that included 0.01% bimatoprost and 200
ppm benzalkonium chloride (“BAK”). 796 F.3d at
1300. But the prior art taught away from the claimed
combination of ingredients and the specification did
not explicitly describe its clinical efficacy. Id. at 1298,
1305–07, 1309. While we upheld the nonobviousness
of the claimed invention given the unexpected results
of and teaching away from increasing the amount of
BAK to decrease the amount of intraocular pressure,
we also held that the claims were supported by
adequate written description. Id. at 1305, 1309. We
reasoned that the parties did not dispute that “the
inherent properties of a formulation comprising
0.01% bimatoprost and 200 ppm BAK produce the
claimed clinical profile.” Id. at 1309. It was enough
that the specification described the formulation, its
components, and how to make and use it. Id. at 1308–
09. Moreover, there were experimental results for
similar drug formulations demonstrating a trend in
their clinical effectiveness, even if the data were not
specifically related to the exact formulation claimed.
Id. at 1299–300.
Here, unlike in Allergan, whether uncoated PPI is
inherently effective in raising the gastric pH to at
least 3.5 is disputed. And there is no written
disclosure that in any way relates to the efficacy of
immediately released PPI. Neither party has
identified any evidence in the record that uncoated

30a
PPI necessarily is effective in a certain amount,
consistent with the specification, to raise the gastric
pH to 3.5 or higher. Nor can we find any evidence in
the record demonstrating the inherency of the
claimed feature. That failure of proof thus dooms
Nuvo’s inherency argument.
D
Written description analyses are highly fact
specific. See Amgen Inc. v. Sanofi, 872 F.3d 1367,
1377 (Fed. Cir. 2017) (“[E]ach case involving the issue
of written description must be decided on its own
facts.” (alterations and internal quotation marks
omitted) (quoting Noelle v. Lederman, 355 F.3d 1343,
1349 (Fed. Cir. 2004))); VasCath Inc. v. Mahurkar,
935 F.2d 1555, 1562 (Fed. Cir. 1991) (“The CCPA’s
‘written description’ cases often stressed the factspecificity of the issue.”). Based on the specific facts of
certain cases, it is unnecessary to prove that a claimed
pharmaceutical compound actually achieves a certain
result. But when the inventor expressly claims that
result, our case law provides that that result must be
supported by adequate disclosure in the specification.
In this case, the inventor chose to claim the
therapeutic effectiveness of uncoated PPI, but he did
not adequately describe the efficacy of uncoated PPI
so as to demonstrate to ordinarily skilled artisans
that he possessed and actually invented what he
claimed. And the evidence demonstrates that a person
of ordinary skill in the art reading the specification
would not have otherwise recognized, based on the
disclosure of a formulation containing uncoated PPI,
that it would be efficacious because he or she would

31a
not have expected uncoated PPI to raise gastric pH.
Under those facts, the patent claims are invalid for
lack of adequate written description pursuant to §112,
¶ 1.
II
Because we hold that the ’907 and ’285 patents
are invalid for lack of an adequate written description
given that the shared specification does not
adequately describe the claimed effectiveness of
uncoated PPI, we do not need to address the Generics’
alternative argument that the patents are also invalid
under § 112, ¶ 1 for failing to adequately describe
uncoated, immediate release naproxen. Similarly,
because we conclude that the asserted claims are
invalid, Nuvo’s cross-appeal challenging the district
court’s
grant
of
summary
judgment
of
noninfringement with respect to Dr. Reddy’s second
ANDA product and the ’907 patent is moot.
CONCLUSION
For the reasons stated above, we reverse the
district court’s determination that the asserted claims
of the ’907 and ’285 patents are not invalid for lack of
an adequate written description. Those claims are
invalid. We dismiss as moot Nuvo’s cross-appeal
challenging the district court’s grant of summary
judgment of noninfringement to Dr. Reddy’s with
respect to its second ANDA product and the nowinvalidated ’907 patent claims.

32a
REVERSED AS TO 17-2473, 17-2481, 17-2484,
17-2486; DISMISSED AS TO 17-2489, 17-2491, 172492, 17-2493.
COSTS
No costs.

33a
APPENDIX B
In the United States District Court
For the District of New Jersey
Case No. 11-02317 (MLC) (DEA)
HORIZON PHARMA, INC. and
POZEN INC.,
Plaintiffs,
v.
DR. REDDY’S LABORATORIES INC. and
DR. REDDY’S LABORATORIES LTD.,
Defendants.
ISSUED: July 10, 2017
REDACTED AMENDED MEMORANDUM
OPINION
I. COOPER, District Judge

I. Background.......................................................... 35a
II. Legal Standards ..................................................40a
A. Infringement .................................................... 40a
B. Written Description ......................................... 41a
C. Enablement / Utility ........................................ 43a
D. Obviousness...................................................... 44a

34a

III. Infringement and Related § 112 Challenges to the

’285 Patent ........................................................... 45a

A. Written Description (Uncoated

Naproxen) ......................................................... 46a

B. Written Description (Sustained Release
Formulations) ................................................... 61a

C. Infringement .................................................... 66a
IV. Obviousness and Related § 112 Challenges ...... 70a
A. Obviousness...................................................... 70a
B. Enablement .................................................... 105a
C. Written Description (Uncoated PPI) ............ 108a
V. Conclusion ......................................................... 111a

35a
I.

Background

This is a patent dispute between Plaintiffs
Horizon Pharma, Inc. and Pozen Inc. (together,
“Horizon”) and two groups of generic drug
manufacturers: (1) Dr. Reddy’s Laboratories, Inc.
and Dr. Reddy’s Laboratories, Ltd. (“DRL”); and (2)
Mylan, Inc.; Mylan Pharmaceuticals Inc.; and Mylan
Laboratories Ltd. (“Mylan,” and together with DRL,
“Defendants”). Horizon holds New Drug Application
(“NDA”) No. 022511 for Vimovo, a branded drug
product whose active pharmaceutical ingredients are
naproxen and esomeprazole magnesium. (Dkt. 421 at
6.)1
This case arises out of Defendants’ submission of
Abbreviated New Drug Applications (“ANDAs”) to
the FDA pursuant to the Hatch-Waxman Act, 21
U.S.C. § 355(j), for the purpose of obtaining FDA
approval for the commercial manufacture, use,
import, offer for sale, and sale of a generic version of
Vimovo. Specifically, DRL filed ANDA No. 202461
(“DRL ANDA I”) and ANDA No. 204206 (DRL ANDA
II”). Mylan filed ANDA No. 204920 (“Mylan ANDA”).
Based on submissions by the parties in the pre- trial
order, all three ANDAs relate to tablets containing
375 mg or 500 mg of naproxen and 20 mg

The Court will cite documents filed on the Electronic Case
Filing System (“ECF”) by referring to the docket entry numbers
as “dkt.” Pincites reference ECF pagination.

1

36a
esomeprazole magnesium. (Dkt. 421 at 7–8.)2 All
three ANDAs included so-called “Paragraph IV”
certifications that the products would not infringe
Horizon’s patents and/or that those patents are
invalid or unenforceable. (Id.) The Paragraph IV
certifications covered U.S. Patent No. 6,926,907 (“the
’907 patent”) and No. 8,557,285 (“the ’285 patent”)
(together, the “Asserted Patents”). In response to
those Paragraph IV certifications, Horizon asserted
infringement of claims 5, 15, 52, and 53 of the ’907
patent. 3 Horizon has also asserted claims 1 through
4 of the ’285 patent. 4

2

Lupin Pharmaceuticals, Inc. and Lupin Ltd. (“Lupin”)
submitted an ANDA filing (No. 202654). Horizon’s case against
Lupin (Case No. 11-4275) has been stayed pending the outcome
of this case. (Dkt. 455.)
The asserted claims of the ’907 patent (together with claim 1
for context) are:
1. A pharmaceutical composition in unit dose form suitable
for oral administration to a patient, comprising:
(a) an acid inhibitor present in an amount effective to raise
the gastric pH of said patient
to at least 3.5 upon the administration of one or more
of said unit dosage forms;
(b) a non-steroidal anti-inflammatory drug (NSAID) in an
amount effective to reduce or eliminate pain or
inflammation in said patient upon administration of one or
more of said unit dosage forms; and wherein said unit
dosage form provides for coordinated release such that:
i) said NSAID is surrounded by a coating that, upon
ingestion of said unit dosage form by said patient, prevents
the release of
essentially any NSAID from said dosage
form unless the pH of the surrounding medium is 3.5
or
higher;

3

37a

ii) at least a portion of said acid inhibitor is not surrounded
by an enteric coating and, upon
ingestion of said unit dosage form by said patient, is
released regardless of whether the pH of the surrounding
medium is below 3.5 or above 3.5.
5. The pharmaceutical composition of claim 1, wherein said
acid inhibitor is a proton pump
inhibitor selected from the group consisting of: omeprazole,
esomeprazole, lansoprazole,
pantoprazole and rabeprazole.
15. The pharmaceutical composition of…claim[] 1…wherein
said acid inhibitor is a proton pump inhibitor.
51. A method of treating a patient for pain or inflammation,
comprising
administering
to
said
patient
the
pharmaceutical composition of claim 15.
52. The method of claim 51, wherein said pain or
inflammation is due to either osteoarthritis or rheumatoid
arthritis.
53. The pharmaceutical composition of any one of claims 511 wherein said unit dosage form is a multilayer tablet
comprising a single core and one or more layers outside of
said single core,
wherein:
i) said NSAID is present in said core;
ii) said coating that does not release said NSAID unless
the pH of the surrounding medium is
3.5 or higher
surrounds said core; and
iii) said acid inhibitor is in said one [or] more layers
outside said core. (’907 patent at col. 20, line 9 to col. 24,
line 6.)
4

The asserted claims of the ’285 patent are as follows:
1. A pharmaceutical composition in unit dosage form
comprising therapeutically effective amounts of:
(a) esomeprazole, wherein at least a portion of said
esomeprazole is not surrounded by an enteric coating; and
(b) naproxen surrounded by a coating that inhibits
its
release from said unit dosage form unless said dosage form
is in a medium with a pH of 3.5 or higher; wherein said

38a
Mylan has stipulated that its ANDA product
would infringe the Asserted Patents. (Dkt. 421 at 8.)
DRL has admitted that its DRL ANDA I Product
would infringe the Asserted Patents. (Id.) We
previously granted summary judgment in DRL’s
favor that its ANDA II Product does not infringe the
’907 patent. (Dkt. 380). Accordingly, the only
infringement dispute at trial was whether DRL’s
ANDA II Product infringes the ’285 patent. Most of
the trial was focused on Defendants’ contentions that
claims in the Asserted Patents are invalid under 35
U.S.C. § 103 and/or § 112.
We held a six day bench trial on those issues
from January 12–20, 2017 and heard closing
arguments on May 17, 2017.5 We heard live
testimony from seven witnesses. Dr. John Plachetka,
unit dosage form provides for release of said esomeprazole
such that upon introduction of said unit dosage form into a
medium, at least a portion of said esomeprazole is released
regardless of the pH of the medium.
2. The pharmaceutical composition of claim 1, wherein
naproxen is present in said unit dosage form in an amount
of 200-600 mg.
3. The pharmaceutical composition of claim 1, wherein
esomeprazole is present in said unit dosage form in an
amount of from 5 to 100 mg.
The trial transcript is separated into seven volumes, but the
pages are numbered consecutively. (See dkt. 458 (Vol. 1), dkt.
461 (Vol. 2), dkt. 463 (Vol. 3), dkt. 466 (Vol. 4), dkt. 468 (Vol. 5),
dkt. 471 (Vol. 6), and dkt. 491 (Vol. 7).) We will cite to the trial
transcript using the designation “Tr.” without indicating the
specific volume.

5

39a
called by Horizon, was the named inventor on the
Asserted Patents. (Tr. 15– 192.) Dr. David Metz,
called by Defendants, was qualified as an expert in
gastroenterology, including the treatment of acid
peptic disorder. (Tr. 260–396.) Dr. Arthur Kibbe,
called by Defendants, was qualified as an expert in
pharmaceutical formulation and development. (Tr.
408–565.) Dr. Michael Mayersohn, called by
Defendants, was qualified as an expert on
pharmacokinetics and pharmacodynamics. (Tr. 569–
603; Tr. 610–707.) Dr. Robert Williams, III, called
by Horizon, was qualified as an expert in
pharmaceutical formulation. (Tr. 716–842; Tr. 849–
1017.) Dr. David Taft, called by Horizon, was
qualified as an expert in pharmacokinetics. (Tr.
1018–1102.) Dr. David Johnson, called by Horizon,
was qualified as an expert in gastroenterology. (Tr.
1108–1266.) The parties also submitted designated
deposition testimony from Brian Ault (DTX-1393);
Mark Sostek (DTX-1396); Jeff Sherman (DTX-1397);
Dennis McNamara (DTX-1398); Abhijit Desmukh
(PTX-581); John Horn (PTX-582); T. Sudhakar
Koudinya (PTX-583); Snehalatha Movva (PTX-584);
and Badri Viswanathan (PTX-585).6

Defendants object to Dr. Horn’s deposition testimony as
inadmissible hearsay. (Dkt. 472.) We conclude that Dr. Horn’s
testimony is admissible because it satisfies the requirements of
the hearsay exception in Federal Rule of Civil Procedure 32(a)
for deposition testimony of an unavailable witness. See
Novozymes A/S v. Genencor Int'l, Inc., No. 05-160, 2006 WL
318936, at *1 (D. Del. Feb. 10, 2006). We note, however, that
the exclusion of Dr. Horn’s testimony would not have changed
any of our conclusions in this opinion.

6

40a
This opinion follows the parties’ division of the
relevant legal issues raised at trial and addresses
the interrelated infringement and § 112 issues in
Section III, infra, and the interrelated
obviousness
and § 112 issues in Section IV, infra. In support of
their arguments, Horizon
and
Defendants
submitted separate post-trial briefs on the issues
addressed in Section III (dkt. 489-2; dkt. 489-3) and
Section IV (dkt. 489; dkt. 489-1).
For the reasons below, we conclude that DRL’s
ANDA II Product infringes the ’285 patent and that
the asserted claims are not invalid under 35 U.S.C. §
103 and/or § 112. Accordingly, we will grant
judgment in Horizon’s favor and issue an
appropriate order.
II. Legal Standards
A. Infringement
The standard for patent infringement is set forth
in 35 U.S.C. § 271, which states that “whoever
without authority makes, uses, offers to sell, or sells
any patented invention, within the United States or
imports into the United States any patented
invention during the term of the patent therefor,
infringes the patent.” 35 U.S.C. § 271(a). The burden
to prove infringement rests with the patentee who
must prove infringement by a preponderance of the
evidence. Medtronic, Inc. v. Mirowski Family
Ventures, LLC, 134 S. Ct. 843, 846 (2014). To prove
infringement, the patentee must show that an
accused product is within the claim limitations of the
patent-in-suit either literally or under the doctrine of

41a
equivalents. See Warner Jenkinson Co., Inc. v.
Hilton Davis Chem. Co., 520 U.S. 17, 21 (1997);
Amgen Inc. v. F. Hoffman La Roche Ltd., 580 F. 3d
1340, 1374 (Fed. Cir. 2009). In a Hatch-Waxman
case, the actual act of infringement is the filing of an
ANDA to obtain approval to engage in the
commercial manufacture, use, or sale of a patented
drug or method of use. 35 U.S.C. § 271(e)(2).
Specifically, § 271(e)(2)(A) provides that it shall be
an act of infringement to submit an ANDA “if the
purpose of such submission is to obtain approval…to
engage in the commercial manufacture, use, or sale
of a drug…claimed in a patent or the use of which is
claimed in a patent before the expiration of such
patent.”
The infringement analysis is a two-step process
in which we must: (1) determine the scope and
meaning of the disputed patent claim terms; and (2)
compare the properly construed claims to the
allegedly infringing product or device. Advanced
Steel Recovery, LLC v. X-Body Equip., Inc., 808 F.3d
1313, 1316 (Fed. Cir. 2015).
B. Written Description
A patent specification must contain “a written
description of the invention.” 35 U.S.C. § 112(a). To
satisfy that requirement, “the specification must
describe an invention understandable to [a] skilled
artisan and show that the inventor actually invented
the invention claimed.” Ariad Pharms., Inc. v. Eli
Lilly & Co., 598 F.3d 1336, 1351 (Fed. Cir. 2010).
“The purpose of the written description requirement
is to prevent an applicant from later asserting that

42a
he invented that which he did not.” Amgen Inc. v.
Hoechst Marion Roussel, 314 F.3d 1313, 1330 (Fed.
Cir. 2003). The requirement thus mandates that the
applicant “recount his invention in such detail that
his future claims can be determined to be
encompassed within his original creation.” Vas-Cath
Inc. v. Mahurkar, 935 F.2d 1555, 1561 (Fed. Cir.
1991).
The “hallmark of written description is
disclosure,” and the test for its sufficiency is
“whether the disclosure . . . reasonably conveys to
those skilled in the art that the inventor had
possession of the claimed subject matter as of the
filing date.” Ariad, 598 F.3d at 1351. “It is the
specification
itself
that
must
demonstrate
possession” and analysis of the adequacy of the
written description “requires an objective inquiry
into the four corners of the specification from the
perspective of a person of ordinary skill in the art.”
Id. at 1351–52. The disclosure must “allow one
skilled in the art to visualize or recognize the
identity of the subject matter purportedly described.”
Enzo Biochem, Inc. v. Gen-Probe Inc., 323 F.3d 956,
968 (Fed. Cir. 2002).
“There is no rigid requirement that the
disclosure contain ‘either examples or an actual
reduction to practice.’” Allergan, Inc. v. Sandoz Inc.,
796 F.3d 1293, 1308 (Fed. Cir. 2015) (quoting Ariad,
598 F.3d at 1352). Rather, “the proper inquiry is
whether the patentee has provided an adequate
description that ‘in a definite way identifies the
claimed invention’ in sufficient detail such that a

43a
person of ordinary skill would understand that the
inventor had made the invention at the time of
filing.” Id. at 1308. Moreover, “an applicant is not
required to describe in the specification every
conceivable and possible future embodiment of his
invention.” See Cordis Corp. v. Medtronic AVE, Inc.,
339 F.3d 1352, 1365 (Fed. Cir. 2003). The
challenging party must show lack of adequate
written description by clear and convincing evidence
to rebut the patent’s presumption of validity. Alcon
Research Ltd. v. Barr Labs., Inc., 745 F.3d 1180,
1188–91 (Fed. Cir. 2014).
C. Enablement / Utility
35 U.S.C. § 112 requires applicants to describe
the manner of making and using the invention “in
such full, clear, concise, and exact terms as to enable
any person skilled in the art … to make and use the
same…” The Federal Circuit has explained that “the
how to use prong of section 112 incorporates as a
matter of law the requirement of 35 U.S.C. § 101
that the specification disclose as a matter of fact a
practical utility for the invention.” Rasmusson v.
SmithKline Beecham Corp., 413 F.3d 1318, 1323
(Fed. Cir. 2005) (citing In re Cortright, 165 F.3d
1353, 1356 (Fed. Cir. 1999)). As a result, “an
applicant’s failure to disclose how to use an
invention may support a rejection under . . . section
112…when there is a complete absence of data
supporting the statements which set forth the
desired results of the claimed invention.” Id.
(internal quotations omitted). Conversely, “a
specification disclosure which contains a teaching of
the manner and process of making and using the

44a
invention…must be taken as in compliance with the
enabling requirement of the first paragraph of
[section] 112 unless there is reason to doubt the
objective truth of the statements contained therein
which must be relied on for enabling support.” Id.
The challenging party bears the burden of showing
by clear and convincing evidence that the
specification lacks adequate enablement. ALZA
Corp. v. Andrx Pharms., 603 F.3d 935, 940 (Fed. Cir.
2010).
D. Obviousness
Under 35 U.S.C. § 103, a “patent may not be
obtained…if the differences between the subject
matter sought to be patented and the prior art are
such that the subject matter as a whole would have
been obvious at the time the invention was made to
a person having ordinary skill in the art to which
said subject matter pertains.” “Obviousness is a
question of law, which depends on several
underlying factual inquiries.” See Senju Pharm. Co.
v. Apotex Inc., 717 F. Supp.2d 404, 418 (D. Del.
2010), aff’d, 485 Fed. App’x 433 (Fed. Cir. 2012).
Those inquiries include the scope and content of the
prior art, differences between the prior art and the
claims at issue, and the level of ordinary skill in the
pertinent art. KSR Int’l Co. v. Teleflex Inc., 550 U.S.
398, 406 (2007) (quoting Graham v. John Deere Co.,
383 U.S. 1, 17-18 (1966)). We also consider as part of
the obviousness analysis “secondary considerations,”
including commercial success, long felt but unsolved
needs, and failure of others. Id. “A nonmovant may
rebut a prima facie showing of obviousness with
objective indicia of nonobviousness.” Ormco Corp. v.

45a
Align Tech., Inc., 463 F.3d 1299, 1311 (Fed. Cir.
2006). “Although secondary considerations must be
taken into account, they do not necessarily control
the obviousness conclusion.” In re Huai–Hung Kao,
639 F.3d 1057, 1068 (Fed. Cir. 2011).
“[A] patent composed of several elements is not
proved obvious merely by demonstrating that each of
its elements was, independently, known in the prior
art.” Id. at 418; see also Unigene Labs., Inc. v.
Apotex, Inc., 655 F.3d 1352, 1360 (Fed. Cir. 2011).
Instead, proof of obviousness requires proof that a
person of ordinary skill in the art (“POSA”) “would
have been motivated to combine the teachings of the
prior art references to achieve the claimed invention,
and…would have had a reasonable expectation of
success in doing so.” Procter & Gamble Co. v. Teva
Pharm. USA, Inc., 566 F.3d 989, 994 (Fed. Cir.
2009). A POSA would interpret prior art references
“using common sense and appropriate perspective.”
Unigene Labs., 655 F.3d at 1361. The party
challenging the validity of the patent must prove
obviousness by clear and convincing evidence. See
Novo Nordisk A/S v. Caraco Pharm. Labs., Ltd., 719
F.3d 1346, 1352 (Fed. Cir. 2013)
III. Infringement and Related § 112 Challenges
to the ’285 Patent
The only infringement question at trial was
whether DRL’s ANDA II Product infringes claims 1,
2, 3, and 4 of the ’285 patent. See Section I, supra.
Horizon submitted evidence that DRL’s ANDA II
Product satisfies each limitation of the asserted
claims. In response, Defendants offer a pair of

46a
arguments in the alternative. One argument (and,
per Defendants, the “better decision” for us to reach)
is that the asserted ’285 patent claims are invalid for
lack of written description on two distinct grounds.
The other is that DRL’s ANDA II Product cannot
infringe the ’285 patent if we construe the claims
such that they survive the written description
challenges. In this section, we reject both written
description challenges and conclude that DRL’s
ANDA II Product infringes the ’285 patent.
A. Written Description (Uncoated Naproxen)
Defendants’ first written description challenge
involves two primary contentions. First, Defendants
contend that claim 1 of the ’285 patent encompasses
formulations that include naproxen that is released
immediately. Second, they contend that the ’285
patent specification discloses a coordinated release
product that does not permit the immediate release
of naproxen. This purported disconnect between the
scope of the claims and the specification forms the
basis of the written description challenge. This
section consequently proceeds in two parts. First, we
review the parties’ evidence and arguments related
to the scope of the ’285 patent claims and the written
description of the invention in the ’285 patent
specification. Second, we assess whether the ’285
patent claims are adequately described by the patent
specification under the applicable legal standards.

47a
1. Parties’ Evidence and Arguments
(i)

Scope of the ’285 patent claims

Claim 1 of the ’285 patent reads:
A pharmaceutical composition in
unit dosage form comprising therapeutically
effective amounts of:

(a) esomeprazole, wherein at least a portion
of said esomeprazole is not surrounded by an
enteric coating; and

(b) naproxen surrounded by a coating that
inhibits its release from said unit dosage
form unless said dosage form is in a medium
with a pH of 3.5 or higher;

wherein said unit dosage form provides for
release of said esomeprazole such that upon
introduction of said unit dosage form into a
medium, at least a portion of said
esomeprazole is released regardless of the
pH of the medium.
(’285 patent at col. 22, lines 8–14.)
Any product alleged to infringe claim 1 must, of
course, satisfy the enteric coated naproxen claim
limitation set forth in subsection (b). The question
before us is the scope of claim 1 as it pertains to
uncoated naproxen that may be released into the

48a
body immediately regardless of pH level. 7 The plain
language of claim 1 does not explicitly restrict the
amount of uncoated naproxen that may be present in
the claimed formulation and indeed the parties agree
that the claim encompasses formulations that have
at least some uncoated naproxen. The real dispute
between the parties is whether claim 1 limits how
much uncoated naproxen may be present in the
claimed formulation. Broadly, Defendants urge us to
adopt the “plain meaning” of the claim, which
“imposes no limitation on the amount of naproxen
that may be outside the enteric coating.” (Dkt. 489-2
at 12.) Horizon argues that the claim covers
formulations that contain uncoated naproxen so long
as it is less than a “therapeutically effective
amount.” 8 (Dkt. 489-3 at 16–17.)
Defendants’ proposed reading of claim 1 is
straightforward: the plain language of the claim
imposes no limitation on the amount of uncoated
naproxen that may be present in claimed
formulations, and it would be improper to read in
We follow the parties in using the phrase “enteric coating” as
shorthand to describe the pH-sensitive coating used to satisfy
the limitation in claim 1, subsection (b). We use the term
“uncoated naproxen” to mean naproxen without an enteric
coating that may be released immediately regardless of pH.
Because the enteric coating in Vimovo is applied around a
naproxen “core” of the tablet, the term “uncoated naproxen” can
also refer to the naproxen outside the (enteric coated) core.

7

The parties appear to use the term “therapeutic amount” and
“therapeutically effective amount” interchangeably.

8

49a
such a limitation. (Dkt. 489-2 at 12–14.) Defendants
argue that a POSA “would recognize that any
amount of naproxen outside the enteric coating (and
that could fit in a “unit dosage form”) would be
covered by the ’285 patent claims.” (Id. at 12.) They
note that Horizon expert Dr. Williams testified that
a POSA would understand the term “comprising” to
permit the inclusion of additional elements. (Id.; Tr.
821:6-25.) Dr. Williams also explained, in his
infringement analysis, that he could “ignore”
uncoated naproxen given the “comprising” language.
(Tr. 855:12-24.)
Defendants submit that their interpretation is
consistent with the history of the ’285 patent
because Horizon deliberately removed the claim
limitation related to uncoated naproxen. (Dkt. 489-2
at 8–9.) As Defendants explain, the ’285 patent
differs somewhat from the earlier-issued ’907 patent.
Claim 1 of the ’907 patent restricts the amount of
uncoated naproxen that may be present by requiring
NSAID surrounded by a coating that prevents the
release of “essentially any NSAID…unless the pH of
the surrounding medium is 3.5 or higher.” (’907
patent at col. 20, lines 8–32.) Allegedly to avoid
infringement of the ’907 patent, DRL formulated its
ANDA II Product with some naproxen outside of the
enteric coated core of the tablet. (Dkt. 489-2 at 7.) As
part of this litigation, we previously construed the
term “essentially any NSAID” to mean “the
minimum amount of NSAID released by an enteric
coated dosage form, or tablet.” (Dkt. 380 at 18–22.)
Because DRL’s ANDA II product [redacted], we
concluded that DRL’s ANDA II Product does not

50a
infringe the ’907 patent. (Id. at 22–23.) Horizon was
later granted the ’285 patent, which does not contain
the “essentially any NSAID” language that formed
the basis of our non-infringement finding for the ’907
patent.
Horizon disagrees with Defendants’ proposed
reading of claim 1 of the ’285 patent, and urges us to
interpret the claim to limit the amount of
permissible uncoated naproxen to less than a
“therapeutic amount.” 9 Dr. Williams testified that a
POSA would understand the claim to allow only “less
than a therapeutic amount” of uncoated naproxen.
(Tr. 821:15–822:7.) Horizon also points to a decision
from the Patent Trial and Appeal Board (“PTAB”)
denying Inter Partes review of the ’285 patent and
purportedly supporting Horizon’s “therapeutic
amount” limitation. 10 The PTAB concluded that
The ’285 patent states that the “most preferred NSAID is
naproxen in an amount of between 50 mg and 1500 mg, and
more preferably, in an amount between 200 mg and 600 mg.”
(’285 patent at col. 4, lines 11–14.) The parties accordingly
appear to agree that the smallest “therapeutic amount” of
Naproxen would be 50 mg. The distinction is irrelevant for
infringement purposes in this case because DRL’s ANDA II
Product [redacted].

9

See Dr. Reddy’s Laboratories, Inc. v. Pozen Inc., IPR201500802, Paper No. 28 (P.T.A.B. Oct. 9, 2015). For ease of
reference, we will cite this PTAB decision by its trial exhibit
number, PTX-351. We acknowledge Defendant Mylan’s concern
that it was not a party to the PTAB proceeding. (Tr. 547:23–
459:19.) None of our conclusions depend on the PTAB’s decision
but, as discussed below, we are mindful of instances where the
PTAB rejected arguments comparable to those made at trial.
10

51a
claim 1 of the ’285 patent “does not exclude the
presence of additional naproxen outside of the
coating” and “does not exclude a unit dosage form
that has an amount of naproxen outside the coating
that is not therapeutically effective.” (PTX-351 at
13.) Consequently, the PTAB rejected the argument
that claim 1 “encompass[ed] a composition where the
vast majority of the naproxen, i.e., a therapeutically
effective amount, would be outside the coating.”
(PTX-351 at 12.)
Defendants argue that Horizon’s proposed
therapeutic amount limitation is inconsistent with
an FDA Citizen’s Petition filed by Horizon. (Dkt.
489-2 at 26–27; DTX-1248.) In that petition, Horizon
argued to the FDA that “locating any naproxen
outside the enteric coated core will result in the
immediate release of at least some portion of the
naproxen at the same time as esomeprazole is
released. Any portion of the generic product’s
naproxen that is released prematurely in the
stomach will act both topically and systemically
without the benefit of the raised gastric pH produced
by the esomeprazole component.” (DTX-1248 at 7
(emphasis added).) In the same petition, Horizon
argued that esomeprazole/naproxen combination
tablets with uncoated naproxen “could subject
patients to significantly increased risk of potentially
fatal side effects.” (DTX-1248 at 7; Tr. 436:19–437:5.)
Because Horizon has separately argued to the FDA
that any amount of uncoated naproxen might pose a
safety risk, Defendants claim that Horizon’s

52a
therapeutic amount limitation is not credible.
Defendants further argue that a therapeutic amount
limitation does not make sense because the FDA
rejected the notion that the sequential release of
esomeprazole and naproxen in Vimovo is clinically
significant. (DTX-1250 at 7; Tr. 358:11-23; Tr.
462:10-23.)
Defendants also ask us to reject Horizon’s
proposed therapeutic amount limitation because it
was not raised during discovery. (Dkt. 489-2 at 18.)
Dr. Williams did not explicitly propose a therapeutic
amount limitation in his deposition. Instead, Dr.
Williams testified at his deposition that some
amount of naproxen outside of an enteric coating
might pose a safety issue but did not quantify how
much. (Tr. 855:19–858:11.) Moreover, Defendants
claim that Horizon “admitted” that the “plain
meaning of the ’285 patent claims applied and they
had no limitation on the amount of naproxen that
could be outside of an enteric coating.” (Id. at 15.)
They point to statements in Horizon’s invalidity
contentions that “the disclosed dosage forms [in the
’285 patent] may include additional naproxen
outside the coating.” (DTX-1333 at 48–49.)
Horizon in turn rejects the relevance of its
Citizen’s Petition to understanding the scope of the
’285 patent claims. They argue that the relevant
time period for our analysis is the priority date, and
that any statements made in the Citizen’s Petition
(which was submitted years later) should not bear on
our analysis. (Dkt. 489-3 at 25.) Horizon also notes
that its Citizen’s Petition merely “requested that the

53a
FDA require testing to ensure that products
containing non-enteric coated naproxen were as safe
as those that contained only enteric coated
naproxen.” (Id.; DTX-1248 at 2.)
(ii)

Invention as described

Defendants submit that the ’285 patent
specification discloses a “coordinated release”
product that does not immediately release any
NSAID (e.g., naproxen). The first part of Defendants’
argument—that the ’285 patent specification
discloses a coordinated release product—is not
particularly controversial. The title of the ’285
patent is “Pharmaceutical Compositions for the
Coordinated Delivery of NSAIDS” and the patent
itself notes that the invention is directed to
“pharmaceutical compositions that provide for the
coordinated release of an acid inhibitor and an
[NSAID]….” (’285 patent at col. 1 lines 20–23.) As
explained by defense expert Dr. Kibbe, “coordinated
release” is the mechanism by which a formulation
achieves “coordinated delivery.” (Tr. 420:11–422:12.)
Evidence from both sides also indicates that
coordinated release refers here to sequential
delivery. The ’285 patent itself discloses “the
coordinated release of therapeutic agents, i.e., for the
sequential release of acid inhibitor followed by
analgesic.” (’285 patent at col. 6, lines 23–35.) Dr.
Kibbe and Horizon expert Dr. Williams both
described coordinated release as sequential release.
(Tr. 420:20–421:7; Tr. 861:9-12.) The description of
the invention offered by the named inventor, Dr.
Plachetka, also supports this view. Dr. Plachetka

54a
explained that the coordinated delivery is the
immediate release of the proton pump inhibitor
followed by the release of the NSAID when the pH
rises to a certain level. (Tr. 43:22–44:10.) According
to Dr. Plachetka, “[t]he whole point of the idea here
is to get acid inhibition before the administration of
the NSAID…” (Tr. 134:4-5.)
The parties disagree on Defendants’ second
contention—namely,
that
the
’285
patent
specification does not describe formulations where
some naproxen is released immediately. Dr. Kibbe
testified that there were no teachings in the ’285
patent specification related to formulations where
naproxen is released before esomeprazole. (Tr.
431:19–432:5.) He also said that “[t]here is no
support for any release of naproxen until the enteric
coat comes off.” (Tr. 437:11-17.) In Dr. Kibbe’s view,
a product that releases even some naproxen early
cannot have a coordinated release within the
meaning of the patent specification. (Tr. 422:14–
423:16.)
Defendants point to our previous statements
regarding the ’907 patent specification as evidence of
the nature of the invention disclosed in the ’285
patent specification. Both Dr. Kibbe and Dr.
Williams noted that the specifications of the two
patents are essentially the same. (Tr. 419:9-22; Tr.
856:14-17.) We did observe earlier in this litigation
discussing the ’907 patent:
The ‘907 patent’s distinction from prior art is
the
“coordinated
drug
release…[and

55a
reduction of] intragastric acid levels to a nontoxic level prior to the release of NSAID.”
The specification does not contemplate an
embodiment that releases a small amount of
NSAID before the GI tract reaches a pH of
3.5 or above, nor does the specification state
that releasing a small amount of NSAID
would be “acceptable or part of the
invention.”
(Dkt. 380 at 19) (internal citations omitted). 11
Defendants also point to Horizon’s FDA Citizen’s
Petition as evidence that the invention disclosed in
the ’285 patent does not extend to formulations that
immediately release some naproxen. In that petition,
Horizon told the FDA that a formulation with some
uncoated naproxen (i.e., DRL’s ANDA II Product)
“obviates VIMOVO’s careful design and allows
release of a measureable amount of naproxen before
the gastroprotective benefits of esomeprazole can
take effect” and “that VIMOVO’s design is intended
to produce a sequential delivery of gastroprotective
esomeprazole before systemic (or local) exposure to
naproxen.” (DTX-1248 at 2, 5.) In Defendants’ view,
these statements are evidence that Horizon viewed
any early release of naproxen as antithetical to the
Horizon disagrees that our previous statements on the ’907
patent are useful in characterizing the invention and notes that
the statements were made in the context of construing
“essentially any NSAID,” a claim term that does not appear in
the ’285 patent. (Dkt. 489-3 at 23–24.)

11

56a
key aspect of the invention—that is, delaying the
release of naproxen until after the esomeprazole can
take effect. (Dkt. 489-2 at 25–26.) In sum,
Defendants argue that coordinated release is the
“central feature” of the invention disclosed in the
specification and that formulations with uncoated
naproxen are “not the invention and even . . .
contrary to it.” (Dkt. 489-2 at 19.)
To illustrate how the ’285 patent claims
encompass formulations that do not have a
coordinated release, Defendants offered an example
of a hypothetical product containing a 50 mg
naproxen core surrounded by an enteric coating, an
esomeprazole layer immediately above, and an outer
layer with 49 mg of naproxen. Defendants submit
that this product cannot be considered to have a
“coordinated release” because nearly half of the
naproxen is released immediately. (Dkt. 489-2 at 23.)
They argue that such a formulation is fundamentally
at odds with what Dr. Plachetka says he invented.
(Tr. 134:4-5.)
Dr. Williams disagreed with Defendants and
testified that a formulation with some uncoated
naproxen would still have a coordinated release. (Tr.
884:4-12.) Horizon likewise rejects Defendants’ use
of a hypothetical formulation, which, in their view,
“in no way represent[s] any of Defendants’ ANDA
products” and for which there is no evidence “that a
person of skill in the art exercising any sort of reason
would actually contemplate making or using them.”
(Dkt. 489-3 at 15.) Horizon argues that “even if
Defendants’ unrealistic, hypothetical embodiments

57a
fell within the literal scope of the claims, one of skill
in the art would understand them to be
unreasonable and inoperable embodiments and
would not pursue them.” (Id.)
2. Analysis
We turn now to the question of whether the ’285
patent claims are adequately described by the ’285
patent specification. As summarized above, the
parties dispute both the scope of the claimed
invention and the adequacy of the written
description. As to the scope of the claims, we agree
with Defendants that claim 1 of the ’285 patent—
whose only naproxen-related limitation relates to
enteric coated naproxen—does not limit the amount
of uncoated naproxen that may be present in claimed
formulations.12 It is well understood in patent law
that the term “comprising” does not exclude
additional elements in addition to the elements
named in the claim. See Amgen Inc. v. Hoechst
Marion Roussel, Inc., 314 F.3d 1313, 1344–45 (Fed.
Cir. 2003) (“Comprising is a term of art used in claim
language which means that the named elements are
essential, but other elements may be added and still
form a construct within the scope of the claim.”). The
language of the claim itself does not preclude
uncoated naproxen.
We are not persuaded by
Horizon’s argument that we should read in a
Any such uncoated naproxen would necessarily be in addition
to the therapeutic amount of enteric coated naproxen required
by subsection (b) of claim 1.

12

58a
“therapeutic amount” limitation on uncoated
naproxen, particularly as that interpretation finds
little support in the claim language, specification, or
anywhere else. See Omega Eng’g, Inc, v. Raytek
Corp., 334 F.3d 1314, 1323 (Fed. Cir. 2003) (noting
“heavy presumption that claim terms carry their full
ordinary and customary meaning” (internal
quotations omitted)).
We disagree with Defendants, however, that the
’285 patent specification precludes the inclusion of
uncoated naproxen in the formulations it describes.
The specification itself is silent on whether the
formulation can include uncoated naproxen in
addition to the enteric coated naproxen present in
the claimed formulation. Defendants point out,
fairly, that the ’285 patent specification describes a
product whose embodiments “preferably” provide for
coordinated drug release such that “the acid
inhibitor is released first and the release of NSAID
is delayed until after the pH in the GI tract is risen.”
(’285 patent at col. 4, lines 45–51.) It is likewise true
that the specification explains that the invention is
at least in part directed toward resolving injuries
associated with NSAIDs being released “before the
pH of the gastrointestinal tract can be raised….” (Id.
at col. 1, lines 60–64.) We agree that these and other
statements in the specification might counsel a
POSA against incorporating uncoated naproxen
when formulating the described invention. Indeed,
Horizon expert Dr. Williams expressed skepticism
about a hypothetical formulation that contained
uncoated naproxen because he did not “know why
someone would want to do this” when the patent was

59a
“about preventing the release of…of the therapeutic
amount of NSAID from that enteric coating until the
pH is above 3.5.” (Tr. 883:12-24.)
That the specification can be read to convey a
preference for formulations without uncoated
naproxen, however, does not warrant invalidating
the claims under § 112(a). To hold otherwise would
be to invalidate the claims simply because they
encompass less preferable embodiments—a reading
of § 112(a) that we find incompatible with patent law
principles. See, e.g., Cordis Corp. v. Medtronic AVE,
Inc., 339 F.3d 1352, 1365 (Fed. Cir. 2003) (“an
applicant is not required to describe in the
specification every conceivable and possible future
embodiment of his invention”); Gillette Co. v.
Energizer Holdings, Inc., 405 F.3d 1367, 1371 (Fed.
Cir. 2005) (“a patentee typically claims broadly
enough to cover less preferred embodiments as well
as more preferred embodiments, precisely to block
competitors from marketing less than optimal
versions of the claimed invention”); Golight, Inc. v.
Wal-Mart Stores, Inc., 355 F.3d 1327, 1331–32 (Fed.
Cir. 2004) (“An applicant is not necessarily required
by 35 U.S.C. § 112 …to describe more embodiments
than its preferred one, and…[it has] outright
rejected the notion that disclosure of a single
embodiment necessarily limits the claims.”)
We note that Defendants have offered an
unusual written description challenge here that
appears to have little support in the law. Rather
than allege that a specific element of the claim lacks
support in the specification, Defendants argue that

60a
the claim is invalid for merely allowing the
possibility of the addition of uncoated naproxen in
view of the specification. The question of whether a
POSA would view the ’285 patent specification (and
Defendants’ other extrinsic evidence) as limiting the
plain language of the claim to preclude the presence
of uncoated naproxen would seem a more natural fit
for claim construction proceedings. The law of
written description requires us to evaluate whether
the four corners of the specification “reasonably
convey[] to those skilled in the art that the inventor
had possession of the claimed subject matter as of
the filing date.” Ariad, 598 F.3d at 1351–52. Our
inquiry is therefore whether the ’285 patent
specification would reasonably convey to a POSA
that Dr. Plachetka had possession of the
“invention”—here a combination drug product
featuring enteric coated naproxen and an uncoated
proton pump inhibitor (“PPI”). As Dr. Williams
explained at trial, those elements are indeed present
and described in the specification. (Tr. 812:17–
824:10.) Whether there is extrinsic evidence, such as
Horizon’s FDA Citizen’s petition, suggesting that the
presence of uncoated naproxen was against the spirit
of the invention does not bear on our written
description analysis. Because Defendants have not
demonstrated by clear and convincing evidence that
any element of the claimed invention lacks written
description support, we decline to invalidate the ’285
patent on those grounds.

61a
B. Written Description (Sustained Release
Formulations)
Defendants’ second written description challenge
arises out of the use of the term “inhibits” in claim 1
of the ’285 patent. In their view, the use of the word
“inhibits” extends the scope of the claim to include
“sustained
release”
formulations
while
the
specification discloses only “delayed release”
formulations. As above, we first review the parties’
evidence and arguments related to the scope of the
claims and the description in the patent
specification. We then analyze whether the claims
satisfy the written description requirement of §
112(a) on this issue.
1. Parties’ Evidence and Arguments
(i)

Scope of the ’285 patent claims

Claim 1 of the ’285 patent requires, inter alia,
“naproxen surrounded by a coating that inhibits its
release from said unit dosage form unless said
dosage form is in a medium with a pH of 3.5 or
higher.” (’285 patent claim at col. 22, lines 12–14
(emphasis added).) Defendants submit that the term
“inhibits” should be given its plain meaning, “to slow
down.” (Dkt. 489-2 at 12; Tr. 887:1-7.) They highlight
a previous filing in this case where Horizon agreed
that the plain meaning of “inhibit” was “slow down
or stop” and that “inhibit” in the ’285 patent claims
takes on this plain meaning. (DTX 1333 at 51.)
Defendants also contend that the term
“inhibits” should be understood to be broader than

62a
the term “prevents” because the term was
consciously selected by the inventor to expand the
scope of the ’285 patent claims beyond what was
claimed in the ’907 patent. (Dkt. 489-2 at 30.) Claim
1 of the earlier-issued ’907 patent requires an
“NSAID…surrounded by a coating that…prevents
the release of essentially any NSAID from said
dosage form unless the pH of the surrounding
medium is 3.5 or higher.” (’907 patent at col. 20,
lines 22–27 (emphasis added).) Horizon expert Dr.
Williams agreed that a POSA might presume that
“inhibits” in the ’285 patent means something
different than “prevents” in the ’907 patent because
the language is different in the two claims. (Tr.
892:20-24; see also Tr. 885:8-17.) Per defense expert
Dr. Kibbe, the term “inhibits” (understood as “slows
down”) extends the scope of the claim to “sustained
release” formulations. (Tr. 416:4-23; 438:12–441:14.)
A sustained release product, as described by Dr.
Kibbe, is one that “begins releasing right away, but
it does so at a slower rate than you would see if you
were comparing it to an immediate-release product.”
(Tr. 441:10-13.) Dr. Kibbe contrasted sustained
release products, which allow for immediate (albeit
slowed) release of the active ingredient, with
formulations that “stop” drug release, meaning that
“for a fixed period of time, no drug will come out
until the dosage form migrates into an area where
the pH is above the pH of the enteric coat.” (Tr.
441:6-9.)
Horizon argues that a POSA “would recognize
that the term ‘inhibit’ in the ’285 patent describes
the same goal as the term ‘prevent’ in the context of

63a
the ’907 patent.” (Dkt. 489-3 at 27.) As Dr. Williams
testified, “inhibit” would be understood by a POSA
“to accomplish the goal of no release in the stomach,
in acid, or until the pH is 3.5 or higher.” (Tr. 814:21–
815:2.) That understanding, according to Horizon,
would arise out of a POSA’s reading of the
specification (discussed below). Horizon also urges us
to reject Dr. Kibbe’s trial testimony as incredible in
light of previous statements in his expert report that
“[a] person of ordinary skill in the art would
understand the word ‘inhibit’ to mean ‘prevent’
based upon the specification of the ’285 patent.” (Tr.
556:7-12.)
(ii)

Invention as described

Defendants submit that the ’285 patent
specification does not contain any disclosure related
to “sustained release” products—i.e., formulations
that slowly but immediately release the active
ingredient. Instead, Dr. Kibbe pointed to various
instances in the ’285 patent specification that refer
specifically to “prevent[ing]” the release of naproxen.
(Tr. 439:14–440:17; see, e.g., ’285 patent at col. 4,
lines 64–67; id. at col. 5, lines 34–39; id. at col. 9,
lines 30–33.) As he explained, the term “inhibits” is
not used in the specification to refer to the release of
naproxen; to the extent it is used at all, it describes
proton pump inhibition. (Tr. 438:15–439:2.) Horizon
expert Dr. Williams agreed that the specification
does not “talk[] about” sustained release
formulations. (Tr. 890:19-24.)
Horizon submits that the specification does
disclose what it means to “inhibit” in the context of a

64a
coating. (Dkt. 489-3 at 27; Tr. 814:18-20.) The ’285
patent describes two types of coatings that may be
used to surround the NSAID. (Dkt. 489-3 at 28.) One
is the pH-sensitive enteric coating that does not
dissolve until the pH of the surrounding medium is
3.5 or higher. (See, e.g., ’285 patent at col. 4, lines
54–59.) The other coating described “controls the
release of NSAID by time, as opposed to pH, with the
rate adjusted so that NSAID is not released until
after the pH of the gastrointestinal tract has risen to
at least 3.5.” (Id. at col. 4, lines 59–67.) In Horizon’s
view, these alternatives describe coatings that either
prevent the release of naproxen at low pH or delay
its release until sufficient time has passed to allow
the pH to rise. (Dkt. 489-3 at 28.)
2. Analysis
Defendants argue that claim 1 of the ’285 patent
fails the written description requirement of 35
U.S.C. § 112(a) because the claim encompasses
sustained release formulations and the patent
specification does not describe sustained release
formulations. (Dkt. 489-2 at 29–30.) Their argument
primarily rests on the assertion by defense expert
Dr. Kibbe that the use of the term “inhibits” in claim
1 broadens the claim to encompass “sustained
release” formulations. (Tr. 438:15–439:2.)13
As with Defendants’ written description challenge in Section
III.A, supra, the question of whether use of the claim term
“inhibits” broadens the scope of the claim appears more
properly considered a claim construction issue than a written
description challenge.
13

65a
We note that the PTAB recently rejected a
similar argument from DRL. In that proceeding, as
here, the parties argued over whether “inhibits”
should be afforded its ordinary meaning or
interpreted to mean something akin to “prevents.”
(PTX-351 at 13.) DRL argued then that claim 1 of
the ’285 patent “encompass[es] formulations that
release all of its naproxen slowly at any pH, instead
of preventing release until the formulations are in a
medium with a pH of 3.5 or higher.” (Id. at 14.) The
PTAB declined to provide an explicit definition of
“inhibits” because it did not “discern a significant
difference between the definitions offered by the
parties.” (Id.) The PTAB, however, “disagree[d] with
[DRL]’s interpretation of the difference in breadth
between ‘inhibit,’ ‘prevent,’ and ‘delay,’ [which]
would lead to the conclusion that the claims of the
’285 patent encompass a formulation that releases
all of its naproxen slowly at any pH.” (Id. at 14–15.)
Accordingly, the PTAB concluded that the claims of
the ’285 patent, including the term “inhibits,” were
adequately supported by the relevant specification.
(Id. at 19.)
We conclude that Defendants have failed to meet
their burden to show by clear and convincing
evidence that claim 1 of the ’285 patent lacks written
description support. We are not convinced that use of
the term “inhibits” in claim 1 expands the scope of
the claim to include sustained release formulations.
A POSA reading the specification would understand
that the term “inhibits” in the context of the patent
refers back to the enteric coatings described in the

66a
patent specification that encompass both preventing
and delaying the release of naproxen. (See, e.g., ’285
patent at col. 4, lines 54–67.) Put another way, given
the description in the specification of coatings that
“inhibit” the release of an NSAID in specific ways,
(Tr. 815:6–9), we are unconvinced that a POSA
would understand that claim 1 of the ’285 patent
encompasses
sustained
release
formulations.
Because we conclude that the claim does not
encompass sustained release formulations, we need
not reach the question of whether the specification
adequately describes such formulations.
C. Infringement
Horizon alleges that DRL’s ANDA II Product
infringes claims 1– 4 of the ’285 patent. Having
evaluated the scope and meaning of the pertinent
claim terms above, we now compare those claims
against the allegedly infringing product. Advanced
Steel Recovery, LLC v. X-Body Equip., Inc., 808 F.3d
1313, 1316 (Fed. Cir. 2015). DRL’s ANDA II Product
[redacted]. (PTX-234 at 25.) DRL’s “500 mg/20”
dose ANDA II Product [redacted]. (Id.) DRL’s “375
mg/20 mg” dose ANDA II Product [redacted].
[redacted]. (Id.) [redacted]. [redacted]. (Id.) In
addition, [redacted]. [redacted]. (PTX-014 at 15.)
We now turn to whether the product satisfies the
various claim limitations of the asserted claims. 14

Mylan takes no position on whether DRL’s ANDA II Product
infringes the ’285 patent. (Dkt. 489- 2 at 6.)

14

67a
1. Claim 1 of the ’285 patent
(i)

“a pharmaceutical composition in
unit dosage form”

Horizon provided unrebutted testimony that the
DRL ANDA II Product is “a pharmaceutical
composition in unit dosage form.” (Tr. 833:18-834:1.)
(ii)

“therapeutically effective amounts
of: (a) esomeprazole, wherein at
least a portion of said esomeprazole
is not surrounded by an enteric
coating”

Horizon provided unrebutted testimony that the
DRL ANDA II Product includes a “therapeutically
effective amount[] of esomeprazole.” (Tr. 834:5–
835:5.) Further, the esomeprazole in the DRL ANDA
II Products is not surrounded by an enteric coating.
(Tr. 835:6-20; PTX-234 at 25.)
(iii) “therapeutically effective amounts
of: (b) naproxen surrounded by a
coating that inhibits its release
from said unit dosage form unless
said dosage form is in a medium
with a pH of 3.5 or higher”
Horizon provided unrebutted testimony that the
DRL ANDA II Product [redacted]. [redacted].,
both of which are therapeutically effective amounts.
(Tr. 835:22–836:12.) [redacted]. DRL II ANDA
Products [redacted]. [redacted]. (Tr. 838:8-21.)

68a
[redacted]. DRL II ANDA Products [redacted].
[redacted]. (Tr. 838:8-21)
(iv)

“wherein said unit dosage form
provides for release of said
esomeprazole such that upon
introduction of said unit dosage
form into a medium, at least a
portion of said esomeprazole is
released regardless of the pH of the
medium”

Horizon provided unrebutted testimony that
DRL’s ANDA II Product [redacted].
(Tr. 838:22–839:15.)
Because DRL’s ANDA II Product satisfies each
limitation of claim 1 of the ’285 patent, we find that
Horizon has proven by a preponderance of the
evidence that DRL’s ANDA II Product infringes that
claim.
2. Claim 2 of the ’285 patent
Claim 2 of the ’285 patent reads: “The
pharmaceutical composition of claim 1, wherein
naproxen is present in said unit dosage form in an
amount of 200-600 mg.” (’285 patent at col. 22, lines
19–21.) Horizon provided unrebutted testimony that
DRL’s ANDA II Product [redacted]. (Tr. 840:1-8.)
Because DRL’s ANDA II Product satisfies each
limitation of claim 2 of the ’285 patent, we find that
Horizon has proven by a preponderance of the

69a
evidence that DRL’s ANDA II Product infringes that
claim.
3. Claim 3 of the ’285 patent
Claim 3 of the ’285 patent reads: “The
pharmaceutical composition of claim 1, wherein
esomeprazole is present in said unit dosage form in
an amount of from 5 to 100 mg.” (’285 patent at col.
22, lines 22–24.) Horizon provided unrebutted
testimony that DRL’s ANDA II Product [redacted].
(Tr. 840:9-15.)
Because DRL’s ANDA II Product satisfies each
limitation of claim 3 of the ’285 patent, we find that
Horizon has proven by a preponderance of the
evidence that DRL’s ANDA II Product infringes that
claim.
4. Claim 4 of the ’285 patent
Claim 4 of the ’285 patent reads: “The
pharmaceutical composition of claim 1, wherein
naproxen is present in said unit dosage form in an
amount of between 200-600 mg and esomeprazole in
an amount of from 5 to100 mg per unit dosage form.”
(’285 patent at col. 22, lines 25–29.) Horizon
provided unrebutted testimony that the naproxen in
DRL’s ANDA Product [redacted]. (Tr. 840:1-8.)
[redacted]. DRL’s ANDA II Products [redacted].
(Tr. 840:9-15.)
Because DRL’s ANDA II Product satisfies each
limitation of claim 4 of the ’285 patent, we find that
Horizon has proven by a preponderance of the

70a
evidence that DRL’s ANDA II Product infringes that
claim.
IV. Obviousness and Related § 112 Challenges
Defendants at trial offered a second line of
interrelated invalidity challenges under 35 U.S.C. §
103 and § 112. These issued were briefed separately
from the infringement and § 112 issues argued in
Section III, supra, and are consequently considered
together in this section. Section IV.A addresses the
Defendants’ obviousness challenge under § 103.
Sections IV.B and IV.C address the Defendants’
related enablement and written description
challenges under § 112.
A. Obviousness
We undertake several factual inquiries to
determine whether the Asserted Patents are invalid
under § 103, including determining the scope and
content of the prior art, differences between the prior
art and the claims at issue, and the level of ordinary
skill in the pertinent art. KSR Int’l Co. v. Teleflex
Inc., 550 U.S. 398, 406 (2007). In this section, we
recount the parties’ evidence at trial pertaining to
the prior art as well as so-called secondary
considerations of nonobviousness. We then assess
that evidence and ultimately conclude that the
Defendants have failed to meet their burden to show
that the Asserted Patents are invalid under § 103.

71a
1. Parties’ Evidence and Arguments on
Prior Art
Defendants maintain that a POSA would have
been “motivated to combine the teachings of the
prior art references to achieve the claimed invention,
and…would have had a reasonable expectation of
success in doing so.” Procter & Gamble Co. v. Teva
Pharm. USA, Inc., 566 F.3d 989, 994 (Fed. Cir.
2009). They submit two theories as to why the
invention disclosed in the Asserted Patents (the
“Invention”) was obvious under the prior art. 15 (Dkt.
489 at 15–27.) Those theories primarily involve prior
art pertaining to existing combination drug products
and other art describing NSAID/PPI co-therapies,
and are discussed in Section IV.A.1.i, infra.
Horizon’s primary defense is that the invention
cannot be considered obvious because the invention
uses an “uncoated” PPI. The parties’ extensive
dispute over the prior art as it relates to uncoated
PPIs is discussed in Section IV.A.1.ii, infra.
(i)

Defendants’ obviousness theories

Defendants offer two theories of why the
Invention was obvious under the prior art. The first
theory is that it would have been obvious to a POSA
We undertake our obviousness analysis from the perspective
of a POSA as of June 1, 2001, the date on which Provisional
application No. 60/294,588 was submitted. Horizon expert Dr.
Williams stated at trial that he used a priority date of May 31,
2002 but later agreed to use the earlier 2001 priority date. (Tr.
729:8–731:8; dkt. 489 at 18.)

15

72a
to improve upon the combination product described
in U.S. Patent No. 5,601,843 (the ’843 patent) (DTX1063) and commercialized as Arthrotec. (Dkt. 489 at
25.)16 Arthrotec is a branded drug product that
combines an NSAID (diclofenac) with misoprostol (a
synthetic prostaglandin). (DTX-1095 at 2.) Arthrotec
is used to treat conditions such as osteoarthritis and
rheumatoid arthritis in patients with a high risk of
developing NSAID- related injuries such as gastric
and duodenal ulcers. (Tr. 322:15-20.) The
misoprostol in Arthrotec was designed to reduce the
risk of NSAID-related injury by: (1) replacing
prostaglandin in the stomach to protect the stomach
from acid exposure; (2) inhibiting acid production in
the stomach. (Tr. 456:10–15; Tr. 495:4–9; Tr. 501:18–
21.) Of these mechanisms, the prostaglandin
replacement mechanism was the “primary”
mechanism by which misoprostol would help reduce
the risk of NSAID-related injury. (Tr. 502:16–
503:10.) In Defendants’ telling, the only significant
difference between Arthrotec and the Invention is
the choice of “acid inhibitor” (a PPI instead of
misoprostol) and NSAID (naproxen instead of
diclofenac). (Tr. 456:23–457:17; Tr. 461:12-24.)
Defendants submit that the Invention was
obvious because a POSA would have been motivated
Horizon argues that some of Defendants’ arguments at trial
constituted new (and therefore impermissible) combinations of
prior art. (Dkt. 489-1 at 23–24.) Because we conclude that the
Invention was nonobvious under Defendants’ proffered
combinations, we do not reach the question of whether
Defendants waived particular combinations during discovery.

16

73a
to replace the misoprostol in Arthrotec with a PPI,
and particularly esomeprazole. They argue that a
POSA would have replaced misoprostol with
esomeprazole
because:
(1)
misoprostol
was
understood to have harmful side effects; and (2)
misoprostol was understood to be less effective than
esomeprazole for treating NSAID-related injuries.
As to the first point, experts from both sides testified
that misoprostol carried significant side effects,
including diarrhea, flatulence, and even spontaneous
abortion. (Tr. 311:7-10, Tr. 330:12-23; Tr. 463:17-23;
Tr. 1180:11– 1182:14; DTX-1095 at 2.) These side
effects were well documented in the prior art. (’907
patent at col. 2, lines 52–56.) As to the second point,
Defendants submit that it was understood in the
prior art that PPIs, and especially esomeprazole,
were superior to other acid inhibitors, including
misoprostol, for treating NSAID-related injuries. (Tr.
309:11– 317:9; Tr. 464:4-10.)
Defendants highlight academic literature
indicating that PPIs were understood to be a better
treatment option for NSAID-related injuries than
other available acid inhibitors such as H2-receptor
antagonists and prostaglandins. Much of the
literature relies on two studies comparing PPIs with
alternative treatments. The Omeprazole versus
Misoprostol for NSAID-Induced Ulcer Management
(or “OMNIUM”) study compared the PPI omeprazole
to misoprostol. (DTX-1077; Tr. 312:19-25.) The Acid
Suppression Trial: Ranitidine versus Omeprazole for
NSAID-Associated
Ulcer
treatment
(or
“ASTRONAUT”) study compared omeprazole with
the H2-receptor antagonist ranitidine. (DTX-1069.)

74a
Subsequent articles reviewing the safety and
efficacy of treatments for NSAID-related injuries cite
the OMNIUM and ASTRONAUT studies.
As
recounted in Brown (DTX-1080), the OMNIUM
study reported that use of omeprazole resulted in a
reduction in the reoccurrence of NSAID-related
ulcers and increased compliance compared with
misoprostol. (DTX-1080 at 7; Tr. 316:5-25; Tr.
1207:3–1209:12.)
Per
Brown,
“[PPIs]
have
demonstrated efficacy in the prevention of the
adverse gastrointestinal effects of NSAIDs” and have
“clear benefits” over alternatives. (DTX-1080 at 8.)
Another article, Wolfe (DTX-1089), explained that
the “more potent inhibition of gastric acid secretion
provided by PPIs enhances their healing properties.”
(DTX 1089 at 10; Tr. 310:20– 311:10.) Citing the
ASTRONAUT study comparing omeprazole with H2agonist ranitidine, Wolfe and Brown both
recommended the use of PPIs over H-2 antagonists.
(Tr. 316:6-11.) Relying in part on these articles,
defense expert Dr. Metz testified that PPIs were
understood to be the best acid inhibitor as of the
priority date for both effectiveness and tolerability.
(Tr. 309:22-24.) Moreover, Dr. Metz testified that a
POSA would have been motivated to replace the
misoprostol in Arthrotec with esomeprazole in
particular because it was understood to be the most
potent PPI. (Tr. 331:19–332:13; Tr. 337:13-17.) Dr.
Kibbe testified that it would have been a routine
modification to use a PPI instead of misoprostol in
formulating the product. (Tr. 461:21– 462:4.)

75a
Defendants argue that a POSA would have had
additional motivation to replace the misoprostol in
Arthrotec with a PPI because NSAID/PPI
combination therapies were already known in the
prior art. (Tr. 332:8-13.) For example, International
Patent Pub. No. WO 97/25064 (“Depui”) (DTX-1064)
disclosed a combination dosage form of a PPI with an
NSAID for treatment and prevention of NSAIDrelated injury. (Tr. 325:23– 327:1; Tr. 464:11–466:6.)
Acceptable PPIs in Depui included omeprazole and
esomeprazole, while acceptable NSAIDs included
naproxen. (Tr. 326:19–327:1.) Defendants also point
to U.S. Patent No. 6,544,556 (the ’556 patent) (DTX1118), which disclosed a combination dosage form of
a PPI with an NSAID to prevent NSAID-related
injury. (’556 patent at col. 1, lines 7–14.) 17
Specifically, the ’556 patent discloses the use of a
PPI combined with diclofenac (the same NSAID
found in Arthrotec). (Id. at col. 4, lines 51–54; Tr.
1216:17–1219:4.) They also cite U.S. Patent No.
5,204,118 (’118 patent) (DTX-1051), which discloses
combination dosage forms of an “[NSAID] or
acetaminophen and a histamine receptor blocker

There is some dispute as to whether the ’556 patent is prior
art. (Dkt. 489-1 at 22 n.4.) The ’556 patent issued on April 8,
2003, from a patent application filed on September 11, 2000.
Accordingly, it is prior art under former 35 U.S.C. § 102(e),
which includes as prior art “a patent granted on an application
for patent by another filed in the United States before the
invention by the applicant for patent.” Our finding of
nonobviousness, however, does not turn on whether the ’556
patent is considered prior art.

17

76a
and/or a proton pump inhibitor composition.” (’118
patent at col. 1, lines 13–16.)
Horizon disputes that a POSA would have been
motivated to replace the misoprostol in Arthrotec
with a PPI such as esomeprazole. Horizon rejects
the notion that a PPI and a synthetic prostaglandin,
such as misoprostol, would be seen as
interchangeable because they have different
mechanisms of action. Misoprostol helps replace
prostaglandins, the depletion of which makes the
stomach more susceptible to NSAID-related injury.
(Tr. 1138:15–1139:4; PTX-292.) In contrast, PPIs act
as “acid suppressants” or “acid inhibitors” that do
not replace the loss of prostaglandins due to NSAID
use. (Tr. 503:16–25; Tr. 1259:20–1260:4.) Dr.
Plachetka, the named inventor of the Asserted
Patents, similarly explained that “the only thing
that a proton pump inhibitor will do is inhibit the
secretion of acid . . . , whereas misoprostol will repair
or replace the gel coat.” (Tr. 40:4-13.) In light of
these differences, Horizon argues that a POSA would
not have been motivated to swap the two
ingredients. (Dkt. 489-1 at 47.)
Horizon argues further that a POSA would not
have been motivated to replace the misoprostol in
Arthrotec with uncoated esomeprazole. Although
we discuss the prior art related to uncoated PPIs in
detail below, Horizon expert Dr. Williams testified
that a POSA would not have chosen to replace
misoprostol, which is not acid labile, with a PPI that
is acid labile. (Tr. 773:22–774:5; Tr. 774:8-17.) The
distinction also matters, in Horizon’s view, because

77a
much of the prior art discussing the efficacy of PPIs
analyzed enteric coated PPIs. The OMNIUM and
ASTRONAUT studies, for example, were conducted
using enteric coated PPIs. (Tr. 384:12–386:1.)
The second obviousness theory proffered by
Defendants relies on essentially the same references
but in a different logical progression. Whereas their
first theory is that a POSA would have been
motivated to replace the ingredients in a
combination drug product (e.g., Arthrotec) with an
NSAID/PPI combination, the second theory is that a
POSA would have been motivated to take existing
NSAID/PPI co-therapies and put them into a
combination drug product . (Dkt. 489 at 15–27.) As
discussed above, NSAID/PPI co-therapies were
known in the prior art. (See, e.g., Depui (DTX-1064);
’556 patent (DTX-1118); Tr. 325:23–327:1; Tr.
464:11–466:6.) At the same time, it was understood
that administering medications separately “can be
difficult to achieve and can be difficult for a patient
to faithfully follow.” (Tr. 319:17–321:19.) Requiring
patients to take multiple tablets per day can lead to
patients forgetting or declining to take both tablets.
(Tr. 319:17–321:7; Tr. 458:7-23.) Defense expert Dr.
Metz testified that a POSA would have sought to
address potential compliance issues by combining
drug components into a single tablet. (Tr. 321:16-19.)
As an example, he highlighted the ’843 (Arthrotec)
patent, which disclosed that combination tablets

78a
could improve patient compliance. (’843 patent at
col. 12, lines 10–14; Tr. 321:24–324:17.) 18
Defendants explain that the prior art also
disclosed
combination
drug
therapies
with
“coordinated release” (i.e., the sequential release of
an acid inhibitor and an NSAID). U.S. Patent No.
6,319,519 (’519 patent) (DTX-1112) discloses a tablet
comprised of an NSAID (to treat arthritis pain and
inflammation) and misoprostol (to prevent NSAIDrelated injury). (Tr. 913:7-915:23; ’519 patent at col.
1, lines 9–34.) According to the ’519 patent, “[i]t has
been found experimentally that it is necessary for
the prostaglandin to be released before the NSAID
so as to protect the stomach from the effects of the
NSAID. It is therefore preferable that the NSAID is
coated to delay release.” (’519 patent at col. 1, lines
21–25.) Horizon expert Dr. Williams conceded at
trial that the coordinated release structures
described in the ’519 patent and the ’843 Arthrotec
patent are similar to the coordinated release
mechanism of the Invention. (Tr. 915:20–917:3; see
also Tr. 454:2–457:17.)
(ii)

Uncoated PPIs

Horizon’s primary response to Defendants’
obviousness arguments is that the Invention was
Defendants also argue that the dependent claims (e.g., claim
52 of the ’907 patent) would be
obvious because it was understood that an NSAID in
conjunction with a PPI could be used to treat osteoarthritis or
rheumatoid arthritis. (Tr. 88:23–89:4; Tr. 333:21–334:2; Tr.
338:10-24.)

18

79a
nonobvious because it uses an uncoated PPI and the
prior art taught away from using uncoated PPIs. 19
(Dkt. 489-1 at 27–43; 45–49.) Horizon argues that it
was widely understood—and reflected in the prior
art—that PPIs must be enteric coated because they
are susceptible to acid degradation in the stomach.
Defendants disagree that the prior art taught away
from using uncoated PPIs and offered testimony at
trial why a POSA would have had a reasonable
expectation of success using an uncoated PPI. We
summarize below the parties’ evidence on these
subjects.
Horizon’s experts testified that a POSA would
not have been motivated to use an uncoated PPI. Dr.
Williams explained that, as of the priority date, all
commercially available PPIs were formulated with
an enteric coating. (Tr. 733:2-13; Tr. 735:8-23; see
also Tr. 372:23–373:5.) He testified that PPIs were
enteric coated because they are acid labile and
dissolve much more quickly in acidic pH
environments. (Tr. 733:16–735:1.) In Dr. Williams’
view, this understanding was reflected in prior art
that affirmatively discouraged the use of non-enteric
coated PPIs. (Tr. 737:1-18.) For example, Pilbrant
1985 (PTX-325) evaluated the use of enteric coated
and uncoated omeprazole solid dosage formulations,
and concluded that the uncoated dosage form was
“ruled out in a pilot bioavailability study . . . where it
was shown that more than half of the omeprazole in
a rapidly dissolving dosage form degrades in the
We use “uncoated PPI” in this section as shorthand to refer to
a PPI that does not have a pH- sensitive enteric coating.

19

80a
stomach.” (PTX-435 at 2; Tr. 738:16–740:1.) In
contrast, Pilbrant 1985 stated that an enteric coated
solid dosage form “offer[ed] the best possibilities.”
(PTX-435 at 3; Tr. 740:15-22.) Per Dr. Williams, a
POSA would conclude from Pilbrant 1985 that a nonenteric coated PPI would not work and would be
discouraged from pursuing such a formulation. (Tr.
740:2-14.) Although he did not discuss each in detail,
Dr. Williams testified that 25 additional prior art
references supported his contention that PPIs must
be enteric coated. 20 (Tr. 747:20– 748:12.)
Horizon notes that Defendants’ own experts have
acknowledged the need to enteric coat PPIs because
of their acid lability. (Tr. 502:5-15.) Dr. Metz coauthored an article stating that “[p]roton pump
inhibitors are inactivated by gastric acid and thus
must be given as enteric coated granules in gelatin
capsules or enteric coated tablets.” (PTX- 73 at 8
(emphasis added); Tr. 365:6–369:5.) Dr. Metz
testified at trial that it was the “general party line”
and belief in the industry that “proton pump
inhibitors are inactivated by gastric acid and thus
must be given as enteric coated granules in gelatin
capsules or enteric coated tablets.” (Tr. 369:11-21;
Tr. 370:16-20; Tr. 371:16-21.) Dr. Mayersohn
See (PTX-77 at 3); (PTX-78 at 4); (PTX-79 at 3); (PTX-80 at
2); (PTX-242 at 3); (PTX-243 at 2); (PTX-244 at 2); (PTX-245 at
2); (PTX-246 at 4); (PTX-247 at 9); (PTX-248 at 5); (PTX-249 at
6); (PTX-250 at 2); (PTX-251 at 2); (PTX-252 at 2); (PTX-253 at
3); (PTX-254 at 4); (PTX-255 at 10); (PTX-256 at 2); (PTX-257
at 1); (PTX-258 at 6); (PTX-337 at 5); (PTX-570 at 4–5); (PTX573 at 5–6); and (DTX-1117 at 13). We recognized at trial that
PTX-79 cannot be considered prior art. (Tr. 528:19–529:16.)
20

81a
likewise testified in a sworn expert declaration in
another case that “[b]ecause PPIs are chemically
unstable in the acidic environment of the stomach,
they must be protected from stomach acid. Drug
manufacturers accomplish this by combining the PPI
with various stabilizers and coatings, resulting in a
drug formulation that has an outer layer (referred to
as the ‘enteric coat’) that protects the PPI from
stomach acid.” (PTX-434 at 6; Tr. 686:4–689:12.) In
light of the prevailing understanding about uncoated
PPIs, Horizon argues that a POSA would have
understood that using an uncoated PPI in a
formulation would fail because of acidic gastric pH
levels. (See, e.g., Tr. 737:1-18; 1029:9-22; 1163:10–
1164:3.)
Defendants
disagree
with
Horizon’s
characterization of the prior art, which they see as,
at most, expressing a general preference for enteric
coated PPIs. (Dkt. 489 at 48.) They criticize
Horizon’s 25 “teaching away” references that
purportedly counsel against using an uncoated PPI
on several grounds. Defense expert Dr. Mayersohn
explained that one of Horizon’s references merely
states that omeprazole is acid labile and enteric
coated, and does not discuss uncoated PPIs. (Tr.
613:5–614:13 (discussing PTX-256).) Dr. Mayersohn
testified that some of the other references were
“repetitive and duplicative,” (Tr. 611:20-23) while
Dr. Kibbe explained that “often the same thing is
repeated and repeated in articles because it’s easier
to do that than to actually test it.” (Tr. 527:16-19.)
Defendants criticized ten of the references for being
AstraZeneca publications, who they argue had an

82a
interest in promoting “the benefits of AstraZeneca’s
own, patented, enteric coated PPI formulation.”
(Dkt. 489 at 49; Tr. 939:5–945:4.) Defendants
criticized another six references as lacking original
research or analysis on the efficacy or usefulness of
uncoated PPIs. (Tr. 968:13–970:2.)
Defendants also submitted that a POSA would
have been motivated to use uncoated PPIs and
would have had a reasonable expectation of success
in doing so because: (1) the PPI could be
administered with an alkalizing agent to help
protect it from stomach acid; (2) the dose of the PPI
could be increased to offset acid degradation; (3) the
repeated dosing of the PPI would create a “feedback
loop” that would increase bioavailability for the
uncoated PPI over time; and (4) an uncoated PPI
would have certain advantages over an enteric
coated PPI.
Alkalizing Agent
Defendants argue that a POSA would have a
reasonable expectation of success using an uncoated
PPI because the formulation could include an
alkalizing agent, such as sodium bicarbonate, that
would protect the PPI from degradation by stomach
acid. (Dkt. 489 at 43–44.) Dr. Kibbe testified that an
alkalizing agent could raise the pH of the stomach
around the tablet and protect the PPI from
degradation. (Tr. 485:1-16.) He explained that
Pilbrant 1985 teaches that an omeprazole-sodium
bicarbonate combination could be used to improve
bioavailability. (Tr. 489:15-23; PTX-435 at 4–5.)

83a
Other prior art, including U.S. Patent No. 6,489,346
(the
’346
patent)
(DTX-1117),
eventually
commercialized as Zegerid, disclosed an omeprazole
and sodium bicarbonate formulation. (Tr. 345:1-20;
Tr. 483:11–484:10.) Although Horizon submitted the
’346 patent as one of its “teaching away” references,
Defendants submit that it would have taught a
POSA to account for PPI’s acid lability by coadministering an alkalizing agent. (Dkt. 489 at 49;
Tr. 977:16–980:21.)
Horizon expert Dr. Williams disagreed that
sodium bicarbonate could feasibly be added to the
formulation to prevent acid degradation. He
testified, citing Pilbrant 1993 (PTX-262), that the
resulting tablet would be too large because of the
amount of sodium bicarbonate needed. (Tr. 758:3–
760:16.) 21 Dr. Williams also argued, citing
International Patent Publication WO 00/026185
(DTX-1102), that sodium bicarbonate would be
incompatible with the enteric coated naproxen also
present in the formulation because it could dissolve
that enteric coat. (Tr. 753:21–755:16.)
Increased PPI Dosage
Defendants also argue that a POSA would have
a reasonable expectation of success using an
Defendants argue that Horizon’s “tablet size” arguments do
not account for the possibility of multiple dosages nor
mechanisms such as the “feedback loop” discussed below that
might make smaller amounts of PPI effective. (Dkt. 489 at 44–
45.)

21

84a
uncoated PPI because a POSA could increase the
dosage level to account for the PPI’s acid lability. Dr.
Mayersohn cited Clissold (DTX-1036) for the
proposition that about 50% of an uncoated PPI
remains bioavailable despite acid degradation. (Tr.
620:7–621:6; DTX-1036 at 19 (citing Pilbrant 1985).)
As some of the uncoated PPI remains available to
the body (or “bioavailable”), Dr. Mayersohn
explained that a POSA could account for acid
degradation by increasing the amount of PPI in the
formulation—in this case by essentially doubling the
dose to account for the PPI’s 50% bioavailability. (Tr.
621:23–622:7; Tr. 704:18–705:2.) Dr. Metz likewise
testified that the PPI dose could be doubled to
account for acid degradation. (Tr. 390:2-6.) Dr.
Mayersohn added that a POSA would have further
reason to believe that increasing the dosage would
be effective because Regårdh (DTX-1029) taught that
a comparatively higher percentage of PPI would be
bioavailable at higher dosage levels. (Tr. 635:23–
636:22.)
Horizon rejects the idea that a POSA would have
been motivated to increase the dose of PPI to account
for its acid lability. First, Dr. Taft questioned
whether the 50% bioavailability figure from Pilbrant
1985 (PTX-432), which explicitly related to
suspensions of omeprazole, could be used as a proxy
for the bioavailability of a drug in tablet form. (Tr.
1060:5–1061:10.) Dr. Williams added that a
subsequent study, Pilbrant 1993 (PTX-262),
indicates that as much as 84% of a PPI may be lost

85a
due to acid degradation.22 (Tr. 778:12–780:7.)
Second, even assuming a 50% bioavailability, Dr.
Taft testified that a POSA would not have simply
doubled the dose to address the acid lability of PPIs.
(Tr.
1067:9–1068:3.)
On
cross-examination,
Defendants’ experts could not provide any examples
of situations where low bioavailability was
addressed through doubling the dosage form. (Tr.
393:6-9 (Metz); Tr. 514:4–515:25 (Kibbe); Tr. 692:24–
695:10 (Mayersohn).)
PPI Feedback Loop
Defendants also believe that a POSA would have
had a reasonable expectation of success using
uncoated PPIs because the prior art described a
“positive feedback loop” that would increase the
bioavailability of an uncoated PPI. As explained by
both Dr. Kibbe and Dr. Mayersohn, the feedback
loop occurs because the first PPI dose inhibits
stomach acid production and raises gastric pH,
which consequently causes less acid degradation of
the second dose, which further inhibits acid
production, and so on. (Tr. 492:25–494:18; Tr. 589:9–
590:4; 620:18–627:11; DTX-1396 at 6–7.) Dr. Kibbe
pointed to Clissold (DTX-1036) as support for this
feedback mechanism. (Tr. 492:25–493:25.) Dr.

Defendants dispute the relevance of the data in Pilbrant
1993 because the study reported the bioavailability of a PPI
after a meal and commercially available PPIs, even enteric
coated ones, are typically administered with food. (Tr. 964:15–
965:21.)
22

86a
Mayersohn cited Tolman (DTX-1061) as additional
evidence of the feedback effect. (Tr. 625:16–627:7.)
Horizon disputes the relevance of Clissold (DTX1036) and Tolman (DTX-1061), arguing that those
references do not assert that an uncoated PPI would
increase its own bioavailability over time or reach
therapeutically effective levels. (Dkt. 489-1 at 38–
39.) Horizon expert Dr. Taft explained that Clissold
and Tolman would not provide a POSA with a
reasonable expectation of success for an uncoated
PPI because those articles evaluated enteric coated
or otherwise buffered PPI formulations. (Tr. 1067:9–
1068:3.)
Disadvantages of Enteric Coated Formulations
Defendants also submitted evidence that a POSA
would have been motivated to use an uncoated PPI
because of known disadvantages of enteric coated
PPI formulations. (Dkt. 489 at 46–47.) International
Patent Pub. No. WO 00/78293 states that
“[o]meprazole should preferably not be in contact
with the enteric coating” because the enteric coating
can cause “discoloration and degradation of
omeprazole.” (DTX-1105 at 4–5.) On crossexamination, Dr. Williams was presented with U.S.
Patent 6,077,541 (’541 patent) (PTX-242) describing
how the potential need to provide a protective layer
between PPIs and their enteric coating can
“increase[] the length of the manufacturing process
and the cost of the product.” (Tr. 971:24–973:20.) He
agreed that one “wouldn’t have that problem” if one
“ha[d] a delayed release coat that’s not pH-

87a
dependent.” (Tr. 973:11-16.) The ’541 patent also
discloses that “[e]nteric coated formulations are
expensive and time consuming to manufacture, and
requires [sic] elaborate technology and equipment.”
(Tr. 973:21–974:9.)
2. Secondary Considerations of NonObviousness
We also consider the significance and relevance
of so-called “secondary considerations” such as
commercial success, long felt but unsolved needs,
and the failure of others. See AstraZeneca LP v.
Breath Ltd., 88 F. Supp. 3d 326, 382 (D.N.J.), aff’d,
603 F. App’x 999 (Fed. Cir. 2015).
(i)

Unexpected results

Horizon submits that the nonobviousness of the
Invention is evidenced by the fact that its Vimovo
product had surprising and unexpected results in
treating NSAID-related gastrointestinal injury. Dr.
Williams and Dr. Johnson testified that the success
of a formulation with an uncoated PPI in Vimovo
was an unexpected result. (Tr. 782:24– 783:6; Tr.
1169:16–1170:1.)
In
designated
deposition
testimony, Dr. Sostek of AstraZeneca testified that
“it was unexpected that a completely unprotected
form of a proton pump inhibitor could result in
effective acid suppression.” (DTX-1396 at 10.) Dr.
Johnson also highlighted statements from certain
clinical studies involving Vimovo. (Tr. 1170:2-7.) One
such study, Goldstein (DTX-1135), noted “a striking
and highly statistically significant difference
between the patients that received Vimovo”

88a
compared to other formulations, including those who
received enteric coated naproxen alone. (Tr.
1170:22–1172:3.) Another publication, Hawkey
(DTX-1142) characterized Vimovo by noting that
“Impressively—and surprisingly, in view of the
instability of PPIs in gastric acid—a clinical trial has
shown a reduction . . . in the proportion of patients
developing NSAID-associated gastric ulcers on
[Vimovo] compared with similar doses of naproxen
alone.” (DTX-1142 at 3; Tr. 1087:22–1088:10.)
Defendants dispute the relevance of the
Goldstein study because it compared Vimovo against
formulations without a PPI component. (Tr.
1170:20–1171:14.) They submit that the study
cannot be considered an “unexpected result” because
it does not show the effectiveness of Vimovo against
the closest prior art, which they assert would be a
Naproxen/PPI co-therapy. (Tr. 350:18–354:8; Tr.
641:5–643:17; DTX-1396 at 10; DTX- 1398 at 10–11.)
(ii)

Skepticism

Horizon argues that the nonobviousness of the
Invention is supported by evidence that there was
skepticism that the Invention would work. As with
its evidence of unexpected results, Horizon’s
skepticism evidence at trial focused on the
Invention’s use of an uncoated PPI. Dr. Plachetka,
the inventor, testified that potential marketing
partners for Vimovo were skeptical about whether
an uncoated PPI would work in the formulation. (Tr.
65:5-22; 68:23–70:9.) In one email from a prospective
partner (TAP), an employee asked what steps Pozen
had taken to address the degradation of a PPI that

89a
might be predicted from using an uncoated PPI.
(PTX-267 at 1.) Dr. Plachetka testified that some
TAP employees “didn’t believe” the data presented
about the formulation and thought it would “never
work because everybody knows that [PPIs] have to
be enteric coated.” (Tr. 66:13–67:23.) In another
example, a Pozen employee summarized a call with a
potential marketing partner (Purdue) and wrote that
Purdue “need[ed] a better understanding of why we
do not enteric coat the PPI. They feel this is an
‘enigma’ vs. all the prior art and they are ‘not
convinced’ it is necessary or beneficial to not enteric
coat the PPI.” (PTX-085 at 1.) In the same email,
the employee asked: “How could all the PPI experts
be so wrong for so long?” (PTX-085 at 1; Tr. 796:14–
797:18.)
Scientists at AstraZeneca, who had developed
the PPIs omeprazole and esomeprazole, similarly
appeared to express skepticism regarding the use of
an uncoated PPI. (See, e.g., PTX-273; PTX-271; PTX102; PTX-269.) In one internal email chain,
AstraZeneca’s Dr. Sostek wrote: “I think it is clear,
that the current formulation is NOT optimal from an
acid suppression standpoint (because of PPI is
degradation [sic] in the stomach), but they
characterize it as a good first attempt. It could be
difficult to explain to physicians why PPI ‘protection’
is not necessary for this product unlike all other
PPIs.” (PTX-273 at 4.) At his deposition, Dr. Sostek
explained why he thought it would be difficult to
explain to physicians why PPI protection is not
necessary for Vimovo:

90a
Well, for years since 2000 and before, since
omeprazole was really first approved in ’89,
so that at this time was over 25 years. And
then by this year, Nexium had been around
for five years, Prevacid has been around for
10, 15 years. All of the PPI manufacturers
had consistently educated physicians that a
critical component of proton pump inhibitors
was the enteric coat and that you had to
protect the PPI from acid degradation. So I
guess that I was saying that in light of all
that education effort about the importance of
an enteric coat the Pozen platform does not
have an enteric coat, and so that might
create
an
educational challenge
for
physicians.
(DTX-1396 at 9.)
Horizon submitted a number of other examples
of skepticism about the use of uncoated PPIs. One
Pozen memo recounted a conversation in which a
doctor stated he was “of the school” that PPIs need to
be enteric coated. (PTX-266 at 1.) Another email
from Novartis asked Pozen to “[p]lease explain the
rationale for the PPI in a non-enteric coated form
(since PPIs are acid labile).” (PTX-268 at 1.) A due
diligence assessment by Pozen questioned whether
“unprotected esomeprazole 20 mg BID [will] produce
sufficient acid suppression to meet primary endpoint
of Phase II study.” (PTX-271 at 2.) The FDA
appeared to express skepticism that an uncoated PPI
would be effective, and asked Horizon to “clarify if
immediate release or delayed release esomeprazole

91a
will be used” because “[e]someprazole is acid
labile…[and] therefore, without a proper delivery
system it is not clear if the product will result in an
intended pharmacological effect.” (PTX-84 at 1; Tr.
789:17-23.)
Defense expert Dr. Mayersohn characterized
much of Horizon’s skepticism evidence as requests
for more information rather than skepticism. (Tr.
650:1–662:16.) Regarding Horizon’s AstraZeneca
documents, Defendants argue that AstraZeneca was
actually concerned about a marketing problem
because AstraZeneca had spent years telling
physicians that an enteric coating was important.
(Dkt. 489-1 at 58; DTX-1396 at 9.) AstraZeneca, as
Defendants point out, was the patent holder of a
combination of enteric coated esomeprazole with an
NSAID and had other patents related to enteric
coated esomeprazole. (Tr. 939:5–945:4.) More
broadly, Defendants contest the admissibility of
Horizon’s skepticism evidence on the basis that the
documents are from after the priority date. (Dkt. 489
at 56–57.)
(iii) Licensing
Horizon argues in its post-trial brief that the
licensing of the ’907 and ’285 patents by AstraZeneca
(and the subsequent acquisition of that license by
Horizon) is evidence that the asserted claims are not
obvious. (Dkt. 489-1 at 53–54.) Defendants contest
the relevance of AstraZeneca’s license in view of how
quickly AstraZeneca sold the rights to Horizon, and
disputes that either license “arose out of recognition
and acceptance of the patent.” See Stratoflex, Inc. v

92a
Aeroquip Corp., 713 F.2d 1530, 1539 (Fed. Cir.
1983). Defendants also note that many potential
marketing partners declined the opportunity to
license and develop the invention. (Tr. 65:14–68:12.)
Moreover, AstraZeneca’s interest may have had
incentives to license the product because of its
existing esomeprazole product; as Dr. Plachetka
explained, AstraZeneca had requested to use its own
esomeprazole product in the formulation. (Tr. 74:513.)
(iv) Long-felt need
Horizon argues that the prevalence of NSAIDrelated gastrointestinal injury is additional evidence
of non-obviousness. (Dkt. 489-1 at 55.) Horizon
expert Dr. Johnson explained that NSAID-induced
gastric injury was a significant medical problem at
the time of the invention. (Tr. 1118:22–1120:23;
PTX-572.) He also testified that various efforts to
create safer NSAID therapies (using, e.g., sucralfate,
misoprostol, and acid suppression therapies) had not
resolved the problem of NSAID-related injuries. (Tr.
1138:4–1139:4.)
Defendants argue that Horizon did not offer any
evidence at trial that the Asserted Patents or
Vimovo addressed a long-felt but unmet need of
reducing the risk of gastric injury associated with
long-term NSAID use. Dr. Johnson conceded that he
had not opined on whether NSAID-related injuries
had declined following the invention. (Tr. 1227:18–
1228:18.) Defense expert Dr. Metz testified that the
standard of care remains the same today after the
release of Vimovo and that he had not seen any

93a
reduction in the incidence or severity of NSAIDinduced gastropathy. (Tr. 350:4-15.) Defendants also
highlighted designated deposition testimony from
Dennis McNamara that Vimovo had not been
demonstrated as superior to other available cotherapies. (DTX-1398 at 10–14.)
3. Analysis
We turn now to the overarching inquiry of
whether Defendants have demonstrated “by clear
and convincing evidence that a skilled artisan would
have been motivated to combine the teachings of the
prior art references to achieve the claimed invention,
and that the skilled artisan would have had a
reasonable expectation of success in doing so.”
Procter & Gamble Co. v. Teva Pharm. USA, Inc., 566
F.3d 989, 994 (Fed. Cir. 2009). Answering that
question requires us to address: (1) the level of
ordinary skill in pertinent art; (2) the scope and
content of prior art; (3) differences between the
claims and the prior art; and (4) secondary
considerations. See KSR Int’l Co., 550 U.S. at 406.
We note preliminarily that the level of ordinary
skill in the art was not a significant area of
contention between the parties. The parties
submitted proposed definitions of a POSA in the
pretrial order:

94a
Horizon’s Proposed
Definition Dkt. 421 at
10)

Defendants’ Proposed
definition (Dkt. 421 at
130-31)

A person of ordinary
skill in the art for the
inventions of the
asserted claims is a
person with at least a
graduate degree in
pharmacy, chemistry,
chemical engineering,
pharmaceutics, or a
comparable field, and
some relevant
pharmaceutical
formulation work
experience in industry.
Other aspects of the
claimed subject matter,
such as those aspects
relating to the amounts
of active ingredient in
the unit dosage form,
would implicate a
person skilled in the
art of dosage,
administration, and
intended clinical use
and effect of an acid
inhibitor. The
development of new
formulations or dosage
forms can require
people with different

A person of ordinary
skill in the art (POSA) is
a pharmaceutical
scientist having a Ph.D.
degree, or equivalent
training or degree, and
at least 2 years of
practical experience in
pharmaceutical
formulations. A POSA
would have collaborated
with a medical doctor
having at least 2 years
of practical experience
treating patients in the
gastroenterology field
and a pharmacologist /
pharmacokineticist
having a Ph.D. degree,
or equivalent training or
degree, and at least 2
years of practical
experience in
pharmacology and
pharmacokinetics. A
POSA has a general
understanding and
knowledge of basic
principles of formulation
development. A POSA is
familiar with the

95a
areas of expertise,
including, for example,
those with familiarity
of the dosage and
administration of the
relevant active
ingredients, as well as
those with familiarity
or experience in drug
formulation.

general strategies,
procedures and tools of
pharmaceutical
formulation
development, including
pre-formulation studies,
formulation screening
and optimization, and
experimental design. A
POSA is also generally
familiar with the
commonly used
textbooks in the field of
formulation
development, and has a
general knowledge of
the relevant references
and/or printed
publications in the field
of pharmaceutical
formulation.

Witnesses at trial, to the extent they testified
about the definition of a POSA, offered largely
similar definitions. (See, e.g., Tr. 268:4–269:8; Tr.
444:15-23; Tr. 574:2-8; Tr. 721:8–722:5; Tr. 1028:1419.) Importantly for our purposes, experts from both
sides testified that differences between the proposed
definitions of a POSA did not affect their opinion.
(See Tr. 270:13-17 (Dr. Metz); Tr. 574:14-20 (Dr.
Mayersohn, noting “they’re virtually identical
descriptions of persons of ordinary skill”); Tr. 723:1323 (Dr. Williams); Tr. 1144:23–1145:18 (Dr.
Johnson).) We will formally adopt Defendants’

96a
definition of a POSA (Tr. 444:13-23), but note that
our analysis would be the same under either
definition.
The relevant prior art presented by the parties
at trial fell broadly into two categories. The first
category pertained to drug therapies designed to
reduce NSAID-related injury and NSAID/PPI cotherapies. The second pertained to the use and
efficacy of coated and uncoated PPIs. 23 We briefly
review the key disclosures in the prior art guiding
our obviousness analysis.
The ’843 (Arthrotec) patent (DTX-1063) disclosed
a pharmaceutical composition with an enteric coated
NSAID core (i.e., diclofenac or piroxicam)
surrounded by a prostaglandin. (’843 patent at col.
12, lines 19–62.) The ’519 patent (DTX-1112)
disclosed the coordinated release of a prostaglandin
and an enteric coated NSAID designed to delay the
release of the NSAID in order to protect the
stomach. (’519 patent at col. 1, lines 21–30.) The
prior art includes studies comparing various
treatment options for NSAID-related injuries,
including misoprostol, omeprazole, and ranitidine.
(DTX-1077; DTX-1069.) Based on these studies, a
POSA would have understood that omeprazole
compared favorably in at least some ways to
It is undisputed that some features of the Invention were
well-known in the prior art, including: (1) use of an NSAID to
treat arthritis; (2) use of PPIs to inhibit acid; and (3) use of an
enteric coated NSAID. (Tr. 82:13–93:24.)
23

97a
misoprostol and ranitidine in preventing NSAIDrelated injuries. (DTX-1080; DTX-1089.) The prior
art also disclosed co-therapies that included PPI and
NSAID components. (DTX-1051; DTX- 1064; DTX1118.) Indeed, the ’907 patent acknowledges that
“others have disclosed strategies for combining” PPIs
and NSAIDs for therapeutic purposes. (’907 patent
at col. 2, lines 20–27.)
There is much discussion in the prior art on the
importance of protecting PPIs because of their acid
lability. The ’346 patent (DTX-1117) discloses the
use of an uncoated PPI together with a buffering
agent designed to protect the PPI from acid
degradation. (’346 patent at col. 11, lines 13–23.)
One review article states that PPIs are “acidunstable, requiring protection against gastric
acidity.” (PTX-337 at 5.) U.S. Patent No. 6,013,281
(PTX-573) notes that “it is obvious that a proton
pump inhibitor in an oral solid dosage form must be
protected from contact with the acidic reacting
gastric juice” and that a dosage of PPIs “is best
protected from contact with acidic gastric juice by an
enteric coating layer.” (’281 patent at col. 4, line 63
to col. 5, line 11.) Another reference discloses that
PPIs “are all acid-labile, so when administered orally
they must be formulated in an enteric coating to
protect them from rapid degradation in the
stomach.” (PTX-077 at 3 (emphasis added).)
The prior art also discusses the bioavailability of
uncoated omeprazole. Pilbrant 1985 states that a
suspension of uncoated PPI had a bioavailability of
about 50%. (PTX-435 at 1.) A subsequent study,

98a
Pilbrant 1993 analyzed omeprazole absorption after
a meal and indicated that bioavailability might be as
low as 16%. (PTX-262 at 7–8.) Clissold cites the 44%
bioavailability total from Pilbrant 1985 but also
explains that the PPI might increase its own
bioavailability over time “by decreasing gastric acid
secretion and enhancing the extent of its
absorption.” (DTX-1036 at 19.) Regårdh offers some
evidence that the bioavailability of omeprazole might
increase as the dosage amount increases. (DTX-1029
at 10–11.)
The prior art contains at least some support for
the notion that the use of an enteric coat in a PPI
formulation can have some disadvantages, as the
enteric coat itself can degrade the PPI. (DTX-1105;
PTX-242.)
We find that the Invention departs from
formulations disclosed in the prior art in essentially
two ways. First, the Invention differs from other
coordinated release drug formulations in the prior
art for treating NSAID-related gastric injuries (e.g.,
the ’843 patent) because it used a PPI (e.g.,
esomeprazole) instead of a prostaglandin (e.g.,
misoprostol) as the agent to prevent or treat NSAIDrelated gastric injury. Second, the Invention differs
from other therapies in the prior art that used PPIs
(including NSAID/PPI co-therapies) by virtue of
using an uncoated PPI.
We conclude that Defendants have failed to
demonstrate that a POSA would have been
motivated to combine the teachings of the prior art

99a
references and would have had a reasonable
expectation of success in doing so. Specifically, based
on the evidence presented at trial, we conclude that
a POSA would not have been motivated to use an
uncoated PPI given numerous prior art references
reflecting a widely-held understanding that the acid
lability of PPIs, particularly in a solid dosage form,
would generally require an enteric coating. See KSR
Int’l Co., 550 U.S. at 416 (noting “principle that
when the prior art teaches away from combining
certain known elements, discovery of a successful
means of combining them is more likely to be
nonobvious”).
Defendants contend that the prior art
demonstrated, at most, that enteric coated PPIs
were a superior alternative to uncoated PPIs. (Dkt.
489 at 52.) These arguments understate the
language used in the prior art when discussing the
need to enteric coat PPIs. One reference cited the
“obvious” need to protect a PPI from acidic gastric
juice, and noted that a PPI is “best protected . . . by
an enteric coating layer.” (DTX-573 at 5– 6.) Another
explained that “PPIs are highly acid labile and hence
oral formulations are enteric coated.” (PTX-244 at 2.)
Pilbrant 1985—a reference heavily relied upon by
Defendants to argue that an uncoated PPI might be
expected to work—affirmatively “ruled out” the use
of uncoated omeprazole given its relatively low
bioavailability. (PTX-435 at 2.) Indeed, the Federal
Circuit has previously concluded that Pilbrant 1985
“would discourage a [POSA] from pursuing
conventional oral dosage forms such as tablets,
capsules, or granules with non-enteric coated PPIs,

100a
and thus teaches away from such formulations.”
Santarus, Inc. v. Par Pharm., Inc., 694 F.3d 1344,
1355 (Fed. Cir. 2012). Although Defendants’ experts
argued that a POSA would have been motivated to
use an uncoated PPI, prior statements by those same
experts undercut the credibility of their testimony.
(See, e.g., Tr. 365:6–369:5; Tr. 686:4–689:12.)
In light of the expert testimony and prior art
references submitted at trial, we disagree that a
POSA would have been motivated to use an
uncoated PPI in a new combination drug product.
See In re Chapman, 595 F.3d 1330, 1337 (Fed. Cir.
2010) (“A finding that a reference teaches away can
preclude a finding that the reference renders a claim
obvious.”) We acknowledge Defendants’ various
objections to particular references (Dkt. 489 at 48–
50), but conclude that the references in their entirety
would have counseled a POSA against the use of an
uncoated PPI.
We are not persuaded by Defendants’ evidence
that a POSA would have had a reasonable
expectation that an uncoated PPI would be
successful. Defendants base much of their argument
on the 44% bioavailability figure from Pilbrant 1985
and the assertion that a POSA would simply double
the dosage to account for acid degradation of the
PPI. But Pilbrant 1985 itself ruled out the
possibility of using an uncoated PPI given its low
bioavailability. (PTX-435 at 2.) Tellingly, in our
view, Defendants’ experts could not recall examples
where a formulator simply increased the dosage to
compensate for low bioavailability caused by acid

101a
degradation. (Tr. 393:6-9; Tr. 514:4–515:25; Tr.
692:24–695:10.) And notably, a POSA would be
aware that other disclosures, such as Pilbrant 1993,
suggest that bioavailability might be even lower
than the 44% figure from Pilbrant 1985. (PTX-262 at
7–8.)
Nor are we persuaded by Defendants’ contention
that a POSA would have had a reasonable
expectation of success by virtue of other mechanisms
that might serve to increase the bioavailability of
uncoated PPI. Although there is some indication
from Clissold (DTX-1036) and Tolman (DTX-1061)
that there may be a “feedback loop” that might
eventually increase the bioavailability of an
uncoated PPI, those references did not evaluate
whether uncoated PPIs would be effective. The ’346
(Zegerid) patent disclosed that an uncoated PPI
could be administered with an alkalizing agent such
as sodium bicarbonate. But as explained by
Horizon’s experts, a POSA would have had concerns
that the addition of an alkalizing agent would raise
new challenges related to tablet size and the
possibility that the alkalizing agent would interfere
with the enteric coated naproxen also present in the
Invention. (Tr. 753:21–760:16.) Indeed, the ’346
patent itself describes how sodium bicarbonate can
dissolve an enteric coating. (’346 patent at col. 14,
lines 32–37.) These drawbacks would have
undermined, if not precluded, a POSA’s motivation
to use an uncoated PPI or any expectation of success
in doing so. See Ortho-McNeil Pharm., Inc. v. Mylan
Labs., Inc., 520 F.3d 1358, 1365 (Fed. Cir. 2008)
(noting that challenges associated with the inventive

102a
process that “would have prevented one of ordinary
skill in this art from traversing the multiple
obstacles to easily produce the invention”).
The PTAB has similarly rejected the argument
that it would have been obvious to use an uncoated
PPI in view of Pilbrant 1985. (PTX-351 at 23–26.)
Although the PTAB did not analyze all of the
references raised at trial, the thrust of the
obviousness argument (there made by Defendant
DRL) was similar. Consequently, we are mindful
that Defendants’ evidence must be scrutinized
carefully. See Sciele Pharma Inc. v. Lupin Ltd., 684
F.3d 1253, 1260 (Fed. Cir. 2012) (“[I]t may be harder
to meet the clear and convincing burden when the
invalidity contention is based upon the same
argument on the same reference that the PTO
already considered.”).
Our conclusion is somewhat strengthened by
Horizon’s
evidence
of
so-called
“secondary
considerations” of non-obviousness, although we find
that the Defendants have failed to satisfy their
burden of showing invalidity even without that
evidence. For the most part, Horizon’s secondary
consideration evidence flows from the Invention’s
use of an uncoated PPI. There is at least some
evidence in the record that the success of a
formulation with an uncoated PPI was surprising.
Indeed,
Hawkey
explicitly
noted
that
“Impressively—and surprisingly, in view of the
instability of PPIs in gastric acid—a clinical trial has
shown a reduction…in the proportion of patients
developing NSAID-associated gastric ulcers on

103a
[Vimovo] compared with similar doses of naproxen
alone.” (DTX-1142 at 3.) Defendants reject the
relevance of Hawkey, noting that unexpected results
“must be shown to be unexpected compared with the
closest prior art.” In re Baxter Travenol Labs., 952
F.2d 388, 392 (Fed. Cir. 1991). We agree that
“naproxen alone” is not the closest prior art, but also
note that the reference is commenting on the
unexpected result of an uncoated PPI compared, at
least implicitly, against PPI formulations in the
prior art protected from gastric acid (i.e., through an
enteric coat).
Horizon also presented a substantial amount of
evidence that industry participants were skeptical
that an uncoated PPI would work at all. One
potential development partner wrote that they
“need[ed] a better understanding of why we do not
enteric coat the PPI. They feel this is an ‘enigma’ vs.
all the prior art and they are ‘not convinced’ it is
necessary or beneficial to not enteric coat the
PPI…How could all the PPI experts be so wrong for
so long?” (PTX-085 at 1.) These documents, as well
as others outlined above and presented at trial,
evince skepticism that a formulation with an
uncoated PPI would work. Defendants object to the
applicability of these documents because they postdate the Invention and therefore “fail[] as a matter
of law.” (Dkt. 489 at 56–57.) See In re Rouffet, 149
F.3d 1350, 1355 (Fed. Cir. 1998) (identifying
“skepticism of skilled artisans before the
invention” as a secondary indicium (emphasis
added)). We disagree that controlling case law
prohibits our consideration of documents created

104a
after the priority date when evaluating evidence of
industry skepticism. While the relevant inquiry may
be whether there was skepticism before or at the
time of the invention, we see no reason why postinvention documents cannot be considered as
evidence of pre-existing industry skepticism.
Accordingly, although we may discount the weight of
skepticism evidence created some time after the
invention,
documents
evincing
longstanding
skepticism (e.g., an industry participant asking
“[h]ow could all the PPI experts be so wrong for so
long?”) still support our finding of nonobviousness. 24
Other secondary indicia cited by Horizon do not
similarly support a finding of nonobviousness. We do
not find that evidence of “licensing” supports a
finding of nonobviousness here, in part because the
minimal evidence presented by Horizon does not
demonstrate that the “licenses arose out of
recognition and acceptance of the patent.” Stratoflex,
Inc. v. Aeroquip Corp., 713 F.2d 1530, 1539 (Fed.
Cir. 1983). Likewise, Horizon did not present
evidence at trial that the introduction of Vimovo
satisfied a “long-felt, but unmet need” by
Defendants also lodged a standing objection at trial to
Horizon’s skepticism evidence as inadmissible hearsay, but did
not elaborate in their post-trial brief. (Dkt. 489 at 57
(submitting only that Horizon’s “vague, after-the-fact, and
anecdotal claims derived from hearsay do not salvage the
patents”).) We deny this objection, but, as noted above, our
ultimate conclusion on invalidity would remain the same even
without Horizon’s evidence of secondary considerations of
nonobviousness.
24

105a
meaningfully reducing the number of injuries
associated with NSAID use. (Tr. 1227:18–1228:18)
Indeed, Defendants presented unrebutted testimony
that the standard of care has remained essentially
unchanged. (Tr. 350:4-15.) It is also well-established
that filing of an ANDA does not constitute “copying”
for obviousness purposes. Bayer Healthcare
Pharms., Inc. v. Watson Pharms., Inc., 713 F.3d
1369, 1377 (Fed. Cir. 2013).
For the reasons above, we conclude that the
Defendants have failed to satisfy their evidentiary
burden to demonstrate that the Asserted Patents are
invalid as obvious.
B. Enablement
Defendants argue that the asserted claims are
invalid under 35 U.S.C. § 112 because the ’907 and
’285 patents do not adequately disclose the utility of
using an uncoated PPI. (Dkt. 489 at 69.) They
highlight that the patents do not contain any
experimental testing data regarding the use of
uncoated PPIs, and argue that the inventor’s
unsupported “suspicion” that the invention would
work is insufficient to satisfy the utility prong of
enablement. (Id.) Horizon responds that the utility of
the invention was self-evident to a POSA and that
enablement does not require the disclosure of
experimental test results. (Dkt. 489-1 at 67.)
There appears to be no serious dispute between
the parties that the Asserted Patents disclose how to
make and use the claimed invention. Horizon expert
Dr. Williams testified that making the claimed

106a
formulations would be routine. (Tr. 809:24– 819:13.)
Defense expert Dr. Mayersohn agreed that the
patent specification teaches how to make the claimed
tablets. (Tr. 680:18-21.) The patents themselves
disclose their intended use. (See, e.g., ’907 patent at
col. 4, lines 18–27 (“The invention includes methods
of treating a patient for pain, inflammation and/or
other conditions…Although the method may be used
for any condition in which an NSAID is effective, it
is expected that it will be particularly useful in
patients
with
osteoarthritis
or
rheumatoid
arthritis….”).)
Defendants’ specific enablement challenge
focuses on whether the patents disclose sufficient
evidence to support the Invention’s claimed utility
for treating various medical conditions. (Dkt. 489-2
at 69–70.) They rely primarily on Rasmusson v.
SmithKline Beecham Corp. to argue that the
disclosures in the ’90 7 and ’285 patents are
inadequate. 413 F.3d 1318, 1324 (Fed. Cir. 2005).
Rasmusson involved an enablement challenge to a
patent claiming the use of finasteride to treat
prostate cancer. Id. at 1322. The Federal Circuit
upheld a finding by the Board of Patent Appeals and
Interferences 25 that the claim was not enabled
because “a person of ordinary skill in the art would
have had no basis…for believing that finasteride
could be used to treat prostate cancer in light of the
state of the art and in light of [the patentee’s] failure
The Board of Patent Appeals and Interferences was replaced
by the PTAB under the terms of the Leahy-Smith America
Invents Act, Pub. L. No. 112-29, 125 Stat. 284 (2011).
25

107a
to provide any data to demonstrate the effects of
finasteride in treating prostate cancer.” Id. The
Federal Circuit cited the Board’s review of the
scientific articles and expert testimony, and noted
that the patentee “did not make any contrary
showing that a [POSA]…would have recognized that
DVHOHFWLYHǂ5LQKLELWRULQJHQHUDORUILQDVWHULGHLQ
particular, would be effective in treating prostate
cancer.” Id. at 1324.
The stated utility in the Asserted Patents of
using an NSAID and a PPI to treat pain and NSAIDrelated gastric injury rests on far firmer evidentiary
ground than the novel cancer treatment in
Rasmusson. Testimony from both sides at trial
indicated that a POSA at the time of the invention
would have accepted that a combination of an
NSAID and a PPI would be effective for treating
pain and conditions like arthritis. (Tr. 562:14– 563:4;
Tr. 1172:12–1173:5.) Given the understood utility of
the invention, we disagree with Defendants that the
asserted claims constitute “little more than
respectable guess” that must be invalidated under
the enablement requirement. Rasmusson, 413 F.3d
at 1325. We also do not find that a lack of testing
data on the efficacy of uncoated PPIs renders the
claims invalid. While it may often be true that
“patent applications claiming new methods of
treatment are supported by test results,” it is also
“clear that testing need not be conducted by the
inventor.” In re ’318 Patent Infringement Litig., 583
F.3d 1317, 1324 (Fed. Cir. 2009). Indeed, were
testing data required to obtain patents, “the
associated costs would prevent many companies

108a
from obtaining patent protection on promising new
inventions, thereby eliminating an incentive to
pursue…potential cures.” Id. (citing In re Brana, 51
F.3d at 1568). Consequently, we conclude that
Defendants have failed to meet their evidentiary
burden to show by clear and convincing evidence
that the patents should be invalidated for lack of
enablement.
C. Written Description (Uncoated PPI)
Defendants mount a separate written description
challenge based on the alleged failure of the ’907 and
’285 patents to adequately describe the use of
uncoated PPI. They believe they have caught
Horizon in a catch-22:
According to [Horizon], the claimed
formulation is novel because a POSA would
not have expected an uncoated PPI to be
effective. Against this background, Plaintiffs
argue that a POSA reading the asserted
patents’
formulation
recipes
would
immediately understand that an uncoated
PPI is effective— even though the
specifications disclose no data, reasoning, or
other information in support. But both
cannot be true. Fundamentally, because the
patents lack any disclosure of an uncoated
PPI’s efficacy, the claims are either obvious
(if the POSA understands that uncoated
PPIs work), or lacking description (if the
POSA believes uncoated PPIs would not
work).

109a
(Dkt. 489 at 69.)
As Defendants point out, the Asserted Patents
do not address the efficacy of uncoated PPIs through
experimental testing data or other statements in the
specification. (Tr. 666:16–677:14; Tr. 1004:16–
1005:11.) Instead, Defendants characterize the
specification as “parroting claim language,” which
they view as insufficient given Horizon’s position
that the prior art had taught away from the use of
uncoated PPIs. (Dkt. 489 at 66.)
Horizon responds that the specifications of the
Asserted Patents adequately describe the use of
uncoated PPIs, and that the law does not require the
specification to “present data or an explanation of
why the prior art was wrong to refute the teaching
the in the prior art.” (Dkt. 489-1 at 65.) Instead,
Horizon cites Allergan, Inc. v. Sandoz Inc., for the
proposition that “[a] claim that recites a property
that is necessarily inherent in a formulation that is
adequately described is not invalid as lacking
written description merely because the property
itself is not explicitly described.” 796 F.3d 1293, 1309
(Fed. Cir. 2015).
Our inquiry is whether the lack of information
regarding the efficacy of uncoated PPIs means that
the patent specification does not “reasonably
convey[] to those skilled in the art that the inventor
had possession of the claimed subject matter as of
the filing date.” Ariad, 598 F.3d at 1351. The ’285
patent specification contains various disclosures
describing the immediate release of an acid inhibitor

110a
as a component of the invention.26 For example, the
specification describes that “[t]he acid inhibitor is in
one or more layers outside of the core which do not
contain any NSAID. These layers are not surrounded
by an enteric coating and, upon ingestion of the
tablet or capsule by a patient, release the acid
inhibitor into the patient’s stomach.” (’285 patent at
col. 4, lines 37–41.) This early release of the acid
inhibitor is repeatedly described, with the
specification similarly disclosing that: “the acid
inhibitor is released first and the release of NSAID
is delayed until after the pH in the GI tract has
risen.” (Id. at col. 4, lines 45–51; see also id. at col.
5, lines 12–16.) The immediate release of an
uncoated acid inhibitor is explicitly distinguished in
the specification from enteric coated PPI
formulations that delay the absorption of the acid
inhibitor: “[t]he effect [of PPIs] may be diminished
towards the end of the usual dosing interval.
Intragastric pH rises particularly slowly with the
first dose in a course of treatment since this class of
drugs is enteric coated to avoid destruction by
stomach acid. As a result, absorption is delayed for
several hours.” (Id. at col. 2, lines 3–8.) In contrast,
the examples in the specification describe, e.g., the
“rapid[] release” of uncoated omeprazole. (Id. at col.
16, lines 33–49.)
Particularly in light of disclosures in the
specification describing the immediate release of an
As noted above, the ‘285 and ‘907 patents contain virtually
identical specifications and our analysis applies equally to both
patents.

26

111a
uncoated PPI and the potential disadvantages of
enteric coated PPI formulations, we conclude that
Defendants have not shown by clear and convincing
evidence that the Asserted Patents should be
invalidated for failing to meet the written
description requirement. The lack of experimental
testing data or detailed analysis on why an uncoated
PPI might prove effective does not require us to find
otherwise. We reject, however, Horizon’s suggestion
that the efficacy of uncoated PPIs need not be
described because it is “necessarily inherent” in a
formulation. (Dkt. 489-1 at 65.) Horizon relies
without elaboration on Allergan, 796 F.3d at 1309, a
case which we have previously noted does not
provide clear guidance on what qualifies as an
inherent property of a formulation nor how that
determination bears on the written description
analysis. See Helsinn Healthcare S.A. v. Dr. Reddy's
Labs., Ltd., No. 12-2867, 2017 WL 631899, at *26
n.43 (D.N.J. Feb. 14, 2017).
V.

Conclusion

For the reasons discussed in Section III, we find
that the DRL ANDA II Product infringes claims 1, 2,
3, and 4 of the ’285 patent and that those claims are
not invalid under 35 U.S.C. § 112. For the reasons
discussed in Section IV, we find that the claims of
the ’907 and ’285 patents are not invalid under 35
U.S.C. § 103 or § 112. We will file this memorandum
opinion under temporary seal and order the parties
to submit a proposed form of Judgment in
accordance with this opinion.
s/ Mary L. Cooper

112a
MARY L. COOPER
United States District Judge
Dated: July 10, 2017

113a
APPENDIX C
United States District Court
For the District of New Jersey
Civil Action Nos. 3:11-cv-02317-MLC-DEA
and 3:13-cv-00091-MLC-DEA
HORIZON PHARMA, INC. and
POZEN INC.,
Plaintiffs,
vs.
DR. REDDY’S LABORATORIES INC. and
DR. REDDY’S LABORATORIES LTD.,
Defendants.
FINAL JUDGMENT
This is an action for patent infringement having
been brought by Plaintiffs Horizon Pharma Inc. and
Pozen Inc. (collectively, “Plaintiffs”) against
Defendants Dr. Reddy’s Laboratories, Inc., and Dr.
Reddy’s Laboratories, Ltd. (collectively, “DRL”),
asserting that the products that are the subjects of
DRL’s Abbreviated New Drug Applications
(“ANDAs”) No. 202461 and No. 204206 infringe
claims of U.S. Patent Nos. 6,926,907 (“’907 patent”),
5,714,504 (“’504 patent”), 6,369,085 (“’085 patent”),
6,875,872 (“’872 patent”), 7,411,070 (“’070 patent”),
7,745,466 (“’466 patent”), and 8,557,285 (“’285
patent”).

114a
This matter having been tried before this Court
on January 12, 13 and 17-20, 2017, with closing
arguments on May 17, 2017, the Court having heard
testimony on behalf of Plaintiffs, and DRL regarding
DRL’s invalidity counterclaims with respect to
claims 5, 15, 52 and 53 of the ’907 patent and claims
1-4 of the ’285 patent, and DRL’s noninfringement
counterclaims with respect to claims 1-4 of the ’285
patent concerning DRL’s ANDA No. 204206, the
Court having considered the written post-trial
submissions of the parties, and the Court having
issued its Memorandum Opinion on June 26, 2017
(D.E. No. 493) and Amended Memorandum Opinion
on July 10, 2017 (“Amended Opinion”) (D.E. No. 497)
finding that claims 5, 15, 52 and 53 of the ’907
patent and claims 1-4 of the ’285 patent are not
invalid under 35 U.S.C. §§103 and 112, and finding
that claims 1-4 of the ’285 patent are infringed by
DRL’s ANDA No. 204206 under 35 U.S.C. §271(e)
(all docket citations refer to Civil Action No. 112317);
IT IS ORDERED AND ADJUDGED that this
Court has jurisdiction over the Plaintiffs and DRL
and the subject matter of this action;
IT IS ORDERED AND ADJUDGED that all
claims and counterclaims regarding the ’504 patent,
the ’085 patent, the ’872 patent, the ’070 patent, and
the ’466 patent are dismissed with prejudice (see
D.E. No. 139);
IT IS ORDERED AND ADJUDGED, for the
reasons set forth in the Court’s Amended Opinion,

115a
that final judgment is entered in favor of Plaintiffs
and against DRL on all claims and counterclaims
regarding the validity of claims 5, 15, 52, and 53 of
the ’907 Patent;
IT IS ORDERED AND ADJUDGED, for the
reasons set forth in the Court’s Amended Opinion,
that final judgment is entered in favor of Plaintiffs
and against DRL on all claims and counterclaims
regarding the validity of claims 1-4 of the ’285
Patent;
IT IS ORDERED AND ADJUDGED,
pursuant to the Final Pretrial Order regarding
Infringement (D.E. No. 421 at 8), that the
commercial manufacture, use, offer for sale, sale, or
importation of DRL’s ANDA 202461 Product (i.e., the
generic version of VIMOVO that is the subject of
DRL’s ANDA No. 202461 submitted under 35 U.S.C.
§271(e)(2)(A)) within the United States or
administration of DRL’s ANDA 202461 Product for
the treatment of pain and inflammation according to
its prescribing information within the United States
would infringe claims 5, 15, 52, and 53 of the ’907
Patent and claims 1-4 of the ’285 Patent;
IT IS ORDERED AND ADJUDGED, for the
reasons set forth in the Court’s Amended Opinion,
that final judgment is entered in favor of Plaintiffs
and against DRL on all claims and counterclaims
regarding the infringement of claims 1-4 of the ’285
Patent with respect to DRL’s ANDA 204206 Product,
i.e., the commercial manufacture, use, offer for sale,
sale, or importation of DRL’s ANDA 204206 Product

116a
(i.e., the generic version of VIMOVO that is the
subject of DRL’s ANDA No. 204206 submitted under
35 U.S.C. §271(e)(2)(A)) within the United States
would infringe claims 1-4 of the ’285 Patent;
IT IS ORDERED that, pursuant to 35 U.S.C. §
271(e)(4)(A), the effective date of any final approval
by the FDA of DRL’s ANDA No. 202461 shall be a
date which is not earlier than the expiration of the
’907 Patent, including any patent term extensions
and/or adjustments;
IT IS ORDERED that, pursuant to 35 U.S.C. §
271(e)(4)(A), the effective date of any final approval
by the FDA of DRL’s ANDA No. 202461 shall be a
date which is not earlier than the expiration of the
’285 Patent, including any patent term extensions
and/or adjustments;
IT IS ORDERED that, pursuant to 35 U.S.C. §
271(e)(4)(A), the effective date of any final approval
by the FDA of DRL’s ANDA No. 204206 shall be a
date which is not earlier than the expiration of the
’285 Patent, including any patent term extensions
and/or adjustments;
IT IS ORDERED that, in the event that DRL
appeals from this Final Judgment, any motion for
attorney fees or costs under Fed. R. Civ. P. 54(d) and
L. Civ. R. 54.1- 54.2, including any motion that this
case is exceptional under 35 U.S.C. § 285, shall be
considered timely if filed and served within thirty
days after final disposition of any such appeal;

117a
IT IS ORDERED that, in the event that DRL
does not appeal from this Final Judgment, any
motion for attorney fees or costs under Fed. R. Civ.
P. 54(d) and L. Civ. R. 54.1-54.2, including any
motion that this case is exceptional under 35 U.S.C.
§ 285, shall be considered timely if filed and served
within thirty days after the expiration of the time for
filing a notice of appeal under Fed. R. App. P. 3 and
4;
IT IS ORDERED that all pending motions and
other outstanding requests for relief not specifically
addressed herein are DENIED; and
IT IS ORDERED that the Clerk of the Court
designate Civil Action Nos. 3:11-cv-02317-MLCDEA, and 3:13-cv-00091-MLC-DEA as CLOSED.
s/ Mary L. Cooper
MARY L. COOPER
United States District Judge
Dated: July 21, 2017

118a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
NUVO PHARMACEUTICALS (IRELAND)
DESIGNATED ACTIVITY COMPANY, HORIZON
MEDICINES LLC,
Plaintiffs-Cross-Appellants
v.
DR. REDDY’S LABORATORIES INC., DR.
REDDY’S LABORATORIES, LTD., MYLAN, INC.,
MYLAN PHARMACEUTICALS INC., MYLAN
LABORATORIES LIMITED,
Defendant-Appellants
LUPIN LTD., LUPIN PHARMACEUTICALS, INC.,
Defendants-Appellees
2017-2473, 2017-2481, 2017-2484, 2017-2486,
2017-2489, 2017-2491, 2017-2492, 2017-2493
Appeals from the United States District Court for
the District of New Jersey in Nos. 3:11-cv-02317MLC-DEA, 3:13-cv-00091-MLC-DEA, 3:13-cv-04022MLC-DEA, Judge Mary L. Cooper.
JUDGMENT
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:

119a
REVERSED as to 17-2473, 17-2481, 17-2484, 17-2486;
DISMISSED as to 17-2489, 17-2491, 17-2492, 17-2493
ENTERED BY ORDER OF THE COURT
May 15, 2019

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

120a
APPENDIX E
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
______________________
NUVO PHARMACEUTICALS (IRELAND)
DESIGNATED ACTIVITY COMPANY, HORIZON
MEDICINES LLC,
Plaintiffs-Cross-Appellants
v.
DR. REDDY’S LABORATORIES INC., DR.
REDDY’S LABORATORIES, LTD., MYLAN, INC.,
MYLAN PHARMACEUTICALS INC., MYLAN
LABORATORIES LIMITED,
Defendant-Appellants
LUPIN LTD., LUPIN PHARMACEUTICALS, INC.,
Defendants-Appellees
______________________
2017-2473, 2017-2481, 2017-2484, 2017-2486,
2017-2489, 2017-2491, 2017-2492, 2017-2493
Appeals from the United States District Court for
the District of New Jersey in Nos. 3:11-cv-02317MLC-DEA, 3:13-cv-00091-MLC-DEA, 3:13-cv-04022MLC-DEA, Judge Mary L. Cooper.
______________________
ON PETITION FOR REHEARING EN BANC

121a
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE,
CLEVENGER 1, DYK, MOORE, O’MALLEY,
REYNA, WALLACH, TARANTO, CHEN, and
HUGHES*, Circuit Judges.
PER CURIAM.
ORDER
Cross-Appellants Horizon Medicines LLC and
Nuvo Pharmaceuticals (Ireland) Designated Activity
Company filed a petition for rehearing en banc. A
response to the petition was invited by the court and
filed by Appellants Dr. Reddy's Laboratories Inc. and
Dr. Reddy's Laboratories, Ltd. The petition was first
referred as a petition for rehearing to the panel that
heard the appeal, and thereafter the petition for
rehearing en banc was referred to the circuit judges
who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.

Circuit Judge Clevenger participated only in the decision on
the petition for panel rehearing.

1

* Circuit Judge Stoll did not participate.

122a
The mandate of the court will issue on August 6,
2019.
FOR THE COURT
JULY 30, 2019
DATE

/S/ PETER R. MARKSTEINER
PETER R. MARKSTEINER
CLERK OF COURT

123a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
__________________________
NUVO PHARMACEUTICALS (IRELAND)
DESIGNATED ACTIVITY COMPANY, HORIZON
MEDICINES LLC,
Plaintiffs - Cross-Appellants
v.
DR. REDDY’S LABORATORIES INC., DR.
REDDY’S LABORATORIES, LTD., MYLAN, INC.,
MYLAN PHARMACEUTICALS INC., MYLAN
LABORATORIES LIMITED,
Defendant - Appellants
LUPIN LTD., LUPIN PHARMACEUTICALS, INC.,
Defendants - Appellees
__________________________
2017-2473, 2017-2481, 2017-2484, 2017-2486,
2017-2489, 2017-2491, 2017-2492, 2017-2493
__________________________
Appeals from the United States District Court for
the District of New Jersey in Nos. 3:11-cv-02317MLC-DEA, 3:13-cv-00091-MLC-DEA, 3:13-cv-04022MLC-DEA, Judge Mary L. Cooper.
__________________________
MANDATE
__________________________

124a
In accordance with the judgment of this Court,
entered May 15, 2019, and pursuant to Rule 41 of the
Federal Rules of Appellate Procedure, the formal
mandate is hereby issued.
FOR THE COURT
August 6, 2019

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

125a
APPENDIX G
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE
UNITED STATES PATENT NO. 6,926,907 B2
ENTITLED
“PHARMACEUTICAL COMPOSITIONS FOR
THE COORDINATED DELIVERY OF NSAIDS”
ISSUED AUGUST 9, 2005
(54)

PHARMACEUTICAL COMPOSITIONS
FOR THE COORDINATED DELIVERY
OF NSAIDS

(75)

Inventor: John R. Plachetka, Chapel Hill,
NC (US)

(73)

Assignee: Pozen Inc., Chapel Hill, NC (US)

(*)

Notice: Subject to any disclaimer, the term of
this patent is extended or adjusted
under 35 U.S.C. 154(b) by 273 days.

(21)

Appl. No.: 10/158,216

(22)

Filed: May 31, 2002

(65)

Prior Publication Data
US 2003/0069255 Al Apr. 10, 2003

126a
Related U.S. Application Data
(60) Related U.S. Application Data Provisional
application No. 60/294,588, filed on Jun. 1, 2001.
(51) Int. Cl.7 ....................A61K 9/22; A61K 9/24;
A61K 9/32; A61K 9/52
(52) U.S. Cl.......................424/472; 424/457; 424/463;
424/468; 424/474; 424/480;
424/482
(58) Field of Search............................. 424/457,
463,
424/468, 472, 474, 480, 482, 464,
451
(56)

References Cited
U.S. PATENT DOCUMENTS

4,255,431 A
4,508,905 A
4,554,276 A
4,562,261 A
4,619,934 A
4,676,984 A
4,704,278 A
4,757,060 A
4,766,117 A
4,786,505 A
4,965,065 A
5,037,815 A
5,043,358 A
5,204,118 A
5,260,333 A
5,364,616 A
5,373,022 A
5,417,980 A

3/1981
4/1985
11/1985
12/1985
10/1986
6/1987
11/1987
7/1988
8/1988
11/1988
10/1990
8/1991
8/1991
4/1993
11/1993
11/1994
12/1994
5/1995

Junggren et al. .........
Junggren et al. .........
LaMattina ................
Hirata et al. ..............
Sunshine et al. .........
Wu et al. ...................
Wu et al. ...................
Lukacsko et al. .........
Crawford et al...........
Lovgren et al. ...........
Lukacsko et al. ..........
Lukacsko et al. .........
Lukacsko et al. .........
Goldman et al. .........
Lukacsko et al. ........
Singer et al...............
Fawzi et al. ...............
Goldman et al. ........

424/263
546/271
514/272
548/184
514/277
424/157
424/157
514/160
514/219
424/468
424/10
514/162
514/653
424/489
514/471
424/52
514/570
424/464

127a
5,466,436 A 11/1995 Stables .................... 514/161
5,514,663 A 5/1996
Mandel ....................
514/33
5,631,022 A 5/1997
Mandel et al. ..........
424/456
5,643,960 A 7/1997
Breitner et al. ......... 514/570
5,686,105 A 11/1997 Kelm et al. .............. 424/452
5,716,648 A 2/1998
Halskov et al. .......... 424/682
5,955,451 A 9/1999
Lichtenberger et al. ... 514/78
6,013,281 A 1/2000
Lundberg et al. ......
424/468
6,025,395 A 2/2000
Breitner et al. .......... 514/570
6,160,020 A 12/2000 Ohannesian et al. ... 514/629
6,162,816 A 12/2000 Bohlin et al. ...........
514/338
6,207,188 B1 3/2001
Gustavsson et al. .... 424/464
6,365,184 B1 4/2002
Depui et al. ............
424/469
6,395,298 B1 5/2002
Flanagan et al. ......
424/479
6,485,747 B1 11/2002 Flanagan et al. ....... 424/479
6,544,556 B1 4/2003
Chen et al. .............. 424/469
2001/0025107 A1 9/2001 Barberich et al. ... 546/273.7
2001/0036473 A1 11/2001 Scott et al. ........... 424/463
2001/0044410 A1 11/2001 Gelber et al. ........... 514/27
2002/0012676 A1 1/2002 Lundeberg et al. .... 424/400
2002/0042433 A1 4/2002 Yelle et al. .............. 514/338
2002/0044962 A1 4/2002 Cherukuri et al. ..... 424/459
2002/0045184 A1 4/2002 Chen ........................ 435/6
2002/0086029 A1 7/2002 Lundberg et al. .....424/184.1
2002/0111370
8/2002 Bergman et al. ....... 514/338
2002/0155153 A1 10/2002 Depui et al. ............ 424/452
2003/0008903 A1 1/2003 Barberich et al. ..... 514/338
2003/0113375 A1 6/2003 Lundberg et al. ...... 424/474
2003/0129235 A1 7/2003 Chen et al. .............. 424/470
FOREIGN PATENT DOCUMENTS
DE
EP
EP
EP
GB
WO
WO
WO
WO
WO
WO

198 01 811 A1
0 320 550
A1
0 426 479
A1
0 550 083
B1
2 105 193
WO 85/03443
WO 93/12817
WO 94/07541
WO 98/22117
WO 99/00380
WO 99/12524

1/1998
6/1989
5/1991
7/1993
3/1983
8/1985
7/1993
4/1994
5/1998
1/1999
3/1999

.......... A61K/9/50
.......... A61K/33/08
........ A61K/31/415
.......... A61K/31/34
.......... A61K/31/34
.......... A61K/45/06
.......... A61K/45/06
.......... A61K/49/00
.......... A61K/33/24
......... C07D/401/12
.......... A61K/9/20

128a
WO
WO
WO

WO 00/71122
11/2000
WO 00/72838 A1 12/2000
WO 03/017980 A1 3/2003

.......... A61K/31/44
.......... A61K/31/04
.......... A61K/9/16

OTHER PUBLICATIONS
Howden, "Clinical Pharmacology of Omeprazole,"
Clin. Pharmacokinet. 20(1):38-49 (1991) abstract.
Pilbrant, et al., "Development of an Oral Formulation
of Omeprazole," Scand. J. Gastroenterol. 20(Suppl.
108):113-120 (1985).
Sharma, "Comparison of 24--Hour Intragastric pH
Using Four Liquid Formulations of Lansoprazole and
Omeprazole," Am. J. Health-Syst. Pharm. 56(Supp.
4):S18-S21 (1999).
Bigard, et al., "Complete Prevention by Omeprazole
of Aspirin Induced Gastric Lesions in Healthy
Subjects," GUT 29(5):A712, T49 (1988).
Bombardier, et al., "Comparison of Upper
Gastrointestinal Toxicity of Rofecoxib and Naproxen
in Patients with Rheumatoid Arthritis," N. Engl. J.
Med. 343:1520-1528 (2000).
Brown, et al., "Prevention of the Gastrointestinal
Adverse Effects of Nonsteroidal Anti-Inflammatory
Drugs," Pract. Drug Safety 21:503-512 (1999).
Cullen, et al., "Primary Gastroduodenal Prophylaxis
with
Omeprazole
for
Non-Steroidal
AntiInflammatory Drug Users," Aliment. Pharmacol.
Ther. 12:135-140 (1998).
Hawkey, "Progress in Prophylaxis Against
Nonsteroidal Anti-Inflammatory Drug-Associated
Ulcers and Erosions," Am. J. Med. 104:67S-74S
(1998).
Hawkey, et al., "Omeprazole Compared with
Misoprostol for Ulcers Associated with Nonsteroidal

129a
Anti-Inflammatory Drugs," N. Engl. J. Med. 338:727734 (1998).
Katz, et al., "Gastric Acidity and Acid Breakthrough
with Twice-Daily Omeprazole or Iansoprazole,"
Aliment. Pharmacol. Ther 14:709-714 (2000).
Kephart, et al., "Coprescribing of Nonsteroidal AntiInflammatory Drugs and Cytoprotective and
Antiulcer Drugs in Nova Scotia's Senior Population,"
Clin. Ther. 17:1159-1173 (1995).
Lad, et al., "Management of Nonsteroidal AntiInflammatory
Drug-Induced
Gastroduodenal
Disease by Acid Suppression," Can. J. Gastroenterol
13:135-142 (1999).
Mattsson, et al., "Omeprazole Provides Protection
Against Experimentally Induced Gastric Mucosal
Lesions," Eur. J. Pharmacol. 91:111-114 (1983).
Oddsson, et al., "Endoscopic Findings in the Stomach
and Duodenum after Treatment with Enteric-Coated
and Plain Naproxen Tablets in Healthy Subjects,"
Scand. J. Gastroenterol. 25:231-234 (1990).
Scheiman, "NSAID-Induced Peptic Ulcer Disease: A
Critical Review of Pathogenesis and Management,"
Dig. Dis. 12:210-222 (1994).
Selway, "Potential Hazards of Long-Term Acid
Suppression," Scand. J. Gasatroenterol. 25 (Supp.
178):85-92 (1990).
Silverstein, et al., "Gastrointestinal Toxicity with
Celecoxib vs. Nonsteroidal Anti-Inflammatory Drugs
for Osteoarthritis and Rheumatoid Arthritis; The
CLASS Study: A Randomized Controlled Trial,"
JAMA 284:1247-1255 (2000).
Tronstad, et al., "Gastroscopic Findings after
Treatment with Enteric-Coated and Plain Naproxen

130a
Tablets
in
Healthy
Subjects,"
Scand.
J.
Gastroenterol. 20:239-242 (1985).
Wolfe, et al., "Gastrointestinal Toxicity of
Nonsteroidal Anti-Inflammatory Drugs," N. Engl. J.
Med. 340:1888-1899 (1999).
Yeomans, et al., "A Comparison of Omeprazole with
Ranitidine for Ulcers Associated with Nonsteroidal
Anti-Inflammatory Drugs," N. Engl. J. Med. 338:719726 (1998).
Yeomans, et al., "New Data on Healing of
Nonsteroidal Anti-Inflammatory Drug-Associated
Ulcers and Erosions," Am. J. Med. 104:56S-61S
(1998).
English language abstract for DE 198 01 811,
Reference B13 above.
Dent, "Why Proton Pump Inhibition Should Heal and
Protect Against Nonsteroidal Anti-Inflammatory
Drug Ulcers," Am. J. Med. 104:52S-55S (1998).
Kimmey, et al., "Role of H2-Receptor Blockers in the
Prevention of Gastric Injury Resulting from
Nonsteroidal Anti-inflammatory Agents," Am. J.
Med. 84:49-52 (1988).
Lee, et al., "Omeprazole Prevents IndomethacinInduced Gastric Ulcers in Rabbits," Aliment.
Pharmacol. Ther. 10:571-576 (1996).
Lichtenbergetr,
et
al.,
"Nonsteroidal
Antiinflammatory Drug and Phospholipid Prodrugs:
Combination Therapy with Antisecretory Agents in
Rats," Gastroenterology 111:990-995 (1996).
Savarino, et al., "Effect of One-Month Treatment
with
Nonsteroidal
Antiinflammatory
Drugs
(NSAIDs) on Gastric pH of Rheumatoid Arthritis
Patients," Digestive Diseases and Sciences 43:459463 (1998).

131a
Wagner,
et
al.,
"Effects
of
Nonsteroidal
Antiinflammatory Drugs on Ulcerogenesis and
Gastric Secretion in Pylorus-Ligated Rat," Digestive
Diseases and Sciences 40:134-140 (1995).
Primary Examiner-James M. Spear
(74) Attorney, Agent, or Firm - Michael A Sanzo;
Fitch, Even, Tabin & Flannery
(57)

ABSTRACT

The present invention is directed to drug dosage
forms that release an agent that raises the pH of a
patient's gastrointestinal tract, followed by a nonsteroidal anti-inflammatory drug. The dosage form is
designed so that the NSAID is not released until the
intragastric pH has been raised to a safe level. The
invention also encompasses methods of treating
patients by administering this coordinated release,
gastroprotective, antiarthritic/analgesic combination
unit dosage form to achieve pain and symptom relief
with a reduced risk of developing gastrointestinal
damage such as ulcers, erosions and hemorrhages.
55 Claims, 2 Drawing Sheets

132a

133a

134a
PHARMACEUTICAL COMPOSITIONS FOR
THE COORDINATED DELIVERY OF NSAIDS
CROSS REFERENCE TO RELATED
APPLICATIONS
The present application claims priority to U.S.
provisional application No. 60/294,588, filed on
Jun. 1, 2001.
FIELD OF THE INVENTION
The present invention is directed
to
pharmaceutical compositions that provide for the
coordinated release of an acid inhibitor and a nonsteroidal anti-inflammatory drug (NSAID). These
compositions have a reduced likelihood of causing
unwanted side effects, especially gastrointestinal
side effects, when administered as a treatment for
pain, arthritis and other conditions amenable to
treatment with NSAIDs.
BACKGROUND OF THE INVENTION
Although non-steroidal anti-inflammatory drugs
are widely accepted as effective agents for controlling
pain, their administration can lead to the
development of gastroduodenal lesions, e.g., ulcers
and erosions, in susceptible individuals. It appears
that a major factor contributing to the development
of these lesions is the presence of acid in the stomach
and upper small intestine of patients. This view is
supported by clinical studies demonstrating an
improvement in NSAID tolerability when patients

135a
are also taking independent doses of acid inhibitors
(Dig. Dis. 12:210-222 (1994); Drug Safety 21:503-512
(1999); Aliment. Pharmacol. Ther. 12:135-140 (1998);
Am. J. Med. 104(3A):67S-74S (1998); Clin. Ther.
17:1159-1173
(1995)).
Other
major factors
contributing to NSAID-associated gastropathy
include a local toxic effect of NSAIDs and inhibition
of protective prostaglandins (Can. J. Gastroenterol.
13: 135-142 (1999) and Pract. Drug Safety 21:503512, (1999)), which may also make some patients
more susceptible to the ulcerogenic effects of other
noxious stimuli.
In general, more potent and longer lasting acid
inhibitors, such as proton pump inhibitors, are
thought to be more protective during chronic
administration of NSAIDs than shorter acting
agents, e.g., histamine H2 receptor antagonists (H-2
blockers) (N. Eng. J. Med. 338:719-726 (1998);Am. J.
Med. 104(3A):56S-61S (1998)). The most likely
explanation for this is that gastric pH fluctuates
widely throughout the dosing interval with short
acting acid inhibitors leaving the mucosa vulnerable
for significant periods of time. In particular, the pH
is at its lowest point, and hence the mucosa is most
vulnerable, at the end of the dosing interval (least
amount of acid inhibition) and for some time after the
subsequent dose of acid inhibitor. In general, it
appears that when a short acting acid inhibitor and
an NSAID are administered simultaneously, NSAIDrelated mucosal damage occurs before the pH of the
gastrointestinal tract can be raised and after the acid
inhibiting effect of the short acting acid inhibitor
dissipates.

136a
Although longer lasting agents, such as proton
pump inhibitors (PPIs), usually maintain a
consistently higher gastroduodenal pH throughout
the day, after several days dosing, their antisecretory
effect may be delayed for several hours and may not
take full effect for several days (Clin. Pharmacokinet.
20:38-49 (1991)). Their effect may be diminished
toward the end of the usual dosing interval.
Intragastric pH rises particularly slowly with the
first dose in a course of treatment since this class of
drugs is enteric coated to avoid destruction by
stomach acid. As a result, absorption is delayed for
several hours. Even then, some patients fail to
respond consistently to drugs of this type and suffer
from "acid breakthrough" which again leaves them
vulnerable to NSAID-associated gastroduodenal
damage (Aliment. Pharmacol. Ther. 14:709-714
(2000)). Despite a significant reduction in
gastroduodenal lesions with the concomitant
administration of a proton pump inhibitor during six
months of NSAID therapy, up to 16% of patients still
develop ulcers, indicating that there remains
substantial room for improvement (N. Eng. J. Med.
338:727-734 (1998)). Thus, the addition of a pH
sensitive enteric coating to an NSAID could provide
additional protection against gastroduodenal
damage not provided by the H2 blocker or PPI alone.
In addition, although long acting acid inhibitors may
reduce the risk of GI lesions in chronic NSAID users,
there are questions about the safety of maintaining
an abnormally elevated pH in a patient's GI tract for
a prolonged period of time (Scand. J. Gastroenterol.
Suppl. 178:85-92 (1990)).

137a
Recognizing the potential benefits of PPIs for the
prevention of NSAID-induced gastroduodenal
damage, others have disclosed strategies for
combining the two active agents for therapeutic
purposes. However, these suggestions do not provide
for coordinated drug release or for reducing
intragastric acid levels to a non-toxic level prior to
the release of NSAID (U.S. Pat. Nos. 5,204,118;
5,417,980; 5,466,436; and 5,037,815). In certain
cases, suggested means of delivery would expose the
gastrointestinal tract to NSAIDs prior to onset of PPI
activity (U.S. Pat. No. 6,365,184).
Attempts to develop NSAIDs that are inherently
less toxic to the gastrointestinal tract have met with
only limited success. For example, the recently
developed cyclooxygenase-2 (COX-2) inhibitors show
a reduced tendency to produce gastrointestinal ulcers
and erosions, but a significant risk is still present,
especially if the patient is exposed to other
ulcerogens (JAMA 284:1247-1255 (2000); N. Eng. J.
Med. 343:1520-1528 (2000)). In this regard, it
appears that even low doses of aspirin will negate
most of the benefit relating to lower gastrointestinal
lesions. In addition, the COX-2 inhibitors may not be
as effective as other NSAIDs at relieving some types
of pain and have been associated with significant
cardiovascular problems (JADA 131:1729-1737
(2000); SCRIP 2617, pg. 19, Feb. 14, 2001); NY
Times, May 22, 2001, pg. C1)).
Other attempts to produce an NSAID therapy
with less gastrointestinal toxicity have involved the

138a
concomitant administration of a cytoprotective
agent. In 1998, Searle began marketing Arthrotec™
for the treatment of arthritis in patients at risk for
developing GI ulcers. This product contains
misopristol (a cytoprotective prostaglandin) and the
NSAID diclofenac. Although patients administered
Arthrotec™ do have a lower risk of developing ulcers,
they may experience a number of other serious side
effects such as diarrhea, severe cramping and, in the
case of pregnant women, potential damage to the
fetus.
Another approach has been to produce enteric
coated NSAID products. However, even though these
have shown modest reductions in gastroduodenal
damage in short term studies (Scand. J.
Gastroenterol. 20: 239-242 (1985) and Scand. J.
Gastroenterol. 25:231-234 (1990)), there is no
consistent evidence of a long term benefit during
chronic treatment.
Overall, it may be concluded that the risk of
inducing GI ulcers is a recognized problem associated
with the administration of NSAIDs and that, despite
considerable effort, an ideal solution has not yet been
found.
SUMMARY OF THE INVENTION
The present invention is based upon the
discovery of a new method for reducing the risk of
gastrointestinal side effects in people taking NSAIDs
for pain relief and for other conditions, particularly
during chronic treatment. The method involves the

139a
administration of a single coordinated unit-dose
product that combines: a) an agent that actively;
raises intragastric pH to levels associated with less
risk of NSAID-induced ulcers; and b) an NSAID that
is specially formulated to be released in a coordinated
way that minimizes the adverse effects of the NSAID
on the gastroduodenal mucosa. Either short or long
acting acid inhibitors can be effectively used in the
dosage forms. This method has the added benefit of
being able to protect patients from other
gastrointestinal ulcerogens whose effect may
otherwise be enhanced by the disruption of
gastroprotective prostaglandins due to NSAID
therapy.
In its first aspect, the invention is directed to a
pharmaceutical composition in unit dosage form
suitable for oral administration to a patient. The
composition contains an acid inhibitor present in an
amount effective to raise the gastric pH of a patient
to at least 3.5, preferably to at least 4, and more
preferably to at least 5, when one or more unit dosage
forms are administered. The gastric pH should not
exceed 7.5 and preferably should not exceed 7.0. The
term "acid inhibitor" refers to agents that inhibit
gastric acid secretion and increase gastric pH. In
contrast to art teaching against the use of H2
blockers for the prevention of NSAID-associated
ulcers (N. Eng. J. Med. 340: 1888-1899 (1999)), these
agents are preferred compounds in the current
invention. Specific, H2 blockers that may be used
include
cimetidine,
ranitidine,
ebrotidine,
pabutidine, lafutidine, loxtidine or famotidine. The
most preferred acid inhibitor is famotidine present in

140a
dosage forms in an amount of between 5 mg and 100
mg. Other agents that may be effectively used
include proton pump inhibitors such as omeprazole,
esomeprazole,
pantoprazole,
lansoprazole
or
rabeprazole.
The pharmaceutical composition also contains a
nonsteroidal anti-inflammatory drug in an amount
effective to reduce or eliminate pain or inflammation.
The NSAID may be a COX-2 inhibitor such as
celecoxib rofecoxib meloxicam, piroxicam, valdecoxib,
parecoxib, etoricoxib: CS-502, JTE-522, L-745,337 or
NS398. Alternatively, the NSAID may be aspirin,
acetaminophen, ibuprofen, flurbiprofen, ketoprofen,
naproxen, oxaprozin, etodolac, indomethacin,
ketorolac, lornoxicam, nabumetone, or diclofenac.
The most preferred NSAID is naproxen in an amount
of between 50 mg and 1500 mg, and more preferably,
in an amount of between 200 mg and 600 mg. It will
be understood that, for the purposes of the present
invention, reference to an acid inhibitor, NSAID, or
analgesic agent will include all of the common forms
of these compounds and, in particular, their
pharmaceutically acceptable salts. The amounts of
NSAIDs which are therapeutically effective may be
lower in the current invention than otherwise found
in practice due to potential positive kinetic
interaction and NSAID absorption in the presence of
an acid inhibitor.
The term "unit dosage form" as used herein refers
to a single entity for drug administration. For
example, a single tablet or capsule combining both an
acid inhibitor and an NSAID would be a unit dosage

141a
form. A unit dosage form of the present invention
preferably provides for coordinated drug release, in a
way that elevates gastric pH and reduces the
deleterious effects of the NSAID on the
gastroduodenal mucosa, i.e., the acid inhibitor is
released first and the release of NSAID is delayed
until after the pH in the GI tract has risen. In a
preferred embodiment, the unit dosage form is a
multilayer tablet, having an outer layer comprising
the acid inhibitor and an inner core which comprises
the NSAID. In the most preferred form, coordinated
delivery is accomplished by having the inner core
surrounded by a polymeric barrier coating that does
not dissolve unless the surrounding medium is at a
pH of at least 3.5, preferably at least 4 and more
preferably, at least 5. Alternatively, a barrier coating
may be employed which controls the release of
NSAID by time, as opposed to pH, with the rate
adjusted so that NSAID is not released until after the
pH of the gastrointestinal tract has risen to at least
3.5, preferably at least 4, and more preferably at
least 5. Thus, a time-release formulation may be used
to prevent the gastric presence of NSAID until
mucosal tissue is no longer exposed to the damage
enhancing effect of very low pH.
The invention includes methods of treating a
patient for pain, inflammation and/or other
conditions by administering the pharmaceutical
compositions described above. Although the method
may be used for any condition in which an NSAID is
effective, it is expected that it will be particularly
useful in patients with osteoarthritis or rheumatoid
arthritis. Other conditions that may be treated

142a
include, but are not limited to: all form of headache,
including migraine headache; acute musculoskeletal
pain; ankylosing spondylitis; dysmenorrhoea;
myalgias; and neuralgias.
In a more general sense, the invention includes
methods of treating pain, inflammation and/or other
conditions by orally administering an acid inhibitor
at a dose effective to raise a patient's gastric pH to at
least 3.5, preferably to at least 4 or and more
preferably to at least 5. The patient is also
administered an NSAID, for example in a
coordinated dosage form, that has been coated in a
polymer that only dissolves at a pH of least 3.5,
preferably at least 4 and, more preferably, 5 or
greater or which dissolves at a rate that is slow
enough to prevent NSAID release until after the pH
has been raised. When acid inhibitor and NSAID are
administered in separate doses, e.g., in two separate
tablets, they should be given concomitantly (i.e., so
that their biological effects overlap) and may be given
concurrently, i.e., NSAID is given within one hour
after the acid inhibitor. Preferably, the acid inhibitor
is an H2 blocker and, in the most preferred
embodiment, it is famotidine at a dosage of between
5 mg and 100 mg. Any of the NSAIDs described above
may be used in the method but naproxen at a dosage
of between 200 and 600 mg is most preferred. It is
expected that the inhibitor and analgesic will be
typically delivered as part of a single unit dosage
form which provides for the coordinated release of
therapeutic agents. The most preferred dosage form
is a multilayer tablet having an outer layer

143a
comprising an H2 blocker and an inner core
comprising an NSAID.
The invention also provides a method for
increasing compliance in a patient requiring frequent
daily dosing of NSAIDs by providing both an acid
inhibitor and NSAID in a single convenient,
preferably coordinated, unit dosage form, thereby
reducing the number of individual doses to be
administered during any given period.
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 is a schematic diagram of a four layer
tablet dosage form. There is a naproxen core layer
surrounded by a barrier layer. A third, enteric
coating, layer delays the release of naproxen sodium
until the pH is at a specific level, e.g., above 4.
Finally, there is an outer layer that releases an acid
inhibitor such as famotidine.
FIG. 2 illustrates a three layer dosage form. An
acid inhibitor, e.g., famotidine, is released
immediately after ingestion by a patient in order to
raise the pH of the gastrointestinal tract to above a
specific pH, e.g., above 4. The innermost layer
contains naproxen. Thus, the dosage form has a
naproxen core, an enteric film coat and an acid
inhibitor film coat.
FIG. 3 illustrates a naproxen sodium pellet
which contains a subcoat or barrier coat prior to the
enteric film coat.

144a
DETAILED DESCRIPTION OF THE
INVENTION
The present invention is based upon the
discovery of improved pharmaceutical compositions
for administering NSAIDs to patients. In addition to
containing one or more NSAIDs, the compositions
include acid inhibitors that are capable of raising the
pH of the GI tract of patients. All of the dosage forms
are designed for oral delivery and provide for the
coordinated release of therapeutic agents, i.e., for the
sequential release of acid inhibitor followed by
analgesic.
The NSAIDs used in preparations may be either
short or long acting. As used herein, the term "long
acting" refers to an NSAID having a pharmacokinetic
half-life of at least 2 hours, preferably at least 4 hours
and more preferably, at least 8-14 hours. In general,
its duration of action will equal or exceed about 6-8
hours. Examples of long-acting NSAIDs are:
flurbiprofen with a half-life of about 6 hours;
ketoprofen with a half-life of about 2 to 4 hours;
naproxen or naproxen sodium with half-lives of about
12 to 15 hours and about 12 to 13 hours respectively;
oxaprozin with a half-life of about 42 to 50 hours;
etodolac with a half-life of about 7 hours;
indomethacin with a half-life of about 4 to 6 hours;
ketorolac with a half-life of up to about 8-9 hours,
nabumetone with a half-life of about 22 to 30 hours;
mefenamic acid with a half-life of up to about 4 hours;
and piroxicam with a half-life of about 4 to 6 hours.
If an NSAID does not naturally have a half-life
sufficient to be long acting, it can, if desired, be made

145a
long acting by the way in which it is formulated. For
example, NSAIDs such as acetaminophen and
aspirin may be formulated in a manner to increase
their half-life or duration of action. Methods for
making appropriate formulations are well known in
the art (see e.g. Remington's Pharmaceutical
Sciences, 16th ed., A. Oslo editor, Easton, Pa. (1980)).
It is expected that a skilled pharmacologist may
adjust the amount of drug in a pharmaceutical
composition or administered to a patient based upon
standard techniques well known in the art.
Nevertheless, the following general guidelines are
provided:
Indomethacin is particularly useful when
contained in tablets or capsules in an amount
from about 25 to 75 mg. A typical daily oral
dosage of indomethacin is three 25 mg doses
taken at intervals during the day. However,
daily dosages of up to about 150 mg are useful
in some patients.
Aspirin will typically be present in tablets or
capsules in an amount of between about 250
mg and 1000 mg. Typical daily dosages will be
in an amount ranging from 500 mg to about
10 g.
Ibuprofen may be provided in tablets or capsules
of 50, 100, 200, 300, 400, 600, or 800 mg. Daily
doses should not exceed 3200 mg. 200 mg-800
mg may be particularly useful when given 3
or 4 times daily.

146a
Flurbiprofen is useful when in tablets at about
from 50 to 100 mg. Daily doses of about 100 to
500 mg, and particularly from about 200 to
300 mg, are usually effective.
Ketoprofen is useful when contained in tablets or
capsules in an amount of about 25 to 75 mg.
Daily doses of from 100 to 500 mg and
particularly of about 100 to 300 mg are typical
as is about 25 to 50 mg every six to eight
hours.
Naproxen is particularly useful when contained
in tablets or capsules in an amount of from
250 to 500 mg. For naproxen sodium, tablets
of about 275 or about 550 mg are typically
used. Initial doses of from 100 to 1250 mg, and
particularly 350 to 800 mg are also used, with
doses of about 550 mg being generally
preferred.
Oxaprozin may be used in tablets or capsules in
the range of roughly 200 mg to 1200 mg, with
about 600 mg being preferred. Daily doses of
1200 mg have been found to be particularly
useful and daily doses should not exceed 1800
mg or 26 mg/kg.
Etodolac is useful when provided in capsules of
200 mg to 300 mg or in tablets of about 400
mg. Useful doses for acute pain are 200-400
mg every six-eight hours, not to exceed 1200
mg/day. Patients weighing less than 60 kg are

147a
advised not to exceed doses of 20 mg/kg. Doses
for other uses are also limited to 1200 mg/day
in divided doses, particularly 2, 3 or 4 times
daily.
Ketorolac is usefully provided in tablets of 1-50
mg, with about 10 mg being typical. Oral
doses of up to 40 mg, and particularly 10-30
mg/day have been useful in the alleviation of
pain.
Nabumetone may be provided in tablets or
capsules of between 500 mg and 750 mg. Daily
doses of 1500-2000 mg, after an initial dose of
100 mg, are of particular use.
Mefenamic acid is particularly useful when
contained in tablets or capsules of 50 mg to
500 mg, with 250 mg being typical. For acute
pain, an initial dosage of 1-1000 mg, and
particularly about 500 mg, is useful, although
other doses may be required for certain
patients.
Lomoxicam is provided in tablets of 4 mg or 8 mg.
Useful doses for acute pain are 8 mg or 16 mg
daily, and for arthritis are 12 mg daily.
One particular group of long acting NSAIDs that
may be used are the cyclooxygenase-2 inhibitors.
These include: celecoxib, rofecoxib, meloxicam,
piroxicam, valdecoxib, parecoxib, etoricoxib, CS-502,
JTE-522, L-745,337, or NS398. JTE-522, L-745,337
and NS398 as described, inter alia, in Wakatani, et

148a
al. (Jpn. J. Pharmacol. 78:365-371 1998)) and
Panara, et al. (Br. J. Pharmacol. 116:2429-2434
1995)). The amount present in a tablet or
administered to a patient will depend upon the
particular COX-2 inhibitor being used. For example:
Celecoxib may be administered in a tablet or
capsule containing from about 100 mg to
about 500 mg or, preferably, from about 100
mg to about 200 mg.
Piroxicam may be used in tablets or capsules
containing from about 10 to 20 mg.
Rofecoxib will typically be provided in tablets or
capsules in an amount of 12.5, 25 or 50 mg.
The recommended initial daily dosage for the
management of acute pain is 50 mg.
Meloxicam is provided in tablets of 7.5 mg, with a
recommended daily dose of 7.5 or 15 mg for
the management of osteoarthritis.
Valdecoxib is provided in tablets of 10 or 20 mg,
with a recommended daily dose of 10 mg for
arthritis or 40 mg for dysmenorrhea.
With respect to acid inhibitors, tablets or
capsules may contain anywhere from 1 mg to as
much as 1 g. Typical amounts for H2 blockers are:
cimetidine, 100 to 800 mg/unit dose; ranitidine, 50300 mg/unit dose; famotidine, 5-100 mg/unit dose;
ebrotidine 400-800 mg/unit dose; pabutidine 40
mg/unit dose; lafutidine 5-20 mg/unit dose; and

149a
nizatidine, 50-600 mg/unit dose. Proton pump
inhibitors will typically be present at about 5 mg to
600 mg per unit dose. For example, the proton pump
inhibitor omeprazole should be present in tablets or
capsules in an amount from 5 to 50 mg, with about
20 mg per unit dosage form being preferred. Other
typical amounts are: esomeprazole, 5-100 mg, with
about 40 mg per unit dosage form being preferred;
lansoprazole, 15-150 mg, with about 30 mg per unit
dosage form being preferred; pantoprazole, 10-200
mg, with about 40 mg per unit dosage form being
preferred; and rabeprazole, 5-100 mg, with about 20
mg per unit dosage form being preferred.
Making of Pharmaceutical Preparations
The pharmaceutical compositions of the
invention include tablets, dragees, liquids and
capsules and can be made in accordance with
methods that are standard in the art (see, e.g.,
Remington's Pharmaceutical Sciences, 16th ed., A
Oslo editor, Easton, Pa. (1980)). Drugs and drug
combinations will typically be prepared in admixture
with conventional excipients. Suitable carriers
include, but are not limited to: water; salt solutions;
alcohols; gum arabic; vegetable oils; benzyl alcohols;
polyethylene glycols; gelatin; carbohydrates such as
lactose, amylase or starch; magnesium stearate; talc;
silicic acid; paraffin; perfume oil; fatty acid esters;
hydroxymethylcellulose; polyvinyl pyrrolidone; etc.
The pharmaceutical preparations can be sterilized
and, if desired, mixed with auxiliary agents such as:
lubricants, preservatives, disintegrants; stabilizers;

150a
wetting agents; emulsifiers; salts; buffers; coloring
agents; flavoring agents; or aromatic substances.
Enteric coating layer(s) may be applied onto the
core or onto the barrier layer of the core using
standard coating techniques. The enteric coating
materials may be dissolved or dispersed in organic or
aqueous solvents and may include one or more of the
following materials: methacrylic acid copolymers,
shellac,
hydroxypropylmethcellulose
phthalate,
polyvinyl acetate phthalate, hydroxypropylmethylcellulose trimellitate, carboxymethylethylcellulose,
cellulose acetate phthalate or other suitable enteric
coating polymer(s). The pH at which the enteric coat
will dissolve can be controlled by the polymer or
combination of polymers selected and/or ratio of
pendant
groups.
For
example,
dissolution
characteristics of the polymer film can be altered by
the ratio of free carboxyl groups to ester groups.
Enteric coating layers also contain pharmaceutically
acceptable plasticizers such as triethyl citrate,
dibutyl phthalate, triacetin, polyethylene glycols,
polysorbates or other plasticizers. Additives such as
dispersants, colorants, anti-adhering and antifoaming agents may also be included.
The Making of Tablet Dosage Forms
Preferably, the combination of an acid inhibitor
and an NSAlD will be in the form of a bi-or multilayer tablet. In a bilayer configuration, one portion of
the tablet contains the acid inhibitor in the required
dose along with appropriate excipients, agents to aid
dissolution, lubricants, fillers, etc. The second

151a
portion of the tablet will contain the NSAlD,
preferably naproxen, in the required dose along with
other excipients, dissolution agents, lubricants,
fillers, etc. In the most preferred embodiment, the
NSAlD layer is surrounded by a polymeric coating
which does not dissolve at a pH of less than 4. The
naproxen may be granulated by methods such as
slugging, low-or high-shear granulation, wet
granulation, or fluidized-bed granulation. Of these
processes, slugging generally produces tablets of less
hardness and greater friability. Low-shear
granulation,
high-shear
granulation,
wet
granulation and fluidized-bed granulation generally
produce harder, less friable tablets.
EXAMPLES
Example 1
Enteric Coated Naproxen Sodium Core and
Famotidine Immediate Release
A schematic diagram of a four layer tablet dosage
form is shown in FIG. 1. The first layer contains
naproxen sodium distributed throughout a matrix of
pharmaceutically acceptable fillers, excipients,
binding agents, disintegrants, and lubricants.
The second layer is a barrier layer which protects
the first layer containing naproxen sodium. The
barrier film coat is applied by conventional pan
coating technology and the weight of the barrier coat
may vary from 1 % to 3% of the core tablet weight. In
particular embodiments, the core naproxen sodium

152a
tablet is coated with coating ingredients such as
Opaspray® K-1-4210A or Opadry® YS-1-7006
(Colorcon, West Point, Pa.). Polymer film coating
ingredients such as hydroxypropylmethylcellulose
2910 and polyethylene glycol 8000 in a coating
suspension may also be used.
The function of the third layer is to prevent the
release of naproxen sodium until the dosage form
reaches an environment where the pH is above about
4 or 5. The enteric coating does not dissolve in areas
of the GI tract where the pH may be below about 4 or
5 such as in an unprotected stomach. Methacrylic
acid copolymers are used as the enteric coating
ingredient, triethyl citrate and dibutyl phthalate are
plasticisers, and ammonium hydroxide is used to
adjust the pH of the dispersion. The coating dissolves
only when the local pH is above, for example, 5.5 and,
as a result, naproxen sodium is released.
The outermost layer contains an "acid inhibitor"
in an effective amount which is released from the
dosage form immediately after administration to the
patient. The acid inhibitor in the present example is
a proton pump inhibitor or, preferably the H2 blocker
famotidine, which raises the pH of the
gastrointestinal tract to above 4. The typical effective
amount of famotidine in the dosage form will vary
from 5 mg to 100 mg. A typical film coating
formulation contains Opadry Clear® YS-1-7006
which helps in the formation of the film and in
uniformly distributing famotidine within the fourth
layer without tablets sticking to the coating pan or to
each other during application of the film coat. Other

153a
ingredients may include: plasticisers such as triethyl
citrate, dibutyl phthalate, and polyethylene glycol;
anti-adhering agents such as talc; lubricating
ingredients such as magnesium stearate; and
opacifiers such as titanium dioxide. In addition, the
pH of the film coating solution can be adjusted to aid
in dissolution of the famotidine. The film coating is
thin and rapidly releases famotidine for absorption.

Core Tablet Ingredients
Naproxen sodium, USP
Microcrystalline cellulose, NF
(Avicel PH 200)
Povidone (K29/32), USP
Talc, USP
Magnesium Stearate, NF
Total
Barrier Film Coating
Ingredients
Opadry Clear ® YS-1-7006
Purified water USP
Total
Enteric Coating Dispersion
Ingredients
Methacrylic Acid Copolymer,
NF
(Eudragit L-100-55)
Methacrylic Acid Copolymer,
NF
(Eudragit L-100)
Triethyl Citrate, NF
Dibutyl Phthalate, NF
Ammonium Hydroxide (30%),
NF

% W/W

mg/Tablet

74.074
17.166

500.00
115.87

3.450
4.350
0.960
100.00

23.29
29.36
6.48
675.00

5.00
95.00
100.00

7.30
7.30
2.95
1.17
0.87

154a
continued

Purified water, USP
Total
Famotidine Coating
Dispersion
Ingredients
Famotidine, USP
Opadry Clear® (YS-1-7006)
Talc, USP
Purified Water, USP
Total

% W/W
80.41
100.00

mg/Tablet

3.0
5.0
3.0
89.0
100.0

Example 2
Enteric Coated Naproxen Core and Famotidine
Immediate Release
FIG. 2 illustrates a three layered dosage form
which releases famotidine immediately after
ingestion by the patient in order to raise the pH of
the gastrointestinal tract to above about 4. The
innermost layer contains naproxen uniformly
distributed throughout a matrix of pharmaceutically
acceptable excipients. These excipients perform
specific functions and may serve as binders,
disintegrants, or lubricants. A pharmaceutically
acceptable enteric coating surrounds the naproxen
core. The function of the enteric coat to delay the
release of naproxen until the dosage form reaches an
environment where the pH is above about 4. The
coating does not dissolve in the harshly acidic pH of
the unprotected stomach. It contains methacrylic

155a
acid copolymers which prevent the release of
naproxen in the unprotected stomach. Also included
are: triethyl citrate, a plasticiser; simethicone
emulsion, an anti-foaming agent; and sodium
hydroxide which is used to adjust the pH of the
dispersion.
The outermost layer contains an "acid inhibitor"
in an effective amount which is released from the
dosage form immediately after administration to the
patient. The acid inhibitor in this example is a proton
pump inhibitor or, preferably, the H2 blocker
famotidine which raises the pH of the stomach to
above 4. A typical film coating formulation contains
Opadry Clear® YS-1-7006 which helps in the
formation of the film and in uniformly distributing
famotidine in the fourth layer without tablets
sticking to the coating pan or sticking to each other
during application of the film coat. Other ingredients
are: plasticisers such as polyethylene glycol 8000;
anti-adhering agents such as talc; lubricating
ingredients such as magnesium stearate;, and
opacifiers such as titanium dioxide. In addition, the
pH of the film coating solution can be adjusted to aid
in dissolution of the famotidine. The film coating is
thin and rapidly releases famotidine for absorption.
% W/W

mg/Tablet

90.91
2.00
2.59

500.00
11.00
14.25

Core Tablet Ingredients
Naproxen, USP
Povidone K-90, USP
Starch, USP

156a
continued

Croscarmellose Sodium,
USP
Magnesium Stearate, NF
Total
Purified Water, USP qs
Enteric Coating Dispersion
Ingredients
Methacrylic Acid Copolymer
Type C, NF
(Eudragit L-100-55)
Talc, USP
Sodium Hydroxide, NF
Triethyl Citrate, NF
Simethicone Emulsion, USP
Purified Water, USP
Total
Famotidine Coating
Dispersion
Ingredients
Famotidine, USP
Opadry Clear ® (YS-1-7006)
Talc, USP
Purified Water, USP
Total

% W/W
4.00

mg/Tablet
22.00

0.50
100.00

2.75
550.00

14.5

3.8
0.2
1.7
0.02
79.78
100.00

3.0
5.0
3.0
89.0
100.0

157a
Example 3
Naproxen Controlled Release Core and Famotidine
Immediate Release
A trilayer tablet which separates famotidine
contained in the film coat from controlled-release
naproxen may be used in the present invention. The
core tablet of naproxen is formulated using excipients
which control the drug release for therapeutic relief
from pain and inflammation for 24 hours. FIG. 2
shows an example of an appropriate trilayer tablet.
In this particular example, naproxen is mixed with a
polymeric material, hydroxypropylmethylcellulose
and granulated with water. The granules are dried,
milled, and blended with a lubricant, such as
magnesium stearate. They are then compacted into
tablets.
The controlled-release core tablet of naproxen is
film coated with a pharmaceutically acceptable
enteric coating. The function of the enteric coat is to
delay the release of naproxen until the dosage form
reaches an environment where the pH is above about
4. The coating does not dissolve in the extremely
acidic pH of the unprotected stomach. The function of
methacrylic acid copolymers is to prevent the release
of naproxen until the pH of the stomach rises.
Triethyl citrate is a plasticiser, simethicone emulsion
is a anti-foaming agent, and sodium hydroxide is
used to adjust the pH of the dispersion.

158a
The outermost layer contains an "acid inhibitor"
which is released from the dosage form immediately
after administration to the patient. The acid
inhibitor in the present example is a proton pump
inhibitor or, preferably, the H2 blocker famotidine
which consistently raises the pH of the stomach to
above 4. The typical effective amount of famotidine
in the dosage will vary from 5 mg to 100 mg. A typical
film coating formulation contains Opadry Blue® YS1-4215 which is essential for film formation and for
the uniform application of famotidine to the core
tablet.
Polymer
film
coating
ingredients,
hydroxypropyl-methylcellulose or Opaspray® K-14210A (Colorcon, West Point, Pa.) may also be used.
Other ingredients which help in the formation of the
film and in the uniform application of famotidine to
the core tablet are: plasticisers such as triethyl
citrate and dibutyl phthalate; anti-adhering agents
such as talc; lubricating ingredients such as
magnesium stearate; and opacifiers such as titanium
dioxide. In addition, the pH of the film coating
solution can be adjusted to aid in dissolution of the
famotidine. The film coating is thin and rapidly
releases famotidine for absorption.
% W/W

mg/Tablet

Core Tablet Ingredients
Naproxen, USP
Hydroxypropyl
methylcellulose 2208, USP
(viscosity 15000 cps)

94.00
5.00

750
39.9

159a
continued
% W/W
Magnesium Stearate, NF
Total
Enteric Coating Dispersion
Ingredients
Methacrylic Acid Copolymer
Type C, NF
(Eudragit L-100-55)
Talc, USP
Sodium Hydroxide, NF
Triethyl Citrate, NF
Simethicone Emulsion, USP
Purified Water, USP
Total
Famotidine Coating
Dispersion Ingredients
Famotidine, USP
Opadry Blue® (YS-1-4215)
Talc, USP
Purified Water, USP
Total

mg/Tablet

1.00

7.95

100.00

797.85

14.5
3.8
0.2
1.7
0.02
79.78
100.00

2.0
10.0
9.0
79.0
100.0

160a
Example 4
Naproxen and Famotidine Controlled Release Core
and Famotidine Immediate Release
A trilayer tablet which separates famotidine
contained in film coat from controlled-release
naproxen and famotidine may be used in the present
invention. The core tablet of naproxen and
famotidine is formulated using excipients which
control the drug release for therapeutic relief from
pain and inflammation for 24 hours. FIG. 2 is an
example of appropriate trilayer tablet. In this
particular example, naproxen and famotidine are
mixed
with
a
polymeric
material,
hydroxypropylmethylcellulose and granulated with
water. The granules are dried, milled, and blended
with lubricant, such as magnesium stearate. They
are then compacted into tablets.
The controlled-release core tablet of naproxen
and
famotidine
is
film
coated
with
a
pharmaceutically acceptable enteric coating. The
function of the enteric coat is to delay the release of
naproxen until the dosage form reaches an
environment where the pH is above about 4. The
coating does not dissolve in the extremely acidic pH
of the unprotected stomach. The function of
methacrylic acid copolymers is to prevent the release
of naproxen in the pH of the stomach rises. Triethyl
citrate is a plasticiser, simethicone emulsion is a
anti-foaming agent, and sodium hydroxide is used to
adjust the pH of the dispersion.

161a
The outermost later contains an "acid inhibitor"
which is released from the dosage form immediately
after administration to the patient. The acid
inhibitor in the present example is a proton pump
inhibitor or, preferably, the H2 blocker famotidine
which consistently raises the pH of the stomach to
above 4. The typical effective amount of famotidine
in the dosage will vary from 5 mg to 100 mg. A typical
film coating formulation contains Opadry Blue® YS1-4215 which is essential for film formation and for
the uniform application of famotidine to the core
tablet.
Polymer
film
coating
ingredients,
hydroxypropyl-methylcellulose or Opaspray® K-14210A (Colorcon, West Point, Pa.) may also be used.
Other ingredients which help in the formation of the
film and in the uniform application of famotidine to
the core tablet are: plasticisers such as triethyl
citrate and dibutyl phthalate; anti-adhering agents
such as talc; lubricating ingredients such as
magnesium stearate; and opacifiers such as titanium
dioxide. In addition, the pH of the film coating
solution can be adjusted to aid in dissolution of the
famotidine. The film coating is thin and rapidly
releases famotidine for absorption.
% W/W

mg/Tablet

Core Tablet Ingredients
Naproxen, USP
Famotidine, USP
Hydroxypropyl
methylcellulose 2208, USP
(viscosity 15000 cps)

88.05
3.52
7.03

500
20.0
39.9

162a
continued
% W/W
Magnesium Stearate, NF

mg/Tablet

1.40

7.95

Total
Enteric Coating Dispersion
Ingredients

100.00

567.85

Methacrylic Acid
Copolymer Type C, NF
(Eudragit L-100-55)
Talc, USP
Sodium Hydroxide, NF
Triethyl Citrate, NF
Simethicone Emulsion, USP
Purified Water, USP

14.5

Total
Famotidine Coating
Dispersion
Ingredients
Famotidine, USP
Opadry Blue ® (YS-1-4215)
Talc, USP
Purified Water, USP
Total

3.8
0.2
1.7
0.02
79.78
100.00

2.0
10.0
9.0
79.0
100.0

163a
Example 5
Enteric Coated Naproxen Sodium Core and
Pantoprazole Immediate Release in Film Coat
A schematic diagram of a four layer tablet dosage
form is shown in FIG. 1. The first layer contains
naproxen sodium distributed throughout a matrix of
pharmaceutically acceptable fillers, excipients,
binding agents, disintegrants, and lubricants.
The second layer is a barrier layer which protects
the first layer containing naproxen sodium. The
barrier film coat is applied by conventional pan
coating technology and the weight of the barrier coat
may vary from 1 % to 3% of the core tablet weight. In
particular embodiments, the core naproxen sodium
tablet is coated with coating ingredients such as
Opaspray® K-1-4210A or Opadry® YS-1-7006
(Colorcon, West Point, Pa.). Polymer film coating
ingredients such as hydroxypropylmethylcellulose
2910 and polyethylene glycol 8000 in a coating
suspension may also be used.
The third layer is an enteric film coat. It does not
dissolve in areas of the GI tract where the pH may be
below 4 such as in an unprotected stomach but it
dissolves only when the local pH is above about 4.
Therefore, the function of the third layer is to prevent
the release of naproxen sodium until the dosage form
reaches an environment where the pH is above 4. In
this example, hydroxypropylmethylcellulose phthalate is the enteric coating ingredient, cetyl alcohol is
plasticiser and acetone and alcohol are solvents.

164a
The fourth layer contains an "acid inhibitor" in
an effective amount which is released from the
dosage form as soon as the film coat dissolves. The
acid inhibitor in this example is a proton pump
inhibitor, pantoprazole which raises the pH of the
gastrointestinal tract to above 4. The typical effective
amount of pantoprazole in the dosage form may vary
from 10 mg to 200 mg. The film coat is applied by
conventional pan coating technology and the weight
of film coat may vary from 4% to 8% of the core tablet
weight. Other ingredients are, plasticisers such as
triethyl citrate, dibutyl phthalate, anti-adhering
agents such as talc, lubricating ingredients such as
magnesium stearate, opacifiers such as, titanium
dioxide, and ammonium hydroxide to adjust the pH
of the dispersion. The film coating is thin and rapidly
releases pantoprazole for absorption. Therefore,
pantoprazole releases first and then the core erodes
and releases naproxen sodium.
Core Tablet Ingredients

% W/W

mg/Tablet

Naproxen sodium, USP
Microcrystalline cellulose,
NF
(Avicel PH 200)
Povidone (K29/32), USP
Talc, USP
Magnesium Stearate, NF

74.075
17.165

500.00
115.87

3.450
4.350
0.960

23.29
29.36
6.48

Total

100.00

675.00

Naproxen sodium, 50% microcrystalline cellulose
and povidone are dry mixed and wet granulated in an
appropriate granulator with sufficient purified

165a
water. The wet granules are dried, milled, and
blended with the remaining 50% microcrystalline
cellulose, talc and magnesium stearate. The final
granule blend is compressed into tablets.
Barrier Film Coating Ingredients
Opadry Clear ® YS-1-7006
Purified water, USP
Total

% W/W
5.00
95.00
100.00

Opadry clear is added slowly to purified water
and mixing is continued until Opadry is fully
dispersed. The solution is sprayed on to the tablet
cores in a conventional coating pan until proper
amount of Opadry clear is deposited on the tablets.
Enteric Coating Ingredients
Hydroxypropyl methylcellulose
phthalate, NF
Cetyl alcohol, NF
Acetone, NF
Alcohol, NF
Total

% W/W
5.5
0.3
66.3
27.9
100.00

Hydroxypropylmethylcellulose phthalate and
cetyl alcohol are dissolved in a mixture of alcohol and
acetone. The solution is then sprayed on to the tablet
bed in proper coating equipment. A sample of the
tablets is tested for gastric resistance and the coating
stopped if the tablets pass the test.

166a
Pantoprazole Film Coating
Ingredients
Pantoprazole sodium, USP
Opadry Clear ® YS-1-7006
Sodium carbonate, NF
Purified Water, USP
Total

% W/W
5.00
5.00
1.20
88.80
100.00

Pantoprazole sodium is dissolved in purified
water containing sodium carbonate in solution. After
thorough mixing, Opadry clear is added slowly and
mixing is continued until Opadry is fully dispersed.
The suspension is sprayed on to the tablet cores in a
conventional coating pan until the proper amount of
pantoprazole sodium is deposited.
Example 6
Enteric Coated Naproxen Sodium Core and
Omeprazole Immediate Release in Film Coat
A schematic diagram of a four layer tablet dosage
form is shown in FIG. 1. The first layer contains
naproxen sodium distributed throughout a matrix of
pharmaceutically acceptable fillers, excipients,
binding agents, disintegrants, and lubricants.
The second layer is a barrier layer which protects
the first layer containing naproxen sodium. The
barrier film coat is applied by conventional pan
coating technology and the weight of the barrier coat
may vary from 1% to 3% of the core tablet weight. In
particular embodiments, the core naproxen sodium

167a
tablet is coated with coating ingredients such as
Opaspray® K-1-4210A or Opadry® YS-1-7006
(Colorcon, West Point, Pa.). Polymer film coating
ingredients such as hydroxypropylmethylcellulose
2910 and polyethylene glycol 8000 in a coating
suspension may also be used.
The third layer is an enteric film coat. It does not
dissolve in areas of the GI tract where the pH is
below 4 such as in an unprotected stomach but it
dissolves only when the local pH is above 4.
Therefore, the function of the third layer is to prevent
the release of naproxen sodium until the dosage form
reaches an environment where the pH is above about
4. In this example, hydroxypropylmethylcellulose
phthalate is the enteric coating ingredient, cetyl
alcohol is a plasticiser and acetone and alcohol are
solvents.
The fourth layer contains an "acid inhibitor" in
an effective amount which is released from the
dosage form as soon as the film coat dissolves. The
acid inhibitor in this example is a proton pump
inhibitor, omeprazole, which raises the pH of the
gastrointestinal tract to above 4. The typical effective
amount of omeprazole in the dosage form may vary
from 5 mg to 50 mg. The film coat is applied by
conventional pan coating technology and the weight
of film coat may vary from 4% to 8% of the core tablet
weight. Other ingredients are, plasticisers such as
triethyl citrate, dibutyl phthalate, anti-adhering
agents such as talc, lubricating ingredients such as
magnesium stearate, opacifiers such as, titanium
dioxide, and ammonium hydroxide to adjust the pH

168a
of the dispersion. The film coating is thin and rapidly
releases omeprazole for absorption. Therefore,
omeprazole is released first and then the core erodes
and releases naproxen sodium.
Core Tablet Ingredients

% W/W

Mg/Tablet

Naproxen sodium, USP
Microcrystalline cellulose, NF
(Avicel PH 200)
Povidone (K29/32), USP
Talc, USP
Magnesium Stearate, NF

74.075
17.165

500.00
115.87

3.450
4.350
0.960

23.29
29.36
6.48

Total

100.00

675.00

Naproxen sodium, 50% microcrystalline cellulose
and povidone are dry mixed and wet granulated in an
appropriate granulator with sufficient purified
water. The wet granules are dried, milled, and
blended with the remaining 50% microcrystalline
cellulose, talc and magnesium stearate. The final
granule blend is compressed into tablets.
Barrier Film Coating Ingredients
Opadry Clear ® YS-1-7006
Purified Water, USP
Total

% W/W
5.00
95.00
100.00

Opadry clear is added slowly to purified water
and mixing is continued until Opadry is fully
dispersed. The solution is sprayed on to the tablet
cores in a conventional coating pan until the proper
amount of Opadry clear is deposited on the tablets.

169a

Enteric Coating Ingredients
Methacrylic Acid Copolymer, NF
(Eudragit L-100-55)
Triethyl Citrate, NF
Talc, USP
Purified Water, USP
Isopropyl Alcohol, USP
Total

% W/W
6.0
0.6
3.0
5.0
85.40
100.00

Methacrylic acid copolymer, triethyl citrate, and
talc are dissolved in a mixture of isopropyl alcohol
and water. The solution is then sprayed on to the
tablet bed in a proper coating equipment. A sample
of the tablets is tested for gastric resistance and the
coating is stopped if the tablets pass the test.
Omeprazole Film Coating
Ingredients
Omeprazole, USP
Opadry Clear ® YS-1-7006
Purified Water, USP
Isopropyl Alcohol, USP
Total

% W/W
5.00
5.00
10.00
80.00
100.00

Omeprazole is dissolved in a purified water and
isopropyl alcohol mixture. After thorough mixing,
Opadry clear is added slowly and mixing is continued
until Opadry is fully dispersed. The suspension is
sprayed on to the tablet cores in a conventional

170a
coating pan until proper amount of omeprazole is
deposited on the tablets.
Example 7
Naproxen Sodium Delayed Release and Omeprazole
Immediate Release Capsule
A coordinated delivery dosage may be used to
provide fast release of an acid inhibitor, a proton
pump inhibitor, omeprazole which raises the pH of
the gastrointestinal tract to above 4, and the delayed
release of a non-steroidal anti-inflammatory drug,
naproxen sodium. Omeprazole granules modify the
pH of the stomach such that the drug readily
dissolves and is absorbed in the stomach without
significant degradation. The typical effective amount
of omeprazole in the dosage form may vary from 5 mg
to 50 mg. The release of naproxen sodium is delayed
by enteric coating.
Omeprazole granules contain an alkalizing
excipient such as sodium bicarbonate. Other soluble
alkalizing agents such as potassium bicarbonate,
sodium carbonate, sodium hydroxide, or their
combinations may also be used. The alkalizing agent
helps solubilize and protect omeprazole from
degradation before its absorption. Sodium lauryl
sulfate helps in the wetting of omeprazole. Other
surfactants may be used to perform the same
function. In the present example, hydroxypropyl
methylcellulose helps in granule formation, sodium
starch glycolate is a disintegrant, and magnesium

171a
stearate is a lubricant. Other excipients may also be
used to perform these functions.
Naproxen sodium pellets as shown in FIG. 3 are
prepared by the wet massing technique and the
conventional extrusion and spheronization process.
The excipients used in the formulation are
microcrystalline cellulose, and povidone. The pellets
after drying and classification are coated with a
protective subcoating containing povidone. Other
coating ingredients may also be used such as
Opaspray K-1-4210A or Opadry YS-1-7006
(trademarks of Colorcon, West Point, Pa.). Polymer
film coating ingredients such as hydroxypropylmethylcellulose 2910 and polyethylene glycol 8000 in
a subcoating suspension are also alternatives. Other
ingredients are, plasticisers such as triethyl citrate,
dibutyl phthalate, anti-adhering agents such as talc,
lubricating ingredients such as magnesium stearate,
opacifiers such as, titanium dioxide.
The subcoated pellets are enteric coated using
enteric coating polymers. In this example, the enteric
coating polymer is methacrylic acid copolymer and
the plasticizer is dibutyl phthalate which are
dissolved in a mixture of acetone and alcohol. The
enteric film does not dissolve in the acidic pH but
dissolves when the pH in the gut is above about pH
and releases naproxen sodium.
Omeprazole Granules
Omeprazole, USP
Sodium Bicarbonate, USP

% W/W

mg/capsule

12.9
82.40

20.00
127.72

172a
continued
Omeprazole Granules
Hydroxypropyl
methylcellulose, USP
Sodium lauryl sulfate, NF
Sodium starch glycolate,
NF
Magnesium stearate, NF
Total

% W/W

mg/capsule

2.00

3.10

0.20
2.00

0.31
3.10

0.50

0.77

100

100

Hydroxypropylmethylcellulose is dissolved in
water, then sodium lauryl sulfate is added and the
solution is mixed. Omeprazole, microcrystalline
cellulose, and sodium bicarbonate are dry mixed
together and granulated with the granulating
solution. The granulation is mixed until proper
granule formation is reached. The granulation is
then dried, milled, and blended with magnesium
stearate.
Pellet Ingredients
Naproxen sodium, USP
Microcrystalline cellulose,
NF (Avicel PH 200)
Povidone (K90), USP
Total

% W/W

mg/tablet

86.80
11.10

250.00
32.00

2.10

6.00

100.00

288.00

Povidone is dissolved in water. Naproxen sodium
and microcrystalline cellulose are dry mixed and
granulated with povidone solution. The wet mass is

173a
mixed until proper consistency is reached. The wet
mass is then pressed through an extruder and
spheronized to form pellets. The pellets are then
dried and classified into suitable particle size range.
Subcoat Ingredients
Povidone (K29-32), USP
Alcohol, USP
Total

% W/W
10.00
90.00
100.00

The pellet cores are coated using povidone
solution by a conventional coating pan method to a
weight gain of 1-2%.
Enteric Coating Ingredients
Methacrylic Acid Copolymer, NF
(Eudragit L-100)
Diethyl Phthalate, NF
Acetone, NF
Isopropyl Alcohol, USP
Total

% W/W
8.20
1.70
33.30
56.80
100.0

Eudragit L-100 is dissolved in isopropanol and
acetone and diethyl phthalate is dissolved. The
solution is sprayed on the pellet cores using proper
film coating equipment. A sample of the pellets is
tested for gastric resistance before stopping the
coating process.
Omeprazole fast release granules and naproxen
sodium delayed release pellets are blended together

174a
and filled into appropriate size capsules to contain
250 mg naproxen sodium and 20 mg omeprazole per
capsule.
Example 8
Naproxen Delayed Release and Omeprazole
Immediate Release Capsule
The present Example is directed to a coordinated
delivery dosage form containing omeprazole and
naproxen. The formulation contains 10 mg
omeprazole and uses methylcellulose as a binder and
croscarmellose sodium as a disintegrant. Naproxen
pellets as shown in FIG. 3 do not need a subcoating
layer and are enteric coated with an aqueous
dispersion of methacrylic acid copolymer. Optionally,
these pellets could be compressed into a core and film
coated with an acid inhibitor and thereby form a
bilayer tablet.
Omeprazole Granules
Omeprazole, USP
Sodium Bicarbonate, USP
Methylcellulose, USP
Sodium lauryl sulfate, NF
Croscarmellose sodium,
NF
Magnesium stearate, NF
Total

% W/W

mg/capsule

6.45
88.85
2.00
0.20
2.00

10.00
137.71
3.10
0.31
3.10

0.50

0.78

100

100

Methylcellulose is dissolved in water, then
sodium lauryl sulfate is added to the solution and

175a
mixed. Omeprazole, microcrystalline cellulose, and
sodium bicarbonate are dry mixed together and
granulated with the granulating solution. The
granulation is mixed until proper granule formation
is reached. The granulation is then dried, milled, and
blended with magnesium stearate.
Pellet Ingredients
Naproxen, USP
Microcrystalline cellulose,
NF (Avicel PH 200)
Povidone (K90), USP
Total

% W/W

mg/tablet

76.22
21.78

250.00
71.44

2.00

6.56

100.00

328.00

Povidone is dissolved in water. Naproxen and
microcrystalline cellulose are dry mixed and
granulated with povidone solution. The wet mass is
mixed until proper consistency is reached. The wet
mass is then pressed through an extruder and
spheronized to form pellets. The pellets are then
dried and classified into a suitable particle size
range.
Enteric Coating Ingredients
Methacrylic Acid Copolymer, NF
(Eudragit L30D 30% dispersion)
Talc, USP
Triethyl citrate, NF
Simethicone Emulsion, USP (Silicone
antifoam emulsion SE 2)
Purified Water, USP

% W/W
15.60
7.60
1.60
0.20
74.80

176a
Eudragit 30D is dispersed in purified water and
simethicone emulsion. Talc and triethyl citrate are
then dispersed. The suspension is sprayed on the
pellet cores using proper film coating equipment. A
sample of the pellets is tested for gastric resistance
before stopping the coating process. Omeprazole fast
release granules and naproxen sodium delayed
release pellets are blended together and filled into
appropriate size capsules to contain 250 mg
naproxen and 10 mg omeprazole per capsule.
Example 9
Clinical Study of the Relationship of Gastric pH to
NSAlD-induced Gastric Ulcers
Sixty-two subjects were enrolled in a clinical
study and randomly assigned to three groups. The
following three groups were administered study
medication twice daily for five days: (a) 550 mg
naproxen sodium (n=10), (b) 40 mg famotidine given
with 550 mg of naproxen or famotidine followed 90
minutes later by 550 mg naproxen, (n=39) or (c) 20
mg omeprazole followed by 550 mg naproxen sodium
(n=13). Gastric pH was measured hourly beginning
at the time of dosing of the final daily dose of study
medication and for 8-10 hours thereafter. Subjects
had a gastric endoscopy performed at the beginning
and on Day 5 prior to the morning dose of study
medication to identify gastric and duodenal
irritation; no subjects were admitted to the study if
gastric irritation was present at the time of initial
endoscopy.

177a
Five patients, three (33%) in the naproxen alone
group and two (5%) in the famotidine/naproxen
group, presented with gastroduodenal ulcers at the
end of the study. In the naproxen alone group, the pH
was greater than 4 only 4% of the time, and in the
famotidine/naproxen group the pH was greater than
4 forty-nine percent of the time during the 8-10 hours
following naproxen sodium dosing. Additionally,
Lanza grade 3 or 4 damage was present in 28%
(n=11) of the subjects receiving famotidine/naproxen
sodium, and present 100% (n=10) in the naproxen
sodium treatment group. Monitoring of gastric
acidity on day 5 indicated that patients with Lanza
scores of greater than 2 had integrated gastric acidity
of greater than 100 mmol-hr./L. Only 20-40% of
patients with integrated gastric acidity of less than
100 mmol-hr/L had gastric pathology, whereas all
patients with integrated gastric acidity greater than
100 mmol-hr/L had pathology.
Example 10
Famotidine and Enteric Coated Naproxen Reduce
Gastroduodenal Damage Due to NSAlD Therapy
Forty patients are randomized to two groups for
a one week study of twice-daily dosing of: 500 mg
enteric coated naproxen, and 500 mg enteric coated
naproxen preceded by 40 mg famotidine. Endoscopies
are conducted on all patients prior to first dosing and
on the final day of the study. No subjects have any
evidence of gastroduodenal damage at the beginning
of the study (at first endoscopy).

178a
At the second endoscopy, Lanza scores for
gastroduodenal damage are assessed for all subjects.
Subjects in the enteric coated naproxen 500 mg group
have a lower incidence of grade 3-4 gastroduodenal
damage than subjects previously treated with nonenteric coated naproxen 500 mg. Importantly,
subjects administered 500 mg enteric coated
naproxen and 40 mg famotidine have substantially
lower incidence of grade 3-4 gastroduodenal damage
than subjects who had previously taken naproxen
alone (either naked or enteric coated) which
demonstrates the need for and the value of combining
acid inhibition with enteric coating to minimize the
gastrointestinal damage of NSAlD.
All references cited herein are fully incorporated
by reference. Having now fully described the
invention, it will be understood by those of skill in the
art that the invention may be performed within a
wide and equivalent range of conditions, parameters
and the like, without affecting the spirit or scope of
the invention or any embodiment thereof.
What is claimed is:
1. A pharmaceutical composition in unit dose
form suitable for oral administration to a patient,
comprising:
(a) an acid inhibitor present in
effective to raise the gastric
patient to at least 3.5
administration of one or more
dosage forms;

an amount
pH of said
upon the
of said unit

179a
(b) a non-steroidal anti-inflammatory drug
(NSAID) in an amount effective to reduce or
eliminate pain or inflammation in said
patient upon administration of one or more
of said unit dosage forms;
and wherein said unit dosage form provides for
coordinated release such that:
i) said NSAlD is surrounded by a coating
that, upon ingestion of said unit dosage form
by said patient, prevents the release of
essentially any NSAlD from said dosage form
unless the pH of the surrounding medium is
3.5 or higher;
ii) at least a portion of said acid inhibitor is
not surrounded by an enteric coating and,
upon ingestion of said unit dosage form by
said patient, is released regardless of
whether the pH of the surrounding medium
is below 3.5 or above 3.5.
2. The pharmaceutical composition of claim 1,
wherein said acid inhibitor is an H2 blocker.
3. The pharmaceutical composition of claim 2,
wherein said H2 blocker is selected from the group
consisting of: cimetidine; ranitidine; ebrotidine;
pabutidine; lafutidine; loxtidine and famotidine.
4. The pharmaceutical composition of claim 3,
wherein said H2 blocker is famotidine, present in

180a
said unit dosage form in an amount of between 5 mg
and 100 mg.
5. The pharmaceutical composition of claim 1,
wherein said acid inhibitor is a proton pump
inhibitor selected from the group consisting of:
omeprazole,
esomeprazole,
lansoprazole,
pantoprazole and rabeprazole.
6. The pharmaceutical composition of claim 5,
wherein said proton pump inhibitor is pantoprazole,
present in said unit dosage form in an amount of
between 10 mg and 200 mg.
7. The pharmaceutical composition of claim 1,
wherein said NSAID is a cyclooxygenese-2 (COX-2)
inhibitor.
8. The pharmaceutical composition of claim 7,
wherein said COX-2 inhibitor is selected from the
group consisting of celecoxib; rofecoxib; meloxicam;
piroxicam; valdecoxib, parecoxib, etoricoxib, CS-502,
JTE-522; L-745,337; and NS398.
9. The pharmaceutical composition of claim 1,
wherein said NSAlD is selected from the group
consisting of: aspirin; acetaminophen; ibuprofen;
flurbiprofen; ketoprofen; lornoxicam; naproxen;
oxaprozin; etodolac; indomethacin; ketorolac; and
nabumetone.
10. The pharmaceutical composition of claim 9,
wherein said NSAlD is naproxen present in an
amount of between 50 mg and 1500 mg.

181a
11. The pharmaceutical composition of claim 10,
wherein said naproxen is present in an amount of
between 200 mg and 600 mg.
12. The pharmaceutical composition of claim 1
wherein said unit dosage form is a multilayer tablet
comprising a single core and one or more layers
outside of said single core, wherein:
i) said NSAID is present in said core;
ii) said coating that does not release said
NSAID unless the pH of the surrounding
medium is 3.5 or higher surrounds said
core; and
iii) said acid inhibitor is in said one more
layers outside said core.
13. The pharmaceutical composition of claim 12,
wherein said one or more layers outside of said core
do not contain NSAID and are not surrounded by an
enteric coating.
14. The pharmaceutical composition of claim 13,
wherein said unit dosage form is a bilayer tablet
having an outer layer of said acid inhibitor and an
inner core of said NSAID and wherein said outer
layer of said tablet is surrounded by a non-enteric
film coating that releases said acid inhibitor upon
ingestion by patient.

182a
15. The pharmaceutical composition of any one of
claims 1 or 7-14, wherein said acid inhibitor is a
proton pump inhibitor.
16. The pharmaceutical composition of claim 15,
wherein said coating surrounding said core does not
dissolve unless the pH of the surrounding medium is
4 or greater.
17. The pharmaceutical composition of claim 15,
wherein said coating surrounding said core does not
dissolve unless the pH of the surrounding medium is
5 or greater.
18. The pharmaceutical composition of any one of
claims 7-14, wherein said acid inhibitor is an H2
blocker.
19. The pharmaceutical composition of claim 18,
wherein said tablet has an inner core of said NSAID
surrounded by a barrier coating that dissolves at a
rate such that said NSAID is not released until the
pH of the surrounding medium is 4 or greater.
20. The pharmaceutical composition of claim 18,
wherein said tablet has an inner core of said NSAID
surrounded by a barrier coating that dissolves at a
rate such that said NSAID is not released until the
pH of the surrounding medium is 5 or greater.
21. The pharmaceutical composition of claim 1,
wherein said unit dosage form is a capsule.

183a
22. A method of treating a patient for pain or
inflammation, comprising administering to said
patient the pharmaceutical composition of any one of
claims 1-14.
23. The method of claim 22, wherein said pain or
inflammation is due to either osteoarthritis or
rheumatoid arthritis.
24. A method of treating a patient for pain or
inflammation, comprising:
(a) orally administering to said patient an acid
inhibitor at a dose effective to raise the
gastric pH of said patient to at least 3.5; and
(b) orally administering to said patient an
NSAID that is coated in a polymer that
only dissolves at a pH of 3.5 or greater.
25. The method of claim 24, wherein said acid
inhibitor is an H2 blocker.
26. The method of claim 25, wherein said H-2
blocker is selected from the group consisting of:
cimetidine; ranitidine; ebrotidine; pabutidine;
lafutidine; loxtidine and famotidine.
27. The method of claim 26, wherein said H2
blocker is famotidine administered at a dose of
between 5 mg and 100 mg.
28. The method of claim 24, wherein said acid
inhibitor is a proton pump inhibitor.

184a
29. The method of claim 28, wherein said proton
pump inhibitor is selected from the group consisting
of:
omeprazole,
esomeprazole,
lansoprazole,
rabeprazole and pantoprazole.
30. The method of claim 29, wherein said proton
pump inhibitor is pantoprazole administered at a
dose of between 10 mg and 200 mg.
31. The method of any one of claims 24-30,
wherein said NSAID is a COX-2 inhibitor selected
from the group consisting of: celecoxib; rofecoxib;
meloxicam; piroxicam; valdecoxib, parecoxib,
etoricoxib, CS-502, JTE-522; L-745,337; and NS398.
32. The method of any one of claims 24-30,
wherein said NSAID is selected from the group
consisting of: aspirin; acetaminophen; ibuprofen;
flurbiprofen; ketoprofen; lornoxicam; naproxen;
oxaprozin; etodolac; indomethacin; ketorolac; and
nabumetone.
33. The method of claim 32, wherein said NSAID
is naproxen administered at a dose of between 50 mg
and 1500 mg.
34. The method of claim 33, wherein said
naproxen is administered at a dose of between 200
mg and 600 mg.
35. The method of claim 24, wherein said acid
inhibitor and said NSAID are delivered as part of a

185a
single dosage form providing for the coordinated
release of therapeutic agents.
36. The method of claim 35, wherein said single
dosage form is a bilayer tablet with an outer layer
comprising an H2 blocker and an inner core
comprising an NSAID.
37. A method of treating a patient for pain or
inflammation, comprising:
(a) orally administering to said patient an acid
inhibitor at a dose effective to raise the
gastric pH of said patient to at least 3.5; and
(b) concurrently administering to said patient
an NSAID that is coated in a polymer that
dissolves at a rate such that said NSAID is
not released until said gastric pH is at 3.5 or
higher.
38. The method of claim 37, wherein said acid
inhibitor is an H2 blocker.
39. The method of claim 38, wherein said H-2
blocker is selected from the group consisting of:
cimetidine; ranitidine; ebrotidine; pabutidine;
lafutidine; loxtidine and famotidine.
40. The method of claim 39, wherein said H2
blocker is famotidine administered at a dose of
between 5 mg and 100 mg.

186a
41. The method of claim 37, wherein said acid
inhibitor is a proton pump inhibitor.
42. The method of claim 41, wherein said proton
pump inhibitor is selected from the group consisting
of:
omeprazole,
esomeprazole,
lansoprazole,
rabeprazole and pantoprazole.
43. The method of claim 42, wherein said proton
pump inhibitor is pantoprazole administered at a
dose of between 10 mg and 200 mg.
44. The method of any one of claims 37-43,
wherein said NSAID is a COX-2 inhibitor selected
from the group consisting of: celecoxib; rofecoxib;
meloxicam; piroxicam; valdecoxib, parecoxib,
etoricoxib, CS-502, JTE-522 L-745, 337; and NS398.
45. The method of any one of claims 37-43,
wherein said NSAID is selected from the group
consisting of: aspirin; acetaminophen; ibuprofen;
flurbiprofen; ketoprofen; lornoxicam; naproxen;
oxaprozin; etodolac; indomethacin; ketorolac; and
nabumetone.
46. The method of claim 45, wherein said NSAID
is naproxen administered at a dose of between 50 mg
and 1500 mg.
47. The method of claim 46, wherein said
naproxen is administered at a dose of between 200
mg and 600 mg.

187a
48. The method of claim 47, wherein said acid
inhibitor and said NSAID are delivered as part of a
single dosage form providing for the coordinated
release of therapeutic agents.
49. The method of claim 48, wherein said single
dosage form is a bilayer tablet with an outer layer
comprising an H2 blocker and an inner core
comprising an NSAID.
50. A method of improving compliance in patients
requiring frequent daily dosages of an acid inhibitor
and an NSAID comprising administering said
dosages in a coordinated unit dosage form in
accordance with claim 1.
51. A method of treating a patient for pain or
inflammation, comprising administering to said
patient the pharmaceutical composition of claim 15.
52. The method of claim 51, wherein said pain or
inflammation is due to either osteoarthritis or
rheumatoid arthritis.
53. The pharmaceutical composition of any one of
claims 5-11 wherein said unit dosage form is a
multilayer tablet comprising a single core and one or
more layers outside of said single core, wherein:
i) said NSAID is present in said core;
ii) said coating that does not release said
NSAID unless the pH of the surrounding

188a
medium is 3.5 or higher surrounds said
core; and
iii) said acid inhibitor is in said one more
layers outside said core.
54. The pharmaceutical composition of claim 53,
wherein said one or more layers outside of said core
do not contain NSAID and are not surrounded by an
enteric coating.
55. The pharmaceutical composition of claim 54,
wherein said unit dosage form is a bilayer tablet
having an outer layer of said acid inhibitor and an
inner core of said NSAID and wherein said outer
layer of said tablet is surrounded by a non-enteric
film coating that, upon ingestion by a patient,
releases said acid inhibitor into the stomach of said
patient.
* * * * *

189a
UNITED STATES
PATENT AND TRADEMARK OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.
APPLICATION NO.
DATED
INVENTOR(S)

: 6,926,907 B2 Page 1 of 3
: 10/158216
: August 9, 2005
: John Plachetka

It is certified that error appears in the aboveidentified patent and that said Letters Patent is
hereby corrected as shown below:
In the first line of claim 1 line 1 in the issued
patent, the word "dose" should be --dosage.-- Thus,
the correct claim should read as follows:
Col. 20, Claim
1. A pharmaceutical composition in unit dosage
form suitable for oral administration to a
patient, comprising: (a) an acid inhibitor
present in an amount effective to raise the
gastric pH of said patient to at least 3.5 upon
the administration of one or more of said unit
dosage forms; (b) a non-steroidal antiinflammatory drug (NSAID) in an amount
effective to reduce or eliminate pain or
inflammation
in
said
patient
upon
administration of one or more of said unit
dosage forms; and wherein said unit dosage
form provides for coordinated release such
that:

190a
i) said NSAID is surrounded by a coating that,
upon ingestion of said unit dosage form by said
patient, prevents the release of essentially any
NSAID from said dosage form unless the pH of
the surrounding medium is 3.5 or higher; ii) at
least a portion of said acid inhibitor is not
surrounded by an enteric coating and, upon
ingestion of said unit dosage form by said
patient, is released regardless of whether the
pH of the surrounding medium is below 3.5 or
above 3.5.

191a
UNITED STATES
PATENT AND TRADEMARK OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.
APPLICATION NO.
DATED
INVENTOR(S)

: 6,926,907 B2 Page 2 of 3
: 10/158216
: August 9, 2005
: John Plachetka

It is certified that error appears in the aboveidentified patent and that said Letters Patent is
hereby corrected as shown below:
Col. 21, Line 1 of claim 16 and 17 should refer to
"any one of claims 12-14" and not to "claim 15." In
addition, the phrase --wherein said acid inhibitor is a
proton pump inhibitor--should be included in 16 and
17. Thus, the claims should read as follows: Col. 21
16. The pharmaceutical composition of any one of
claims 12-14, wherein said acid inhibitor is a
proton pump inhibitor and wherein said coating
surrounding said core does not dissolve unless
the pH of the surrounding medium is 4 or
greater.
17. The pharmaceutical composition of any one of
claims 12-14, wherein said acid inhibitor is a
proton pump inhibitor and wherein said coating
surrounding said core does not dissolve unless
the pH of the surrounding medium is 5 or
greater.

192a
Col. 21, Line 1 of claims 19 and 20 should refer to
"any one of claims 12-14" and not to "claim 18."
In addition, the phrase --wherein said acid
inhibitor is an H2 blocker--should be included in
19 and 20. Thus, the claims should read as
follows:
Col. 21
19. The pharmaceutical composition of any one of
claims 12-14, wherein said acid inhibitor is an H2
blocker and wherein said tablet has an inner core
of said NSAID surrounded by a barrier coating
that dissolves at a rate such that said NSAID is
not released until the pH of the surrounding
medium is 4 or greater.

193a
UNITED STATES
PATENT AND TRADEMARK OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.
APPLICATION NO.
DATED
INVENTOR(S)

: 6,926,907 B2 Page 3 of 3
: 10/158216
: August 9, 2005
: John Plachetka

It is certified that error appears in the aboveidentified patent and that said Letters Patent is
hereby corrected as shown below:
Col. 21
20. The pharmaceutical composition of any one of
claims 12-14, wherein said acid inhibitor is an H2
blocker and wherein said tablet has an inner core
of said NSAID surrounded by a barrier is not
released until the pH of the surrounding medium
is 5 or greater.
Signed and Sealed this
Twenty-fifth Day of December, 2007

JON W. DUDAS
Director of the United States Patent and
Trademark Office

194a
APPENDIX H
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE
UNITED STATES PATENT NO. 8,557,285 B2
ENTITLED
“PHARMACEUTICAL COMPOSITIONS FOR
THE COORDINATED DELIVERY OF
NSAIDS” ISSUED OCTOBER 15, 2013
(54) PHARMACEUTICAL COMPOSITIONS
FOR THE COORDINATED DELIVERY
OF NSAIDS
(75) Inventor: John R. Plachetka, Chapel Hill,
NC
(73) Assignee: Pozen Inc., Chapel Hill, NC (US)
(*) Notice: Subject to any disclaimer, the term of
this patent is extended or adjusted
under 35 U.S.C. 154(b) by 0 days.
This patent is subject to a terminal
disclaimer.
(21)

Appl. No.: 13/215,855

(22)

Filed: Aug. 23, 2011

(65)

Prior Publication Data
US 2012/0064156 A1
Mar. 15, 2012

195a
Related U.S. Application Data
(60)

Division of application No. 12/553,804, filed
on Sep. 3, 2009, now abandoned, which is a
division of application No. 11/129,320, filed
on May 16, 2005, now Pat. No. 8,206,741,
which is a continuation-in-part of
application No. 10/158,216, filed on May 31,
2002, now Pat. No. 6,926,907.

(60)

Provisional application No. 60/294,588, filed
on Jun. 1, 2001.

(51)

Int. Cl.
A61K9/22
(2006.01)
A61K9/32
(2006.01)
A61K 9/24
(2006.01)
A61K 9/52
(2006.01)
(52) U.S. Cl.
USPC ........... 424/472; 424/457; 424/463;
424/468;
424/474;
424/482
(58)

Field of Classification Search
None
See application file for complete search
history.

(56)

References Cited
U.S. PATENT DOCUMENTS

4,198,390
4,255,431
4,344,929
4,508,905

A
A
A
A

4/1980
3/1981
8/1982
4/1985

Rider ........................... 424/471
Junggren et al. ........... 514/338
Bonsen et al ................ 424/466
Junggren et al ........... 46/273.7

196a
4,554,276
4,562,261
4,619,934
4,676,984
4,704,278
4,726,951
4,738,974
4,757,060
4,758,579
4,766,117
4,786,505
4,853,230
4,865,847
4,948,581
4,965,065
5,026,560
5,035,899
5,037,815
5,043,358
5,051,262
5,093,132
5,204,118
5,260,333
5,364,616
5,373,022
5,409,709
5,417,980
5,466,436
5,514,663
5,601,843
5,631,022
5,643,960
5,667,802
5,679,376
5,686,105
5,690,960
5,702,723
5,714,504

A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A

11/1985
12/1985
10/1986
6/1987
11/1987
2/1988
4/1988
7/1988
7/1988
8/1988
11/1988
8/1989
9/1989
8/1990
10/1990
6/1991
7/1991
8/1991
8/1991
9/1991
3/1992
4/1993
11/1993
11/1994
12/1994
4/1995
5/1995
11/1995
5/1996
2/1997
5/1997
7/1997
9/1997
10/1997
11/1997
11/1997
12/1997
2/1998

LaMattina .................. 514/272
Hirata et al ................. 548/184
Sunshine et al ............ 514/277
Wu et al ...................... 424/689
Wu et al ...................... 424/688
Panoz et al .................. 424/465
Brandstrom ................ 514/338
Lukacsko et al ............ 514/160
Kohl et al .................... 514/338
Crawford et al ............ 514/219
Lovgren et al .............. 424/468
Lovgren et al .............. 424/466
Gosswein .................... 424/439
Sawayanagi et al .......... 24/497
Lukacsko et al ............ 514/162
Makino et al ............... 424/494
Saeki et al................... 424/480
Lukacsko et al ............ 514/162
Lukacsko et al .............. 14/653
Panoz et al .................. 424/468
Makino et al ............... 424/475
Goldman et al ............... 24/489
Lukacsko et al ............ 514/471
Singer et al ................... 424/52
Fawzi et al .................. 514/570
Ozawa et al................. 424/464
Goldman et al ............. 424/464
Stables ........................ 514/161
Mandel.......................... 514/33
Gimet.......................... 424/475
Mandel et al ............... 424/456
Breitner et al ................ 14/570
Grimberg .................... 424/464
Stevens et al ............... 424/472
Kelm et al ................... 424/452
Bengtsson et al.
Griffin ......................... 424/463
Lindberg et al.

197a
5,716,648
5,750,531
5,817,338
5,817,340
5,840,737
5,872,145
5,877,192
5,900,424
5,955,451
6,013,281
6,025,395
6,060,499
6,093,734
6,132,768
6,132,771
6,136,344
6,160,020
6,162,816
6,183,776
6,183,779
6,207,188
6,231,888
6,287,600
6,365,184
6,369,085
6,372,255
6,387,410
6,395,298
6,428,810
6,485,747
6,489,346
6,544,556
6,599,529
6,610,323
6,613,354
6,632,451
6,641,838
6,645,988

A
A
A
A
A
A
A*
A
A
A
A
A
A
A
A
A
A
A
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B2
B2
B2
B2

2/1998
5/1998
10/1998
10/1998
11/1998
2/1999
3/1999
5/1999
9/1999
1/2000
2/2000
5/2000
7/2000
10/2000
10/2000
10/2000
12/2000
12/2000
2/2001
2/2001
3/2001
5/2001
9/2001
4/2002
4/2002
4/2002
5/2002
5/2002
8/2002
11/2002
12/2002
4/2003
7/2003
8/2003
9/2003
10/2003
11/2003
11/2003

Halskov et al ................ 24/682
Lee et al ...................... 514/256
Bergstrand et al ......... 424/468
Roche et al .................. 424/470
Phillips ....................... 514/338
Plachetka.................... 514/415
Lindberg et al ............. 514/338
Kallstrom et al.
Lichtenberger et al ....... 514/78
Lundberg et al ............ 424/468
Breitner et al .............. 514/570
Plachetka.................... 514/415
Garst et al .................. 514/338
Sachs et al .................. 424/458
Depui et al .................. 424/468
Depui et al .................. 424/470
Ohannesian et al ........ 514/629
Bohlin et al ................... 210/95
Depui et al .................. 424/468
Ouali et al................... 424/472
Gustavsson et al ......... 424/464
Lerner et al................. 424/463
Ouali et al................... 424/472
Depui et al .................. 424/469
Cotton et al.
Saslawski ................... 424/473
Woolfe ......................... 424/489
Flannagan et al ......... 424/479
Bergstrand et al ......... 424/480
Flanagan et al ............ 424/479
Phillips ....................... 514/338
Chen et al ................... 424/469
Skinhoj et al ............... 424/458
Lundberg et al ............ 424/458
Depui et al .................. 424/473
Penhasi et al............... 424/464
Pather et al................. 424/466
Phillips ....................... 514/338

198a
6,673,819 B2
6,685,964 B1
6,699,885 B2
6,713,089 B1
6,749,867 B2
6,780,882 B2
6,787,164 B2
6,797,283 B1
6,869,615 B2
6,875,872 B1
6,926,907 B2
7,029,701 B2
7,030,162 B2
7,060,694 B2
7,094,425 B2
7,332,183 B2
7,399,772 B2
7,411,070 B2
7,488,497 B2
7,745,466 B2
7,785,626 B2
7,846,914 B2
8,206,741 B2
2001/0025107
2002/0012676
2002/0042433
2002/0044962
2002/0045184
2002/0086029
2002/0090395
2002/0111370
2002/0155153
2002/0160046
2003/0008903
2003/0040537
2003/0113375
2003/0129235
2003/0215527

1/2004 Bergman et al ............. 514/338
2/2004 Bartholomaeus et al ... 424/489
3/2004 Phillips ....................... 514/338
3/2004 Bertelsen et al ............ 424/489
6/2004 Robinson et al............. 424/489
8/2004 Phillips ....................... 514/338
9/2004 Gelber et al ................. 424/729
9/2004 Edgren et al ................ 424/472
3/2005 Chen et al ................... 424/464
4/2005 Lindberg et al.
8/2005 Plachetka.................... 424/472
4/2006 Chen ........................... 424/489
4/2006 Plachetka et al ........... 514/619
6/2006 Plachetka et al ........... 514/177
8/2006 Scott et al ................... 424/451
2/2008 Plachetka et al ........... 424/472
7/2008 Phillips ....................... 514/338
8/2008 Cotton et al.
2/2009 Depui et al .................. 424/472
6/2010 Cotton et al.
8/2010 Pettersson et al .......... 424/471
12/2010 Petrus ........................... 514/62
6/2012 Plachetka et al.
A1 9/2001 Barberich et al ... 546/273.7
A1 1/2002 Lundberg et al ...... 424/468
A1 4/2002 Yelle et al .............. 514/100
A1 4/2002 Cherukuri et al ..... 424/426
A1 4/2002 Chen .................... 435/6.16
A1 7/2002 Lundberg et al ...... 424/468
A1 7/2002 Woolfe et al ........... 424/400
A1 8/2002 Bergman et al ....... 514/338
A1 10/2002 Depui et al ............ 424/452
A1 10/2002 Robinson et al ....... 424/469
A1 1/2003 Barberich et al ...... 514/100
A1 2/2003 Plachetka et al...... 514/406
A1 6/2003 Lundberg et al ...... 424/468
A1 7/2003 Chen et al ............. 424/470
A1 11/2003 Phillips ................. 424/747

199a
2003/0232080
2003/0232876
2004/0022846
2004/0048896
2004/0121004
2004/0131676
2004/0171646
2004/0180089
2005/0004171
2005/0042304
2005/0054682
2005/0147668
2005/0163847
2005/0227949
2005/0249806
2005/0249811
2006/0165797
2006/0177504
2006/0178348
2006/0178349
2006/0287284
2007/0122470
2007/0154542
2007/0184078
2007/0207200
2007/0237820
2007/0243251
2008/0031941
2008/0031950
2008/0103169
2009/0074863
2009/0075950
2009/0297594
2010/0062064
2010/0172983
2010/0178334
2010/0330179
2012/0064156

A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1

12/2003
12/2003
2/2004
3/2004
6/2004
7/2004
9/2004
9/2004
1/2005
2/2005
3/2005
7/2005
7/2005
10/2005
11/2005
11/2005
7/2006
8/2006
8/2006
8/2006
12/2006
5/2007
7/2007
8/2007
9/2007
10/2007
10/2007
2/2008
2/2008
5/2008
3/2009
3/2009
12/2009
3/2010
7/2010
7/2010
12/2010
3/2012

Pather et al ........... 424/434
Plachetka .............. 514/419
Depui et al ............ 424/452
Phillips ................. 424/468
Taneja ................... 424/464
Taneja ................... 424/468
Phillips ................. 514/340
Plachetka et al.......... 424/4
Phillips ................. 514/340
Phillips ................. 424/747
Phillips ................. 514/340
Bertelsen et al ...... 424/489
Cheng et al ........... 424/464
Edalatpour et al ... 514/338
Proehl et al ........... 514/338
Plachetka .............. 424/472
Plachetka .............. 514/165
Sundharadas ........ 424/488
Plachetka .............. 514/165
Plachetka .............. 514/165
Schutze et al ......... 514/165
Johansson et al ..... 424/451
Tananbaum et al .. 424/457
Chen ..................... 424/400
Plachetka et al...... 424/451
Cheng et al ........... 424/474
Taneja ................... 424/465
Pettersson ............. 424/463
Sesha
Phillips ................. 514/303
Taneja ................... 424/465
Taneja
Depui et al ............ 424/451
Ault et al ............... 424/475
Plachetka .............. 424/471
Johansson et al ..... 424/452
Ault et al ............... 424/472
Plachetka

200a
FOREIGN PATENT DOCUMENTS
AU
CA
DE
DE
EP
EP
EP
EP
EP
EP
EP
EP
EP
EP
EP
EP
EP
EP
EP
GB
GB
GB
JP
WO
WO
WO
WO
WO
WO
WO

2006235929
2139653
40 35 455
198 01 811
0 005 129
0 124 495
0 166 287
0 167 958
0 174 726
0 244 380
0 320 550
0 320 551
0 426 479
0 550 083
1 020 461
1 068 867
1 726 300
1 726 301
1 411 900
2 105 193
2 163 747
2 216 413
2005-145894
WO 85/03433
WO 90/06925
WO 91/16886
WO 91/16895
WO 91/16896
WO 93/11750
WO 91/19711

11/2006
7/2001
5/1992
1/1998
10/1979
11/1984
1/1986
1/1986
3/1986
11/1987
6/1989
6/1989
5/1991
7/1993
7/2000
1/2001
11/2006
11/2006
7/2010
3/1983
3/1986
10/1989
6/2005
8/1985
6/1990
11/1991
11/1991
11/1991
11/1991
12/1991

201a
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO

WO 91/19712
WO 93/12817
WO 94/07541
WO 94/27988
WO 95/01977
WO 95/32959
WO 96/05177
WO 96/05199
WO 96/14839
WO 96/22780
WO 97/11701
WO 97/25064
WO 98/13073
WO 98/22117
WO 98/22118
WO 98/54171
WO 99/00380
WO 99/12524
WO 99/29320
WO 99/66919
WO 00/01368
WO 00/15195
WO 00/59339
WO 00/71122
WO 00/72838
WO 00/78293
WO 01/66088
WO 01/24777
WO 02/22108
WO 02/066002
WO 02/098352

12/1991
7/1993
4/1994
12/1994
1/1995
12/1995
2/1996
2/1996
5/1996
8/1996
4/1997
7/1997
4/1998
5/1998
5/1998
12/1998
1/1999
3/1999
6/1999
12/1999
1/2000
3/2000
9/2000
11/2000
12/2000
12/2000
3/2001
4/2001
3/2002
8/2002
12/2002

202a
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO

WO 03/017980
WO 2004/062552
WO 2004/064815
WO 2005/074536
WO 2005/074930
WO 2006/044202
WO 2007/064274
WO 2007 /078874
WO 2008/101060
WO 2009/012393
WO 2009/145905
WO 2010/151697

3/2003
7/2004
8/2004
8/2005
8/2005
4/2006
6/2007
7/2007
8/2008
1/2009
12/2009
12/2010

OTHER PUBLICATIONS
Goldstein et al., "PN400 significantly improves
upper gastrointestinal tolerability compared with
enteric-coated naproxen alone in patients
requiring chronic NSAID therapy: Results from
Two Prospective, Randomized, Controlled Trials,"
POZEN Inc.
sponsored study, 2009. (Document D15 from
Letter to European Patent Office for counterpart
European Application No. 02 734 602.2, regarding
Oral Proceedings dated Dec. 18, 2009).
"A 12 month, phase 3, open-label, multi-center
study to evaluate the long-term safety of PN 400,"
ClinicalTrials.gov, Sep. 11, 2007, accessed from
<http://clinicaltrials.gov/ct2/show/NCT00527904>
on Sep. 6, 2012.
"Astrazeneca AB, Astrazeneca LP, KBI-E Inc., and
Pozen, Inc. v Dr. Reddy's Laboratories Inc. and Dr.
Reddy's Laboratories Ltd.: Dr. Reddy 's
Laboratories Inc. and Dr. Reddy 's Laboratories

203a
Ltd's. Invalidity contentions pursuant to L. Pat. R.
3.6(c)," dated Nov. 23, 2011. "Astrazeneca AB,
Astrazeneca LP, KBI-E Inc., and Pozen, Inc. V
Lupin Ltd. and Lupin Pharmaceuticals, Inc.,
Defendants
Lupin
Ltd.
and
Lupin
Pharmaceuticals, Inc's Amended Invalidity
Contentions Pursuant to L. PAT. R. 3.3 and 3.6(c),"
dated Apr. 20, 2012.
"Astrazeneca AB, Astrazeneca LP, KBI-E Inc., and
Pozen, Inc. v. Lupin Ltd. and Lupin
Pharmaceuticals Inc..: Defendants Lupin Ltd. and
Lupin Pharmaceuticals, Inc.' s Invalidity
Contentions Pursuant to L. Pat. R. 3.3 and 3.6(c ),"
dated Nov. 23, 2011.
"Astrazeneca AB, Astrazeneca LP, KBI-E Inc., and
Pozen, Inc. v. Anchen Pharmaceuticals, Inc.:
Anchen's Initial Invalidity Contentions," dated
May 11, 2012.
"Astrazeneca AB, Astrazeneca LP, KBI-E Inc., and
Pozen, Inc. v. Dr. Reddy's Laboratories Inc. and Dr.
Reddy's Laboratoriese Ltd.: Plaintiffs' Response to
DRL's First Set of Interrogatories to Plaintiffs
(Nos. 1-5)," dated Mar. 5, 2012.
"Histamine H2 antagonist," accessed from
<drugs.com> on Sep. 6, 2012.
"PK Study to evaluate esomeprazole plasma levels
following the administration of PN 400,"
Clinica!Trials.gov, Jan. 11, 2008, accessed from,
<http://clinicaltrials.gov/ct2/show/NCT00599404>
on Sep. 6, 2012.
"Study evaluating the bioavailability of Naproxen
500 mg in three formulations," ClinicalTrials.gov,
Apr.
23,
2008,
accessed
from,

204a
<http://clinicaltrials.gov/ct2/show/NCT00665743>,
on Sep. 6, 2012.
Alexander et al., "Pilot evaluation of a novel
combination table (PN 400) containing a proton
pump
inhibitor
and
a
nonsteroidal
anti-inflammatory drug in prevention of upper
gastrointestinal mucosal injury," American
Journal of Gastroenterology, 100(9), S68, 135,
2005.
Bergman et al., "Protection against aspirininduced
gastric
lesions
by
lansoprazole:
simultaneous evaluation of function and
morphologic responses," Clin Pharmacol Ther.,
52(4): 413-416, 1992.
Goldstein et al., "116 A single table multilayer
formulation of enteric-coated naproxen coupled
with no-enteric-coated omeprazole is associated
with a significantly reduced incidence of gastric
ulcers vs. enteric-coated naproxen: A prospective,
randomized
double-blind
study,"
134(4),
Supplement 1, A -19, 2008.
Hassan-Alin et al., "Lack of drug-drug interaction
between esomeprazole and naproxen in healthy
subjects," Gastroenterology, 124(4), Supp. 1, A541,
2003.
Jacques et al., "Final purification, enrichment, of
partially resolved enantiomer mixtures,," in
Enantiomers, Racemates, adn Resolutions, 423434, 1981.
McKeage et al., "Esomeprazole: a review of its use
in the management of gastric acid-related diseases
in adults," Drugs, 68(11): 1571-15607, 2008.
Miner et al., "Clinical trial: evaluation of gastric
acid suppression with three doses of immediate-

205a
release
esomeprazole
in
the
fixed-dose
combination of PN 400 (naproxen/esomeprazole
magnesium) compared with naproxen 500 mg and
enteric-coated esomeprazole 20 mg: a randomized,
open-label, Phase I study in healthy volunteers,"
Aliment. Pharmacol. Ther., 32(3):414-424, 2010.
Miner et al., "T1969 Gastric acid suppression with
PN400, a single-tablet, multilayer, fixed dose
formulation combining an immediate-release
esomeprazole layer and an enteric-coated (EC)
naproxen core," Gastroenterology, 136(5), Suppl. 1,
A-611, 2009.
Miner et al., "T1972 Pharmacokinetics of naproxen
and esomeprazole in pn400, a single-tablet,
multilayer formulation of enteric-coated naproxen
coupled with immediate-release esomeprazole,"
Gastroenterology, 136(5), Suppl. 1, A-612, 2009.
Morgner et al., "Esomeprazole: prevention and
treatment of NSAID-induced symptoms and
ulcers," Expert Opin Pharmacother., 8(7):975-988,
2007.
Office Communication issued in European Patent
Application 10177150.9, dated Nov. 12, 2010.
Office Communication issued in European Patent
Application No. 02734602.2, dated Feb. 22, 2010.
Office Communication issued in European Patent
Application No. 02734602.2, dated Apr. 29, 2010.
Ramage et al., "Inhibition of food stimulated acid
secretion by misoprostol, an orally active synthetic
E1 analogue prostaglandin," Br. J Clin Pharmac.,
19:9-12, 1985.
Scarpignato et al., "Towards a GI safer antiinflammatory
therapy,"
Gastroenterology
International, 186-215, 1999.

206a
Takeuchi et al., "Effects of topical application of
acidified omeprazole on acid secretion and
transmucosal potential difference in anesthetized
rat stomachs," Japan J, Pharmacol., 47:397-1988.
Weil et al, "Prophylactic aspirin and risk of peptic
ulcer bleeding," BMJ, 310: 827-830, 1995.
Wilson et al., "Effects of misoprostol on gastric acid
and mucus secretion in man," Digestive Diseases
and Sciences, 31(2): 126S-129S, 1986.
Notice of Paragraph IV Certification Re: Dr.
Reddy's Laboratories, Ltd.'s and Dr. Reddy's
Laboratories, Inc.'s Naproxen and Esomeprazole
Magnesium Delayed Release Tablets; U.S. Patent
No. 6,926,907, from Dr. Reddy's Laboratories,
Ltd./Dr. Reddy's Labo-ratories, Inc., dated Mar.
11, 2011.
Abelo et al., "Pharmacodynamic modeling of
reversible gastric acid pump inhibition in dog and
man," European Journal of Pharmaceutical
Sciences, 14:339-346, 2001.
Andersson, "Pharmacokinetics, metabolism and
interactions of acid pump inhibitors," Clin.
Pharmacokinet., 31(1):9-28, 1996.
Approval of Amendments/correction filed May 10,
2010 dated Jun. 21, 2010 (application issued as EP
1 411 900 Bl).
Awtry et al., "Aspirin," Circulation, 101: 12061218, 2000.
Ballinger et al., "COX-2 inhibitors versus NSAIDs
in gastrointestinal damage and prevention," Exp.
Opin. Pharmacother., 2(1):31-40, 2001.
Barnett et al., "Effects of SCH 32651 on resting
and stimulated acid secretion in guinea-pig

207a
isolated fundic mucosa," Br. J Pharmac., 83:75-82,
1984.
Berardi et al., "Elevation of gastric pH with
rantidine
does
not
affect
the
release
characteristics of sustained release ibuprofen
tablets," Biopharmaceutics & Drug Disposition,
9:337-347, 1998.
Bianchi Porro et al., "Pantoprazole versus placebo
in prevention of NSAID-induced ulcers,"
Gastroenterology, 114(4):A74, 1998.
Bianchi Porro et al., "Prevention of gastroduodenal
damage with omeprazole in patients receiving
continuous NSAIDs treatment. A double blind
placebo controlled study," Ital. J Gastroenterol.
Hepatol., 30:43-47, 1998.
Bianchi Porro et al., "Why are non-steroidal antiinflammatory drugs important in peptic ulcers?"
Aliment. Pharmacol. Therap., l:540S-547S, 1987.
Bigard et al., "Complete prevention by omeprazole
of aspirin induced gastric lesions in healthy
subjects," Gut, 29(5):A712, T49, 1988.
Bigard et al., "Effet protecteur de l’omeprazole sur
les lesions gastriques induites par une prise
unique d'aspirine chez l'homme," Gastroenterol.
Clin. Biol., 12:770-771, 1998.
Bombardier et al., "Comparison of upper
gastrointestinal toxicity of rofecoxib and naproxen
in patients with rheumatoid arthritis," N Engl. J
Med., 343:1520-1528, 2000.
Brown et al., "Aspirin- and indomethacin-induced
ulcers and their antagonism by antihistamines,"
Euro. J Pharm., 51:275-283, 1978.

208a
Brown et al., "Prevention of the gastrointestinal
adverse effects of nonsteroidal anti-inflammatory
drugs," Pract. Drug Safety, 21 :503-512, 1999.
Byrn et al., "Pharmaceutical solids: A strategic
approach to regula-tory considerations," Pharm.
Res., 12(7): 945-954, 1995.
Carrasco-Portugal et al., "Bioavailability of a
formulation containing a diclofenac-rantidine
combination," Proc. West. Pharmacol. Soc., 45:810, 2002.
Chan et al., "Clopidogrel versus Aspirin and
Esomeprazole to prevent recurrent ulcer
bleeding," New Eng. J Med., 352:238-244, 2005.
Chan et al., "Eradication of H. Pylori versus
maintenance acid suppression to prevent
recurrent ulcer hemorrhage in high risk NSAID
users: A prospective randomized study,"
Gastroenterology, 114: A87, G0356, 1998.
Chandramouli
et
al.,
"Prevention
and
management of NSAID-Induced gastropathy,"
Journal of Pharma-ceutical Pain and Symptom
Control, 8(4):27-40, 2000.
Chang et al., "Polymetharcrylates," Handbook of
Pharmaceutical Excipients, Fifth Edition, Ed.
Raymond C. Rowe, Paul J. Sheskey and Sian C.
Owen, London: Pharmaceutical Press, 2006, pp.
553-560.
Communication from the EPO regarding
correction attempted for application 02 734 602.2,
dated Apr. 29, 2010.
Communication from the EPO regarding Grant of
European patent for application 02 734 602.2,
dated Feb. 2, 2010.

209a
Cullen
et
al.,
"Primary
gastroduodenal
prophylaxis with omeprazole for non-steroidal
anti-inflammatory
drug
users,"
Aliment.
Pharmacol. Ther., 12:135-140, 1998.
Daneshmend et al., "Abolition by omeprazole of
aspirin induced gastric mucoasal injury in man,"
Gut, 31:514-517, 1990.
Daneshmend et al., "Use of microbleeding and an
ultrathin endoscope to assess gastric mucosa!
protection by famotidine," Gastroenterology,
97:944-9, 1989.
Danjani, "Perspective on the gastric antisecretory
effects of misoprostol in man," Prostaglandins,
33:68-77, 1987.
Data sheet for "Arthrotec," 2009. (Document D8
from Letter to European Patent Office for
counterpart European Application No. 02 734
602.2, regarding Oral Proceedings dated Dec. 18,
2009).
Dent, "Why proton pump inhibition should heal
and
protect
against
nonsteroidal
antiinflammatory drug users," Am. J Med., 104:52S55S, 1998.
Ekstrom et al., Prevention of peptic ulcer and
dyspeptic symptoms with omeprazole in pateitns
receiving
continuous
non-steroidal
anti-inflammatory drug therapy, Scand. J
Gastroenterol., 31:753-758, 1996.
Ene et al., "A study of the inhibitory effects of SCH
28080 on gastric secretion in man," Br. J
Pharmac., 76:389-391, 1982.
English translation of Bigard, et al., Gastroenterol.
Clin. Biol., 12:770-771, 1998.

210a
English translation of Muller et al, Arzneimittel
Forschung, 47:758-460, 1997.
English translation of Muller et al., ArzneimittelForschung/Drug Res., 41(1):638-639, 1991.
English translation of Simon et al., Arzneimittel
Forschung, 45:701-703, 1995.
Ensanullah et al., "Prevention of gastroduodenal
damage
induced
by
non-steroidal
antiinflammatory drugs: controlled trial of ranitidine,"
BMJ, 297:1017-1021, 1998.
Erlandsson et al., "Resolution of the enantiomers
of omeprazole and some of its analogues by liquid
chromatography
on
a
trisphenycarbamoylcellulose-based
stationary
phase," J Chromatog., 532:305-319, 1990.
European Search Report and Opinion issued in
European application No. EP 09 17 8773, dated
Feb. 11, 2010.
European Search Report, issued in European
Patent application No. EP 02734602.2, dated May
29, 2007.
Feldman and Carlstedt, "Effect of antacid on
absorption of enteric-coated aspirin," JAMA,
227(6):660-1, 1974.
Florence and Jani, "Novel oral drug formulations
their potential in modulating adverse effects,"
Drug Safety, 10(3):233-66, 1994.
Frank et al., "Reduction of indomerthacin induced
gastrduodenal
muclosal
injury
and
gastrointestinal symptoms with cimetidine in
normal subjects," J Rheum., 16:1249-1252, 1989.
Gengo
et
al.,
"Prevalence
of
platelet
nonresponsiveness to aspirin in patients treated
for secondary stroke prophylaxis and in patients

211a
with recurrent isochemic events," J Clin.
Pharmacol., 48:335-343, 2008.
Gergmann et al., "Protection against aspirininduced
gastric
lesions
by
lansoprazole:
simultaneous evaluation of functional and
morphologic responses," Clin. Pharmacol. Ther.,
52:413-416, 1992.
Goldstein et al, "PN400 significantly reduces the
incidence of gastric ulcers compared with entericcoated naproxen in patients requiring chronic
NSAID therapy regardless of low-dose aspirin use:
Results from two prospective, randomized
controlled trials," POZEN Inc. sponsored study,
2009. (Document D16 from Letter to European
Patent
Office
for
counterpart
European
Application No. 02 734 602 .2, regarding Oral
Proceedings dated Dec. 18, 2009).
Graham et al., "Duodenal and gastric ulcer
prevention with misoprostol in arthritis pateitns
taking NSAIDs," Ann. Intern. Med., 119(4):257262, 1993.
Grosser et al., "Thromboxane generation," In
Platelets, Alan Michelson Ed., pp. 565-574,
Elseiver Science, 2007.
Gurbel et al., "Abstract 4267; PA32520 (Singletablet of enteric-coated aspirin 325 mg +
Immediate-release Omerpazole 20 mg); Aspirin
therapy
combining
greater
thrombozne
suppression and lower upper gastrointestinal
damage," Circulation, l18:S_855, 2008.
Hart et al., "Aspirin dosage and thromboxane
synthesis in patients with vascular disease,"
Pharmacotherapy, 2395):579-584, 2003.

212a
Hawkey et al., "Omeprazole compared with
misoprostol for ulcers associated with nonsteroidal
anti-inflammatory drugs," N Eng. J Med., 338:727734, 1998.
Hawkey et al., "Prophylaxis of aspirin-induced
gasf ric mucosal bleeding with ranitidine,"
Aliment. Pharmacol. Therap., 2:245-252, 1988.
Hawkey et al., "Strategies for preventing aspirininduced gastric bleeding," Scandinavian Journal
of Gastroenterology, vol. 21, Supplement 125, pp.
170-173, 1986.
Hawkey, "Non-steroidal anti-inflammatory drug
gastropathy: causes and treatment," Scan. J
Gastroenterol., 31 Suppl. 220:124-7, 1996.
Hawkey, "Progress in prophylaxis against
nonsteroidal anti-inflammatory drug-associated
ulcers and erosions," Am. J Med., 104:67S-74S,
1998.
Hawkins et al., "The Gastroduodenal Toxicity of
Nonsteroidal Anti-Inflammatory Drugs. A Review
of the Literature," J Pain and Symptom
Management, 20(2):140-151, 2000.
Helander et al., "Structure and function of rat
parietal cells during treatment with omeprazole,
SCH 28080, SCH 32651, or ranitidine," Scan. J
Gastroenterol., 25:799-809, 1990.
Hogan et al., "Prescription of nonsteroidal antiinflammatory drugs for elderly people in Alberta,"
Can. Med. Assoc., 151(3):315-322, 1994.
Howden, "Clinical pharmacology of omeprazole,"
Clin. Phannacokinet., 20:38-49, 1991.
Ife et al., "Reversible inhibitors of the Gastric
(H+/K+)-ATpase. 3, 3-Substituted-4-(phenylamino)
quinolines, "J med. Chem., 35: 3413-3422, 1992.

213a
International
Search
Report
issued
in
International application No. PCT/US02/17105,
mailed Mar. 5, 2003.
Jiranek
et
al.,
"Misoprostol
reduces
gastroduodenal injury from one week of aspirin:
An endoscopic study," Gastroenterology, 96:656661, 1989.
Katz et al., "Gastric acidity and acid breakthrough
with twice-daily omeprazole or iansoprazole,"
Aliment. Pharmacol. Ther., 14:709-714, 2000.
Keeling et al., "SK&F 96067 is a reversible,
lumenally acting inhibitor of the gastric (H++K+)ATPase," Biochemical Pharmacology, 42(1):123130, 1991.
Kephart et al., "Coprescribing of nonsteroidal antiinflammatory drugs and cytoprotective and
antiulcer drugs in Nova Scotia's senior
populations," Clin. Ther., 17:1159-1173, 1995.
Kimmey et al., "Role of H2-receptor blockers in the
prevention of gastric injury resulting from
nonsteroidal anti-inflammatory agents," Am. J
Med., 84:49-52, 1988.
Kitchingman et al., "Enchanced gastric mucosal
bleeding with doses of aspirin used for prophylaxis
and its reduction by rantidine," Br. J Clin.
Pharmac., 28:581-585, 1989.
Konturek et al., "Effects of omeprazole, a
substituted benzimidazole, on gastrointestinal
secretions, serum gastrin, and gastric mucosal
blood flow in dogs," Gastroenterology, 86(1): 71-77,
1984.
Lad et al., "Management of nonsteroidal antiinflammatory
drug-induced
gastroduodenal

214a
disease
by
acid
suppression,"
Can.
J
Gastroenterol., 13:135-142, 1999.
Lana,
"Prevention
of
aspirin-induced
gastroduodenal damage: H pylori infection
eradication versus proton pump inhibitors or
both," Digestive and Liver Disease, 36:655-657,
2004.
Lanza et al., "A double-blind placebo-controlled
comparison of the efficacy and safety of 50, 100,
and 200 g of misoprostol QID in the prevention of
ibuprofen-induced gastric and duodenal mucosal
lesions and symptoms," Am. J Gastroenterol.,
84(6):633-636, 1989.
Lanza et al., "Double-blinded, placebo-controlled
endoscopic comparison of the mucosal protective
effects of misoprostol versus cimetidine on
tolmetin-induced injury to the stomach and
duodenum," Gastroenterology, 95:289-294, 1988.
Larsson et al., "Animal pharmadynamics of
omeprazole. A survey of its pharmacological
properties in vivo," Scand J Gastroenterol Suppl.,
108:23-35, 1985.
Lee et al., "Omeprazole prevents indomethacininduced gastric ulcers in rabbits" Aliment.
Pharmacol. Ther., 10:571-576, 1996.
Leese et al., "Effects of celecoxib, a novel
cyclooxygenase-2 inhibitor, on platelet function in
healthy Adults: A randomized, controlled trial," J
Clin. Pharmacol., 40:124-132, 2000.
Leonards and Levy, "Reduction or prevention of
aspirin-induced occult gastrointestinal blood loss
in man," Clinical Pharmacology and Therapeutics,
10(4):571-5, 1969.

215a
Letter to European Patent Office for counterpart
European Application No. 02 734 602.2, regarding
Oral Proceedings dated Dec. 18, 2009.
Lichtenberger et al., "Nonsteroidal antiinflammatory drug and phospholipid prodrugs:
combination therapy with antisecretory agents in
rats," Gastroentereology, 111:990-995, 1996.
Lin and Lu, "Role of pharmacokinetics and
metabolism in drug discovery and development,"
Pharmacological Reviews, 49(4):403-449, 1997.
Maggi et al., "Press-coated tablets for the
sequential pulsed administration of two different
drugs," Int. J Pharm., 99: 173-179, 1993.
Mason and Winer, "Kinetics of aspirin, salicylic
acid, and salicyclic acid, and salicyluric acid
following oral administration of aspirin as a tablet
and two buffered solutions," Journal of
Pharmaceutical Sciences, 70(3):262-5, 1981.
Mattsson et al., "Omeprazole provides protection
against experimen-tally induced gastric mucosal
lesions," Eur. J Pharmacol., 91: 111-114, 1983.
Morris et al., "Gastric cytoprotection is secondary
to increased mucosal fluid secretion: A study of six
cytoprotective agents in the rat," J Clin.
Gastroenterol., 27(Suppl. l):S53-63, 1998.
Morrison et al., "The optimal analgesic dose of
rofecoxib: overview of six randomized controlled
trials," JADA, 131: 1729-1737, 2000.
Muller et al., "Untersuchungen zur schutzwirkung
von
lansoprazol
auf
die
menschliche
magenschleirnhaut gegenuber niedrig dosierter
acetylsalicylsaure,"
Arzneimittel
Forschung,
47:758-760, 1997.

216a
Muller et al., "Verbesserung der gastroduodenalen
vertraglichkeit von azetylsalizylsaure durch
ranitidine," Arzneimittel-Forschung/ Drug Res.,
41(1):638-639, 1991.
Naesdal et al., "Gastro-duodenal protection in an
era of cyclooxygenase-2-selective nonsteroidal
anti-inflammatory drugs," European Journal of
Gastroenterology & Hepatology, 13(12):1401-1406,
2001.
Nefesoglu et al., "Interaction of omeprazole with
enteric-coated Salicylate tablets," International
Journal
of
Clinical
Pharmacology
and
Therapeutics, 36(10):549-553, 1998.
Neuvonen and Kivisto, "Enhancement of drug
absorption by antacids," Clin. Pharmacokinet.,
27(2):120-8, 1994.
Notice of Opposition to a European Patent,
submitted against European Patent application
No. EP 1411 900 on Apr. 15, 2011.
Notice of Opposition to a European Patent,
submitted against European Patent application
No. EP 1 411 900 on Apr. 20, 2011.
Oddsson et al., "Comparison between ranitidine
and
omeprazole
for
protection
against
gastroduodenal damage caused by naproxen,"
Scand. J Gastroenterol., 27: 1045-1048, 1992.
Oddsson et al., "Endoscopic findings in the
stomach and duodenum after treatment with
enteric-coated and plain naproxen tablets in
healthy subjects," Scand. J Gastroenterol., 25:231234, 1990.
Office Communication, issued in Canadian Patent
Application No. 2,449,098, dated Nov. 6, 2008.

217a
Office Communication, issued in European Patent
Application No. 02 734 602.2, dated Jun. 30, 2008.
Office Communication, issued in European Patent
Application No. 02 734 602.2, dated Dec. 18, 2007.
Office Communication, issued in European Patent
Application No. 10 177 150.9, dated Nov. 12, 2010.
Office Communication, issued in Israeli Patent
Application No. 159129, dated Aug. 22, 2010.
(English translation).
Office Communication, issued in Israeli Patent
Application No. 159129, dated Feb. 16, 2010.
(English translation).
Office Communication, issued in Israeli Patent
Application No. 159129, dated Jul. 7, 2009.
(English translation).
Office Communication, issued in Israeli Patent
Application No. 159129, dated Aug. 8, 2007.
(English translation).
Office Communication, issued in Japanese Patent
Application No. 2003-501394, dated Jan. 5, 2010.
(English translation).
Office Communication, issued in U.S. Appl. No.
10/158,216, dated Apr. 22, 2004.
Office Communication, issued in U.S. Appl. No.
10/158,216, dated Oct. 20, 2004.
Office Communication, issued in U.S. Appl. No.
11/129,320, dated Oct. 25, 2010.
Office Communication, issued in U.S. Appl. No.
11/129,320, dated Nov. 19, 2009.
Office Communication, issued in U.S. Appl. No.
11/129,320, dated Mar. 30, 2009.
Office Communication, issued in U.S. Appl. No.
11/129,320, dated Sep. 22, 2008.

218a
Office Communication, issued in U.S. Appl. No.
11/129,320, dated Jun. 16, 2011.
Office Communication, issued in U.S. Appl. No.
11/129,320, dated Jan. 17, 2012.
Okabe et al., "Antisecretory effect of leminoprazole
on histamine-stimulated gastric acid secretion in
dogs: potent local effect," Jpn. J Pharmacol.,
96:91-100, 1995.
Okabe et al., "Pharmacological regulation of
gastric acid secretion in the apical membrane of
parietal cells; a new target for antisecretory
drugs," Journal of Physiology and Pharmacology,
52(4):639-656, 2001.
Panara et al., "Effects of the novel antiinflammatory compounds, N-[2-(cyclohexyloxy )-4nitrophenyl] methanesulphonamide (NS-398) and
5-methanesul-phonamido-6-(2,4-difluorothiophenyl)-1-inda none (L-745,337), on the cyclooxygenase activity of human blood prostaglandin
endoperoxide synthases," British Journal of
Pharmacology, 116:2429-2434, 1995.
Pang et al., "Modeling of intestinal drug
absorption: roles of transporters and metabolic
enzymes (for the Gillette review series)" Drug
Metabolism and Disposition, 31(12): 1507-1519,
2003.
Patrono et al., "Low-dose aspirin for the
prevention of Atherothrombosis," New Eng. J
Med., 353:2373-2383, 2005.
PCT International Preliminary Examination
Report, issued in Inter-national Application No.
PCT/US02/17105, dated May 7, 2003.

219a
PCT International Preliminary Report on
Patentability issued in International Application
No. PCT/US2009/003281, dated Nov. 30, 2010.
PCT International Search Report issued in
International Application No. PCT/USl10/39864,
dated Aug. 30, 2010.
PCT Written Opinion issued in International
Application No. PCT/US10/39864, dated Aug. 30,
2010.
Petersen, "Doubts are raised on the safety of 2
popular arthritis drugs," NY Times, p. C1,
Published May 22, 2001.
Pilbrant et al., "Development of an oral
formulation
of
omeprazole,"
Scand.
J
Gastroenterol., 20(Suppl. 109):113-120, 1985.
Porter S.C., "Coating of Pharmaceutical Dosage
Forms," in: A. Gennaro (Ed.), Remington: the
Science and Practice of Pharmacy, 19th edition.
1650-1651, 1995.
Press Release for Vimovo, Oct. 16, 2009.
(Document D14 from Letter to European Patent
Office for counterpart European Applica-tion No.
02 734 602.2, regarding Oral Proceedings dated
Dec. 18, 2009).
Primohamed et al., "Adverse drug reactions as
cause of admission to hospital: prospective
analysis of 18,820 patients," Br. Med. J., 329:1519, 2004.
Qureshi et al., "Pharmacokinetics of two entericcoated ketoprofen products in humans with or
coadministration of omeprozole and comparison
with dissolution findings," Pharmaceutical
Research, 11(11):1669-1672, 1994.

220a
Raskin et al., "Misroprostol dosage in the
prevention of nonsteroidal anti-inflammatory
drug-induced gastric and duodenal ulcers: a
comparison of three regimens," Ann. Intern. Med.,
123(5):344-350, 1995.
Remington's Pharmaceutical Sciences, 17th ed.,
University of Sciences in Philadelphia, 1985.
Reply to EPO communication of Apr. 29, 2010,
dated May 10, 2010 (German and French
translation of claims omitted).
Richardson et al., "Proton pump inhibitors,
pharmacology and rationale for use in
gastrointestinal disorders," Drugs, 5693):307-35,
1998.
Robinson
et
al.,
"Effects
of
ranitidine
gastroduodenal mucosal damage induced by
nonsteroidal anti-inflammatory drugs," Dig. Disc.
Sci., 34(3):424-428, 1989.
Roche Naproxen EC label, copyright 1999.
Roth et al., "Cimetidine therapy in nonsteroidal
anti-inflammatory drug gastropathy: double-blind
long-term evaluation," Arch. Intern. Med.,
147:1798-1801, 1987.
Rubinstein, "Gastrointestinal anatomy physiology
and permeation pathways," Enhancement in Drug
Discovery, CRC Press, 3-35, 2007.
Sangiah et al., "Effects of misoprostol and
omeprazole on basal gastric pH and free acid
content in horses," Res. Vet. Sci., 47(3):350-354,
1989.
Savarino et al., "Effect of one-month treatment
with nonsteroidal anti-inflammatory drugs
(NSAIDs) on gastric pH of rheumatoid arthritis

221a
patients," Digestive Diseases and Sciences, 43:459463, 1998.
Scheiman et al., "Omeprazole ameliorates aspirininduced gastroduondenal injury," Digestive
Diseases and Sciences, 39(1):97-103, 1994.
Scheiman, "NSAID-induced peptic ulcer disease: a
critical review of pathogenesis and management,"
Dig. Dis., 12:210-222, 1994.
Scheiman, "Pathogensis of gastroduodenal injury
due to nonsteroidal and anti-inflammatory drug:
Implications for prevention and therapy,"
Seminars in Arthrisits and Rheumatism,
2194):259-268, 1992.
Scott and Sundell, "Inhibition of H+K+ ATPase by
SCH 28080 and SCH 32651," European Journal of
Pharmacology, 112:268-270, 1985.
Seitz et al., "Tablet Coating," The Theory and
Practice of Industrial Pharmacy. Eds. Leon
Lachman, Herbert A. Lieberman and Joseph L.
Kanig. Philadelphia: Lea & Febiger, 1986, pp. 346373.
Selway, "Potential hazards of long-term acid
suppression," Scand. J Gastroenterol., 25(Suppl.
178):85-92, 1990.
Sharma et al., "Comparison of 24-hour intragastric
pH using four liquid formulations of lansoprazole
and omerprazole," Am. J Health-Syst. Pharm.,
56(Suppl. 4):S18-21, 1999.
Silverman, The Organic Chemistry of Drug Design
and Drug Action, 2nd Edition, Academic Press, p.
102 & p. 527, 2004.
Silverstein et al., "Gastrointestinal toxicity with
Celecoxib versus nonsteroidal anti-inflammatory
drugs for osteoarthritis and rheumatoid arthritis;

222a
the CLASS study: A randomized controlled trial,"
JAMA, 284: 1247-1255, 2000.
Silverstein et al., "Misoprostol reduces serious
gastrointestinal complications in patients with
rheumatoid arthritis receiving nonsteroidal antiinflammatory drugs," Ann. Intern. Med.,
123(4):241-249, 1995.
Simon et al., "Schutzwirkung von omeprazol
genguber niedrig dosierter acetylsalicylsaure,"
Arzneimittel Forschung, 45:701-703, 1995.
Summons to Attend Oral Proceedings Pursuant to
Rule 11691): EPC, dated Sep. 3, 2009, issued in
European Patent Application No. 02, 734 602.2.
Sung, "Management of nonsteroidal antiimflammatory drug-related peptic ulcer bleeding,"
Am. J Med., 110(1A): 29S-32S, 2001.
Office Communication issued in Norwegian Patent
Application No. 20035275, dated Jul. 14, 2011.
(Translataion).
Tronstad et al., "Gastroscopic findings after
treatment with enteric-coated and plain naproxen
tablets in healthy subjects," Scand. J
Gastroenterol., 20:239-242, 1985.
Vane et al., "The future of NSAID therapy:
selective COX-2 inhibitors," 1JCP, 54(1):7-9,
Jan./Feb. 2000.
von Unge et al., "Stereochemical assignment of the
enantiomers of omeprazole from X-ray anaylysis of
a fenchyloxymethyl derivative of (+)-(R)omeprazole," Tetrahedron, 8(12):1967-1970, 1997.
Wagner et al., "Effects of nonsteroidal antiinflammatory drugs on ulcerogensis and gastric
secretion in pylorus-ligated rat," Digestive
Diseases and Sciences, 40: 134-140, 1995.

223a
Wakitani et al., "Profile of JTE-522 as a human
cyclooxygenase-2 inhibitor," Jpn. J Pharmacol.,
78:365-371, 1998.
Wallmark et al., "The relationship between gastric
acid secretion and gastric H+, K+-ATPase activity,"
J Biol. Chem., 260(25): 13681-13684, 1985.
Warner et al., "Nonsteroidal drug selectives for
cyclo-oxygenase-1 rather than cyclo-oxygenase-2
are associated with human gastrointestinal
toxicity: a full in vitro analysis," Proc. Natl. Acad.
Sci. USA, 96:7563-7568, 1999.
Wolfe et al., "Acid suppression: optimizing therapy
for
gastroduodenal
ulcer
healing,
gastroesophageal reflux disease, and stress related
erosive syndrome," Gastroenterology, 18(2):S9S31, 2000.
Wolfe et al., "Gastrointestinal toxicity of
nonsteroidal anti-inflammatory drugs," N Engl. J
Med., 340: 1888-1899, 1999.
Yeomans et al., "A comparison of omeprazole with
rantidine for ulcers associated with nonsteroidal
anti-inflammatory drugs," N Engl. J Med.,
338:719-726, 1998.
Yeomans et al., "New data on healing of
nonsteroidal anti-inflammatory drug-associated
ulcers and erosions," Am. J Med., 104: 56S-6Ss,
1998.
Office Communication issued in Egyptian Patent
Application No. 2121/2011, dated Apr. 13, 2013.
(English summary of Arabic text).
Bajbouj et al., "A prospective multicenter clinical
and endoscopic follow-up study of patient with
gastroesophageal
reflux
disease,"
Z.
Gastroenterol., 43:1303-1307, 2005.

224a
Chen et al., "Esomeprazole tablet vs. omeprazole
capsule in treating erosive esophagitis," World
Journal of Gastroenterology, 11(20):3112-3117,
2005.
Fass, "Erosive Esophagitis and Nonerosive Reflux
Disease (NERD): Comparison of Epidemiologic,
Physiologic, and Therapeutic Characteristics," J
Clin. Gastroenterol., 41(2):131-137, 2007.
Goldstein et al., "PA32540 (Enteric-coated aspirin
325 mg + immediate-release omeprazole 40mg) is
associated with significantly fewer gastric ulcers
and significantly less endoscopic erosive
esophagitis than enteric-coated aspirin (EC-ASA)
alone: Results of two phase 3 studies," The
American Journal of Gastroenterology, vol. 107,
Suppl. 1, pp. S53-S54, 2012.
Johnson et al., "Esomeprazole once daily for 6
months is effective therapy for maintaining healed
erosive
esophagitis
and
for
controlling
gastroesophageal reflux disease symptoms: A
randomized,
double-blind,
placebo-controlled
study of efficacy and safety," The American
Journal of Gastroenterology, 96(1):27-34, 2001.
Labenz et al., "Risk factors for erosive esophagitis:
A multivariate analysis based on the proGERD
study
initiative,"
American
Journal
of
Gastroenterology, 99: 1652-1656, 2004.
Miner et al., "PA32540, a tablet containing entericcoated (EC) aspirin 325 mg and unbuffered
immediate-release omeprazole 40 mg, provides
percent time gastric pH >4 significantly less than
EC omeprazole 40 mg, but with faster onset and
less exposure to omeprazole," Gastroenterology,
vol. 142, Issue 5, Supplement 1, p. S-3, 2012.

225a
Taha et al., "Famotidine for the prevention of
peptic ulcers and oesophagitis in patients taking
low-dose aspirin (FAMOUS): a phase III,
randomized,
double-blind,
placebo-controlled
trial," Lancet, 374: 119-25, 2009.
Yeomans et al., "Efficacy of esomeprazole (20 mg
once daily) for reducing the risk of gastroduodenal
ulcers associated with continuous use of low-dose
aspirin," American Journal of Gastroenterology,
103:1-9, 2008.
* cited by examiner
Primary Examiner - Nissa Westerberg
(74) Attorney, Agent, or Firm - Parker Highlander
PLLC
(57)

ABSTRACT

The present invention is directed to drug dosage
forms that release an agent that raises the pH of
a patient's gastrointestinal tract, followed by a
non-steroidal anti-inflammatory drug. The
dosage form is designed so that the NSAID is not
released until the intragastric pH has been
raised to a safe level. The invention also
encompasses methods of treating patients by
administering
this
coordi-nated
release,
gastroprotective,
antiarthritic/anal-gesic
combination unit dosage form to achieve pain and
symptom relief with a reduced risk of developing
gastrointestinal damage such as ulcers, erosions
and hemorrhages.
4 Claims, 2 Drawing Sheets

226a

227a

228a

229a
PHARMACEUTICAL COMPOSITIONS FOR
THE COORDINATED DELIVERY OF
NSAIDS
CROSS REFERENCE TO RELATED
APPLICATIONS
The present application is a divisional of U.S.
application Ser. No. 12/553,804 filed Sep. 3, 2009,
now abandoned which is a divisional of U.S.
application Ser. No. 11/129,320 filed May 16, 2005,
issued as U.S. Pat. No. 8,206,741 on Jun. 26, 2012
which is a continuation-in-part of U.S. application
Ser. No. 10/158,216, filed on May 31, 2002, issued
as U.S. Pat. No. 6,926,907 on Aug. 9, 2005, which
claims the benefit of U.S. provisional application
No. 60/294,588, filed on Jun. 1, 2001. The entire
contents of all applications are hereby
incorporated by reference.
FIELD OF THE INVENTION
The present invention is directed to
pharmaceutical compositions that provide for the
coordinated release of an acid inhibitor and a nonsteroidal anti-inflammatory drug (NSAID). These
compositions have a reduced likelihood of causing
unwanted side effects, especially gastrointestinal
side effects, when administered as a treatment for
pain, arthritis and other conditions amenable to
treatment with NSAIDs.

230a
BACKGROUND OF THE INVENTION
Although non-steroidal anti-inflammatory
drugs are widely accepted as effective agents for
controlling pain, their administration can lead to
the development of gastroduodenal lesions, e.g.,
ulcers and erosions, in susceptible individuals. It
appears that a major factor contributing to the
development of these lesions is the presence of acid
in the stomach and upper small intestine of
patients. This view is supported by clinical studies
demonstrating an improvement in NSAID
tolerability when patients are also taking
independent doses of acid inhibitors (Dig. Dis.
12:210-222 (1994); Drug Safety 21:503-512 (1999);
Aliment. Pharmacol. Ther. 12:135-140 (1998); Am.
J. Med. 104(3A):67S-74S (1 998); Clin. Ther. 17:1
159-1173 (1995)). Other major factors contributing
to NSAID-associated gastropathy include a local
toxic effect of NSAIDs and inhibition of protective
prostaglandins (Can. J. Gastro-enterol. 13:135-142
(1999) and Pract. Drug Safety 21:503-512, (1999)),
which may also make some patients more
susceptible to the ulcerogenic effects of other
noxious stimuli.
In general, more potent and longer lasting acid
inhibitors, such as proton pump inhibitors, are
thought to be more protective during chronic
administration of NSAIDs than shorter acting
agents, e.g., histamine H2 receptor antagonists (H2 blockers) (N. Eng. J. Med. 338:719-726 (1998);
Am. J. Med. 104(3A):56S-61S (1998)). The most
likely explanation for this is that gastric pH

231a
fluctuates widely throughout the dosing interval
with short acting acid inhibitors leaving the
mucosa vulnerable for significant periods of time.
In particular, the pH is at its lowest point, and
hence the mucosa is most vulnerable, at the end of
the dosing interval (least amount of acid
inhibition) and for some time after the subsequent
dose of acid inhibitor. In general, it appears that
when a short acting acid inhibitor and an NSAID
are administered simultaneously, NSAID-related
mucosal damage occurs before the pH of the
gastrointestinal tract can be raised and after the
acid inhibiting effect of the short acting acid
inhibitor dissipates.
Although longer lasting agents, such as proton
pump inhibitors (PPls), usually maintain a
consistently higher gastroduodenal pH throughout
the day, their antisecretory effect may be delayed
for several hours and may not take full effect for
several days (Clin. Pharmacokinet. 20:38-49
(1991)). Their effect may be diminished toward the
end of the usual dosing interval. Intragastric pH
rises particularly slowly with the first dose in a
course of treatment since this class of drugs is
enteric coated to avoid destruction by stomach
acid. As a result, absorption is delayed for several
hours. Even then, some patients fail to respond
consistently to drugs of this type and suffer from
"acid breakthrough" which again leaves them
vulnerable to NSAID-associated gastroduo-denal
damage (Aliment. Pharmacol. Ther. 14:709-714
(2000)). Despite a significant reduction in
gastroduodenal lesions with the concomitant

232a
administration of a proton pump inhibitor during
six months of NSAID therapy, up to 16% of
patients still develop ulcers, indicating that there
remains substantial room for improvement (N.
Eng. J. Med. 338:727-734 (1998)). Thus, the
addition of a pH sensitive enteric coating to an
NSAID could provide additional protection against
gastroduodenal damage not provided by the H2
blocker or PPI alone. In addition, although long
acting acid inhibitors may reduce the risk of GI
lesions in chronic NSAID users, there are
questions about the safety of maintaining an
abnormally elevated pH in a patient's GI tract for
a prolonged period of time (Scand. J.
Gastroenterol. Suppl. 178:85-92 (1990)).
Recognizing the potential benefits of PPIs for
the prevention of NSAID-induced gastroduodenal
damage, others have disclosed strategies for
combining the two active agents for therapeutic
purposes. However, these suggestions do not
provide for coordinated drug release or for
reducing intragastric acid levels to a non-toxic
level prior to the release of NSAID (U.S. Pat. No.
5,204,118; U.S. Pat. No. 5,417,980; U.S. Pat. No.
5,466,436; and U.S. Pat. No. 5,037,815). In certain
cases, suggested means of delivery would expose
the gastrointestinal tract to NSAIDs prior to onset
of PPI activity (U.S. Pat. No. 6,365,184).
Attempts to develop NSAIDs that are
inherently less toxic to the gastrointestinal tract
have met with only limited success. For example,
the recently developed cyclooxygenase-2 (COX-2)

233a
inhibitors show a reduced tendency to produce
gastrointestinal ulcers and erosions, but a
significant risk is still present, especially if the
patient is exposed to other ulcerogens (JAMA
284:1247-1255 (2000); N. Eng. J. Med. 343:15201528 (2000)). In this regard, it appears that even
low doses of aspirin will negate most of the benefit
relating to lower gastrointestinal lesions. In
addition, the COX-2 inhibitors may not be as
effective as other NSAIDs at relieving some types
of pain and have been associated with significant
cardiovascular problems (JADA 131:1729-1737
(2000); SCRIP 2617, pg. 19, Feb. 14, 2001); NY
Times, May 22, 2001, pg. C1)).
Other attempts to produce an NSAID therapy
with less gastrointestinal toxicity have involved
the concomitant administration of a cytoprotective
agent. In 1998, Searle began marketing
Arthrotec™ for the treatment of arthritis in
patients at risk for developing GI ulcers. This
product contains misoprostol (a cytoprotective
prostaglandin) and the NSAID diclofenac.
Although patients administered Arthrotec™ do
have a lower risk of developing ulcers, they may
experience a number of other serious side effects
such as diarrhea, severe cramping and, in the case
of pregnant women, potential damage to the fetus.
Another approach has been to produce enteric
coated NSAID products. However, even though
these have shown modest reductions in
gastroduodenal damage in short term studies
(Scand. J. Gastroenterol. 20: 239-242 (1985) and

234a
Scand. J. Gastroenterol. 25:231-234 (1990)), there
is no consistent evidence of a long term benefit
during chronic treatment.
Overall, it may be concluded that the risk of
inducing GI ulcers is a recognized problem
associated with the administration of NSAIDs and
that, despite considerable effort, an ideal solution
has not yet been found.
SUMMARY OF THE INVENTION
The present invention is based upon the
discovery of a new method for reducing the risk of
gastrointestinal side effects in people taking
NSAIDs for pain relief and for other conditions,
particularly during chronic treatment. The
method involves the administration of a single,
coordinated, unit-dose product that combines: a)
an agent that actively raises intragastric pH to
levels associated with less risk of NSAID-induced
ulcers; and b) an NSAID that is specially
formulated to be released in a coordinated way
that minimizes the adverse effects of the NSAID
on the gastroduodenal mucosa. Either short or
long acting acid inhibitors can be effectively used
in the dosage forms. This method has the added
benefit of being able to protect patients from other
gastrointestinal ulcerogens whose effect may
otherwise be enhanced by the disruption of
gastroprotective prostaglandins due to NSAID
therapy.

235a
In its first aspect, the invention is directed to
a pharmaceutical composition in unit dosage form
suitable for oral administration to a patient. The
composition contains an acid inhibitor present in
an amount effective to raise the gastric pH of a
patient to at least 3.5, preferably to at least 4, and
more preferably to at least 5, when one or more
unit dosage forms are administered. The gastric
pH should not exceed 7.5 and preferably should not
exceed 7.0. The term “acid inhibitor” refers to
agents that inhibit gastric acid secretion and
increase gastric pH. In contrast to art teaching
against the use of H2 blockers for the prevention
of NSAID-associated ulcers (N. Eng. J. Med.
340:1888-1899 (1999)), these agents are preferred
compounds in the current invention. Specific H2
blockers that may be used include cimetidine,
ranitidine, ebrotidine, pabutidine, lafutidine,
loxtidine or famotidine. The most preferred acid
inhibitor is famotidine present in dosage forms in
an amount of between 5 mg and 100 mg.
Other preferred agents that may be effectively
used as acid inhibitors are the proton pump
inhibitors such as omeprazole, esomeprazole,
pantoprazole,
lansoprazole,
rabeprazole,
pariprazole, leminoprazole and tenatoprazole.
Examples of particular proton pump inhibitors
include omeprazole, present in unit dosage forms
in an amount of between 5 mg and 50 mg;
lansoprazole, present in unit dosage forms in an
amount of between 5 mg and 150 mg (and
preferably at between 5 mg and 30 mg); and
pantoprazole, present in unit dosage forms in an

236a
amount of between 10 mg and 200 mg. Recently, a
newer class of acid inhibitor has been developed
which competes with potassium at the acid pump.
The compounds in this class have been referred to
as “reversible proton pump inhibitors” or “acid
pump antagonists” and may also be used in the
present invention. Examples include AZD-0865,
AR-H047108, CS-526, pumaprazole, revaprazan
and
soraprazan
(see
WO9605177
and
WO9605199). Other compounds in this group are
H-335/25 (AstraZeneca, Dialog file 128, accession
number 020806); Sch-28080 (Schering Plough,
Dialog file 128, accession number 009663); Sch32651 (Schering Plough, Dialog file 128, accession
number 006883) and SK&F-96067 (CAS Registry
no. 115607-61-9).
The pharmaceutical composition also contains
a non-steroidal anti-inflammatory drug in an
amount effective to reduce or eliminate pain or
inflammation. The NSAID may be celecoxib,
rofecoxib, lumiracoxib, valdecoxib, parecoxib,
etoricoxib, CS-502, JTE-522, L-745,337, NS398,
aspirin, acetaminophen (considered to be an
NSAID for the purposes of the present invention),
ibuprofen, flurbiprofen, ketoprofen, naproxen,
oxaprozin, etodolac, indomethacin, ketorolac,
lornoxicam, meloxicam, piroxicam, droxicam,
tenoxicam,
nabumetone,
diclofenac,
meclofenamate, mefenamic acid, diflunisal,
sulindac,
tolmetin,
fenoprofen,
suprofen,
benoxaprofen, aceclofenac, tolfenamic acid,
oxyphenbutazone,
azapropazone,
and
phenylbutazone. The most preferred NSAID is

237a
naproxen in an amount of between 50 mg and 1500
mg, and more preferably, in an amount of between
200 mg and 600 mg. It will be understood that, for
the purposes of the present invention, reference to
an acid inhibitor, NSAID, or analgesic agent will
include all of the common forms of these
compounds
and,
in
particular,
their
pharmaceutically acceptable salts. The amounts of
NSAIDs which are therapeutically effective may
be lower in the current invention than otherwise
found in practice due to potential positive kinetic
interaction and NSAID absorption in the presence
of an acid inhibitor.
Preferably, the pharmaceutical composition of
the present invention is in the form of a tablet or
capsule that has: (a) the acid inhibitor present in
an amount effective to raise the gastric pH of a
patient to at least 3.5 upon the administration of
one or more unit dosage forms; and (b) the nonsteroidal anti-inflammatory drug (NSAID) present
in an amount effective to reduce or eliminate pain
or inflammation in a patient upon administration
of one or more of said unit dosage forms. The
NSAID in the dosage form should be in a core,
preferably a single core when tablets are used, that
is surrounded by a coating that does not release
NSAID until the pH of the surrounding medium is
3.5 or higher. In the case of capsules, there may be
several cores of NSAID, i.e., there may be multiple
particles, each being surrounded by a coating that
does not release NSAID until the pH of the
surrounding medium is 3.5 or higher. The acid
inhibitor is in one or more layers outside of the core

238a
which do not contain any NSAID. These layers are
not surrounded by an enteric coating and, upon
ingestion of the tablet or capsule by a patient,
release the acid inhibitor into the patient's
stomach.
The term “unit dosage form” as used herein
refers to a single entity for drug administration.
For example, a single tablet or capsule combining
both an acid inhibitor and an NSAID would be a
unit dosage form. A unit dosage form of the present
invention preferably provides for coordinated drug
release in a way that elevates gastric pH and
reduces the deleterious effects of the NSAID on the
gastroduodenal mucosa, i.e., the acid inhibitor is
released first and the release of NSAID is delayed
until after the pH in the GI tract has risen.
In a preferred embodiment, the unit dosage
form is a multilayer tablet, having an outer layer
comprising the acid inhibitor and an inner core
which comprises the NSAID. In the most preferred
form, coordinated delivery is accomplished by
having the inner core surrounded by a polymeric
barrier coating that does not dissolve unless the
surrounding medium is at a pH of at least 3.5,
preferably at least 4 and more preferably, at least
5. Alternatively, a barrier coating may be
employed which controls the release of NSAID by
time, as opposed to pH, with the rate adjusted so
that NSAID is not released until after the pH of
the gastrointestinal tract has risen to at least 3.5,
preferably at least 4, and more preferably at least
5. Thus, a time-release formulation may be used to

239a
prevent the gastric presence of NSAID until
mucosal tissue is no longer exposed to the damage
enhancing effect of very low pH.
One NSAID of special interest in dosage forms
is aspirin which not only provides relief from pain
and inflammation but may also be used in low
doses by patients to reduce the risk of stroke, heart
attack and other conditions. Thus, pharmaceutical
compositions may contain an acid inhibitor in
combination with aspirin in an amount effective,
upon the administration of one or more unit dosage
forms, to achieve any of these objectives. As with
the compositions described above the unit dosage
form can be a tablet or capsule in which aspirin is
present in a core and is surrounded by a coating
that does not release the aspirin until the pH of the
surrounding medium is 3.5 or higher. The acid
inhibitor is in one or more layers outside the core,
which do not include an NSAID, are not
surrounded by an enteric coating; and, upon
ingestion of the dosage form by a patient, release
the acid inhibitor into the patient's stomach. Any
of the acid inhibitors described herein may be used
in the aspirin-containing dosage foams. In dosage
forms designed for providing low dose aspirin
therapy to patients, the aspirin should typically be
present at 20-200 mg.
The invention includes methods of treating a
patient for pain, inflammation and/or other
conditions by administering the pharmaceutical
compositions described above. Although the
method may be used for any condition in which an

240a
NSAID is effective, it is expected that it will be
particularly useful in patients with osteoarthritis
or rheumatoid arthritis. Other conditions that may
be treated include, but are not limited to: all forms
of headache, including migraine headache; acute
musculoskeletal pain; ankylosing spondylitis;
dysmenorrhoea; myalgias; and neuralgias.
In a more general sense, the invention includes
methods of treating pain, inflammation and/or
other conditions by orally administering an acid
inhibitor at a dose effective to raise a patient's
gastric pH to at least 3.5, preferably to at least 4
or and more preferably to at least 5. The patient is
also administered an NSAID, for example in a
coordinated dosage form, that has been coated in a
polymer that only dissolves at a pH of at least 3.5,
preferably at least 4 and, more preferably, 5 or
greater or which dissolves at a rate that is slow
enough to prevent NSAID release until after the
pH has been raised. When acid inhibitor and
NSAID are administered in separate doses, e.g., in
two separate tablets, they should be given
concomitantly (i.e., so that their biological effects
overlap) and may be given concurrently, i.e.,
NSAID is given within one hour after the acid
inhibitor. Preferably, the acid inhibitor is an H2
blocker and, in the most preferred embodiment, it
is famotidine at a dosage of between 5 mg and 100
mg. Proton pump inhibitors may also be used and
offer advantages in terms of duration of action.
Any of the NSAIDs described above may be used
in the method but naproxen at a dosage of between
200 and 600 mg is most preferred. It is expected

241a
that the acid inhibitor and analgesic will be
typically delivered as part of a single unit dosage
form which provides for the coordinated release of
therapeutic agents. The most preferred dosage
form is a multilayer tablet having an outer layer
comprising an H2 blocker or a proton pump
inhibitor and an inner core comprising an NSAID.
The invention also provides a method for
increasing compliance in a patient requiring
frequent daily dosing of NSAIDs by providing both
an acid inhibitor and NSAID in a single
convenient, preferably coordinated, unit dosage
form, thereby reducing the number of individual
doses to be administered during any given period.
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 is a schematic diagram of a four layer
tablet dosage form. There is a naproxen core layer
surrounded by a barrier layer. A third, enteric
coating, layer delays the release of naproxen
sodium until the pH is at a specific level, e.g.,
above 4. Finally, there is an outer layer that
releases an acid inhibitor such as famotidine.
FIG. 2 illustrates a three layer dosage form.
An acid inhibitor, e.g., famotidine, is released
immediately after ingestion by a patient in order
to raise the pH of the gastrointestinal tract to
above a specific pH, e.g., above 4. The innermost
layer contains naproxen. Thus, the dosage form
has a naproxen core, an enteric film coat and an
acid inhibitor film coat.

242a
FIG. 3 illustrates a naproxen sodium pellet
which contains a subcoat or barrier coat prior to
the enteric film coat.
DETAILED DESCRIPTION OF THE
INVENTION
The present invention is based upon the
discovery
of
improved
pharmaceutical
compositions for administering NSAIDs to
patients. In addition to containing one or more
NSAIDs, the compositions include acid inhibitors
that are capable of raising the pH of the GI tract of
patients. All of the dosage forms are designed for
oral delivery and provide for the coordinated
release of therapeutic agents, i.e., for the
sequential release of acid inhibitor followed by
analgesic.
The NSAIDs used in preparations may be
either short or long acting. As used herein, the
term “long acting” refers to an NSAID having a
pharmacokinetic half-life of at least 2 hours,
preferably at least 4 hours and more preferably, at
least 8-14 hours. In general, its duration of action
will equal or exceed about 6-8 hours. Examples of
long-acting NSAIDs are: flurbiprofen with a halflife of about 6 hours; ketoprofen with a half-life of
about 2 to 4 hours; naproxen or naproxen sodium
with half-lives of about 12 to 15 hours and about
12 to 13 hours respectively; oxaprozin with a half
life of about 42 to 50 hours; etodolac with a halflife of about 7 hours; indomethacin with a half-life

243a
of about 4 to 6 hours; ketorolac with a half-life of
up to about 8-9 hours, nabumetone with a half-life
of about 22 to 30 hours; mefenamic acid with a
half-life of up to about 4 hours; and piroxicam with
a half-life of about 4 to 6 hours. If an NSAID does
not naturally have a half-life sufficient to be long
acting, it can, if desired, be made long acting by the
way in which it is formulated. For example,
NSAIDs such as acetaminophen and aspirin may
be formulated in a manner to increase their halflife or duration of action. Methods for making
appropriate formulations are well known in the art
(see e.g. Remington's Pharmaceutical Sciences,
16th ed., A. Oslo editor, Easton, Pa. (1980)).
It is expected that a skilled pharmacologist
may adjust the amount of drug in a
pharmaceutical composition or administered to a
patient based upon standard techniques well
known in the art. Nevertheless, the following
general guidelines are provided:
Indomethacin is particularly useful when
contained in tablets or capsules in an amount
from about 25 to 75 mg. A typical daily oral
dosage of indomethacin is three 25 mg doses
taken at intervals during the day. However,
daily dosages of up to about 150 mg are useful
in some patients.
Aspirin will typically be present in tablets or
capsules in an amount of between about 250 mg
and 1000 mg. Typical daily dosages will be in
an amount ranging from 500 mg to about 10 g.

244a
However, low dose aspirin present at 20-200
mg (and preferably 40-100 mg) per tablet or
capsule may also be used.
Ibuprofen may be provided in tablets or capsules
of 50, 100, 200, 300, 400, 600, or 800 mg. Daily
doses should not exceed 3200 mg. 200 mg-800
mg may be particularly useful when given 3 or
4 times daily.
Flurbiprofen is useful when in tablets at about
from 50 to 100 mg. Daily doses of about 100 to
500 mg, and particularly from about 200 to 300
mg, are usually effective.
Ketoprofen is useful when contained in tablets or
capsules in an amount of about 25 to 75 mg.
Daily doses of from 100 to 500 mg and
particularly of about 100 to 300 mg are typical
as is about 25 to 50 mg every six to eight hours.
Naproxen is particularly useful when contained in
tablets or capsules in an amount of from 250 to
500 mg. For naproxen sodium, tablets of about
275 or about 550 mg are typically used. Initial
doses of from 100 to 1250 mg, and particularly
350 to 800 mg are also used, with doses of
about 550 mg being generally preferred.
Oxaprozin may be used in tablets or capsules in
the range of roughly 200 mg to 1200 mg, with
about 600 mg being preferred. Daily doses of
1200 mg have been found to be particularly

245a
useful and daily doses should not exceed 1800
mg or 26 mg/kg.
Etodolac is useful when provided in capsules of 200
mg to 300 mg or in tablets of about 400 mg.
Useful doses for acute pain are 200-400 mg
every six-eight hours, not to exceed 1200
mg/day. Patients weighing less than 60 kg are
advised not to exceed doses of 20 mg/kg. Doses
for other uses are also limited to 1200 mg/day
in divided doses, particularly 2, 3 or 4 times
daily.
Ketorolac is usefully provided in tablets of 1-50
mg, with about 10 mg being typical. Oral doses
of up to 40 mg, and particularly 10-30 mg/day
have been useful in the alleviation of pain.
Nabumetone may be provided in tablets or
capsules of between 500 mg and 750 mg. Daily
doses of 1500-2000 mg, after an initial dose of
100 mg, are of particular use.
Mefenamic acid is particularly useful when
contained in tablets or capsules of 50 mg to 500
mg, with 250 mg being typical. For acute pain,
an initial dosage of 1-1000 mg, and
particularly about 500 mg, is useful, although
other doses may be required for certain
patients.
Lornoxicam is provided in tablets of 4 mg or 8 mg.
Useful doses for acute pain are 8 mg or 16 mg
daily, and for arthritis are 12 mg daily.

246a
Other NSAIDs that may be used include:
celecoxib, rofecoxib, meloxicam, piroxicam,
droxicam, tenoxicam, valdecoxib, parecoxib,
etoricoxib, CS-502, JTE-522, L-745,337, or NS398.
JTE-522, L-745,337 and NS398 as described, inter
alia, in Wakatani, et al. (Jpn. J. Pharmacol.
78:365-371 (1998)) and Panara, et al. (Br. J.
Pharmacol. 116:2429-2434 (1995)). The amount
present in a tablet or administered to a patient will
depend upon the particular NSAID being used.
For example:
Celecoxib may be administered in a tablet or
capsule containing from about 100 mg to about
500 mg or, preferably, from about 100 mg to
about 200 mg.
Piroxicam may be used in tablets or capsules
containing from about 10 to 20 mg.
Rofecoxib will typically be provided in tablets or
capsules in an amount of 12.5, 25 or 50 mg. The
recommended initial daily dosage for the
management of acute pain is 50 mg.
Meloxicam is provided in tablets of 7.5 mg, with a
recommended daily dose of 7.5 or 15 mg for the
management of osteoarthritis.
Valdecoxib is provided in tablets of 10 or 20 mg,
with a recommended daily dose of 10 mg for
arthritis or 40 mg for dysmenorrhea.

247a
With respect to acid inhibitors, tablets or
capsules may contain anywhere from 1 mg to as
much as 1 g. Typical amounts for H2 blockers are:
cimetidine, 100 to 800 mg/unit dose; ranitidine, 50300 mg/unit dose; famotidine, 5-100 mg/unit dose;
ebrotidine 400-800 mg/unit dose; pabutidine 40
mg/unit dose; lafutidine 5-20 mg/unit dose; and
nizatidine, 50-600 mg/unit dose. Proton pump
inhibitors will typically be present at about 5 mg
to 600 mg per unit dose. For example, the proton
pump inhibitor omeprazole should be present in
tablets or capsules in an amount from 5 to 50 mg,
with about 10 or 20 mg being preferred. Other
typical amounts are: esomeprazole, 5-100 mg, with
about 40 mg being preferred; lansoprazole, 5-150
mg (preferably 5-50 mg), with about 7.5, 15 or 30
mg being most preferred; pantoprazole, 10-200 mg,
with about 40 mg being preferred; and
rabeprazole, 5-100 mg, with about 20 mg being
preferred.
Making of Pharmaceutical Preparations
The pharmaceutical compositions of the
invention include tablets, dragees, liquids and
capsules and can be made in accordance with
methods that are standard in the art (see, e.g.,
Remington's Pharmaceutical Sciences, 16th ed., A
Oslo editor, Easton, Pa. (1980)). Drugs and drug
combinations will typically be prepared in
admixture with conventional excipients. Suitable
carriers include, but are not limited to: water; salt
solutions; alcohols; gum arabic; vegetable oils;

248a
benzyl alcohols; polyethylene glycols; gelatin;
carbohydrates such as lactose, amylose or starch;
magnesium stearate; talc; silicic acid; paraffin;
perfume oil; fatty acid esters; hydroxymethylcellulose; polyvinyl pyrrolidone; etc. The
pharmaceutical preparations can be sterilized and,
if desired, mixed with auxiliary agents such as:
lubricants,
preservatives,
disintegrants;
stabilizers; wetting agents; emulsifiers; salts;
buffers; coloring agents; flavoring agents; or
aromatic substances.
Enteric coating layer(s) may be applied onto
the core or onto the barrier layer of the core using
standard coating techniques. The enteric coating
materials may be dissolved or dispersed in organic
or aqueous solvents and may include one or more
of the following materials: methacrylic acid
copolymers, shellac, hydroxypropylmethcellulose
phthalate,
polyvinyl
acetate
phthalate,
hydroxypropylmethylcellulose
trimellitate,
carboxymethylethylcellulose, cellulose acetate
phthalate or other suitable enteric coating
polymer(s). The pH at which the enteric coat will
dissolve can be controlled by the polymer or
combination of polymers selected and/or ratio of
pendant groups. For example, dissolution
characteristics of the polymer film can be altered
by the ratio of free carboxyl groups to ester groups.
Enteric
coating
layers
also
contain
pharmaceutically acceptable plasticizers such as
triethyl citrate, dibutyl phthalate, triacetin,
polyethylene glycols, polysorbates or other
plasticizers. Additives such as dispersants,

249a
colorants, anti-adhering and anti-foaming agents
may also be included.
The Making of Tablet Dosage Forms
Preferably, the combination of an acid
inhibitor and an NSAID will be in the form of a bior multi-layer tablet. In a bilayer configuration,
one portion of the tablet contains the acid inhibitor
in the required dose along with appropriate
excipients, agents to aid dissolution, lubricants,
fillers, etc. The second portion of the tablet will
contain the NSAID, preferably naproxen, in the
required dose along with other excipients,
dissolution agents, lubricants, fillers, etc. In the
most preferred embodiment, the NSAID layer is
surrounded by a polymeric coating which does not
dissolve at a pH of less than 4. The NSAID may be
granulated by methods such as slugging, low- or
high-shear granulation, wet granulation, or
fluidized-bed granulation. Of these processes,
slugging generally produces tablets of less
hardness and greater friability. Low-shear
granulation,
high-shear
granulation,
wet
granulation
and
fluidized-bed
granulation
generally produce harder, less friable tablets.
EXAMPLES
Example 1
Enteric Coated Naproxen Sodium Core and
Famotidine Immediate Release

250a
A schematic diagram of a four layer tablet
dosage form is shown in FIG. 1. The first layer
contains naproxen sodium distributed throughout
a matrix of pharmaceutically acceptable fillers,
excipients, binding agents, disintegrants, and
lubricants.
The second layer is a barrier layer which
protects the first layer containing naproxen
sodium. The barrier film coat is applied by
conventional pan coating technology and the
weight of the barrier coat may vary from 1% to 3%
of the core tablet weight. In particular
embodiments, the core naproxen sodium tablet is
coated with coating ingredients such as
Opaspray® K-1-4210A or Opadry® YS-1-7006
(Colorcon, West Point, Pa.). Polymer film coating
ingredients such as hydroxypropylmethylcellulose
2910 and polyethylene glycol 8000 in a coating
suspension may also be used.
The function of the third layer is to prevent the
release of naproxen sodium until the dosage form
reaches an environment where the pH is above
about 4 or 5. The enteric coating does not dissolve
in areas of the GI tract where the pH may be below
about 4 or 5 such as in an unprotected stomach.
Methacrylic acid copolymers are used as the
enteric coating ingredient, triethyl citrate and
dibutyl phthalate are plasticizers, and ammonium
hydroxide is used to adjust the pH of the
dispersion. The coating dissolves only when the
local pH is above, for example, 5.5 and, as a result,
naproxen sodium is released.

251a
The outermost layer contains an “acid
inhibitor” in an effective amount which is released
from the dosage form immediately after
administration to the patient. The acid inhibitor in
the present example is a proton pump inhibitor or,
preferably the H2 blocker famotidine, which raises
the pH of the gastrointestinal tract to above 4. The
typical effective amount of famotidine in the
dosage form will vary from 5 mg to 100 mg. A
typical film coating formulation contains Opadry
Clear® YS-1-7006 which helps in the formation of
the film and in uniformly distributing famotidine
within the fourth layer without tablets sticking to
the coating pan or to each other during application
of the film coat. Other ingredients may include:
plasticizers such as triethyl citrate, dibutyl
phthalate, and polyethylene glycol; anti-adhering
agents such as talc; lubricating ingredients such as
magnesium stearate; and opacifiers such as
titanium dioxide. In addition, the pH of the film
coating solution can be adjusted to aid in
dissolution of the famotidine. The film coating is
thin and rapidly releases famotidine for
absorption.

252a
Core Tablet Ingredients
Naproxen sodium, USP
Microcrystalline cellulose,
NF (Avicel PH 200)
Povidone (K29/32), USP
Talc, USP
Magnesium Stearate, NF

% W/W
74.074
17.166

mg/Tablet
500.00
115.87

3.450
4.350
0.960

23.29
29.36
6.48

Total

100.00

675.00

Barrier Film Coating Ingredients
Opadry Clear ® YS-1-7006
Purified water USP
Total
Enteric Coating Dispersion
Ingredients
Methacrylic Acid Copolymer, NF
(Eudragit L-100-55)
Methacrylic Acid Copolymer, NF
(Eudragit L-100)
Triethyl Citrate, NF
Dibutyl Phthalate, NF
Ammonium Hydroxide (30%), NF
Purified water, USP
Total

% W/W
5.00
95.00
100.00
% W/W
7.30
7.30
2.95
1.17
0.87
80.41
100.00

253a
Famotidine Coating Dispersion
Ingredients
Famotidine, USP
Opadry Clear ® (YS-1-7006)
Talc, USP
Purified Water, USP
Total

% W/W
3.0
5.0
3.0
89.0
100.0

Example 2
Enteric Coated Naproxen Core and Famotidine
Immediate Release
FIG. 2 illustrates a three layered dosage form
which releases famotidine immediately after
ingestion by the patient in order to raise the pH of
the gastrointestinal tract to above about 4. The
innermost layer contains naproxen uniformly
distributed
throughout
a
matrix
of
pharmaceutically acceptable excipients. These
excipients perform specific functions and may
serve as binders, disintegrants, or lubricants. A
pharmaceutically acceptable enteric coating
surrounds the naproxen core. The function of the
enteric coat is to delay the release of naproxen
until the dosage form reaches an environment
where the pH is above about 4. The coating does
not dissolve in the harshly acidic pH of the
unprotected stomach. It contains methacrylic acid
copolymers which prevent the release of naproxen
in the unprotected stomach. Also included are:
triethyl citrate, a plasticizer; simethicone
emulsion, an anti-foaming agent; and sodium

254a
hydroxide which is used to adjust the pH of the
dispersion.
The outermost layer contains an “acid
inhibitor” in an effective amount which is released
from the dosage form immediately after
administration to the patient. The acid inhibitor in
this example is a proton pump inhibitor or,
preferably, the H2 blocker famotidine which raises
the pH of the stomach to above 4. A typical film
coating formulation contains Opadry Clear® YS-17006 which helps in the formation of the film and
in uniformly distributing famotidine in the fourth
layer without tablets sticking to the coating pan or
sticking to each other during application of the
film coat. Other ingredients are: plasticizers such
as polyethylene glycol 8000; anti-adhering agents
such as talc; lubricating ingredients such as
magnesium stearate; and opacifiers such as
titanium dioxide. In addition, the pH of the film
coating solution can be adjusted to aid in
dissolution of the famotidine. The film coating is
thin and rapidly releases famotidine for
absorption.
Core Tablet Ingredients
Naproxen, USP
Povidone K-90, USP
Starch, USP
Croscarmellose Sodium,
USP
Magnesium Stearate, NF
Total
Purified Water, USP qs

% W/W
90.91
2.00
2.59
4.00

mg/Tablet
500.00
11.00
14.25
22.00

0.50

2.75

100.00

550.00

255a
Enteric Coating Dispersion
Ingredients
Methacrylic Acid Copolymer Type
C, NF (Eudragit L-100-55)
Talc, USP
Sodium Hydroxide, NF
Triethyl Citrate, NF
Simethicone Emulsion, USP
Purified Water, USP
Total

% W/W
14.5
3.8
0.2
1.7
0.02
79.78
100.00

Famotidine Coating Dispersion
Ingredients
Famotidine, USP
Opadry Clear ® (YS-1-7006)
Talc, USP
Purified Water, USP
Total

% W/W
3.0
5.0
3.0
89.0
100.0

Example 3
Naproxen Controlled Release Core and
Famotidine Immediate Release
A trilayer tablet which separates famotidine
contained in the film coat from controlled-release
naproxen may be used in the present invention.
The core tablet of naproxen is formulated using
excipients which control the drug release for
therapeutic relief from pain and inflammation for
24 hours. FIG. 2 shows an example of an
appropriate trilayer tablet. In this particular

256a
example, naproxen is mixed with a polymeric
material, hydroxypropyl-methylcellulose and
granulated with water. The granules are dried,
milled, and blended with a lubricant, such as
magnesium stearate. They are then compacted
into tablets.
The controlled-release core tablet of naproxen
is film coated with a pharmaceutically acceptable
enteric coating. The function of the enteric coat is
to delay the release of naproxen until the dosage
form reaches an environment where the pH is
above about 4. The coating does not dissolve in the
extremely acidic pH of the unprotected stomach.
The function of methacrylic acid copolymers is to
prevent the release of naproxen until the pH of the
stomach rises. Triethyl citrate is a plasticizer,
simethicone emulsion is a anti-foaming agent, and
sodium hydroxide is used to adjust the pH of the
dispersion.
The outermost layer contains an “acid
inhibitor” which is released from the dosage form
immediately after administration to the patient.
The acid inhibitor in the present example is a
proton pump inhibitor or, preferably, the H2
blocker famotidine which consistently raises the
pH of the stomach to above 4. The typical effective
amount of famotidine in the dosage will vary from
5 mg to 100 mg. A typical film coating formulation
contains Opadry Blue® YS-1-4215 which is
essential for film formation and for the uniform
application of famotidine to the core tablet.
Polymer film coating ingredients, hydroxypropyl-

257a
methylcellulose
or
Opaspray®
K-1-4210A
(Colorcon, West Point, Pa.) may also be used.
Other ingredients which help in the formation of
the film and in the uniform application of
famotidine to the core tablet are: plasticizers such
as triethyl citrate and dibutyl phthalate; antiadhering agents such as talc; lubricating
ingredients such as magnesium stearate; and
opacifiers such as titanium dioxide. In addition,
the pH of the film coating solution can be adjusted
to aid in dissolution of the famotidine. The film
coating is thin and rapidly releases famotidine for
absorption.
Core Tablet Ingredients
Naproxen, USP
Hydroxypropyl
methylcellulose 2208,
USP (viscosity 15000 cps)
Magnesium Stearate, NF

% W/W
94.00
5.00
1.00

7.95

Total

100.00

797.85

Enteric Coating Dispersion
Ingredients
Methacrylic Acid Copolymer Type
C, NF (Eudragit L-100-55)
Talc, USP
Sodium Hydroxide, NF
Triethyl Citrate, NF
Simethicone Emulsion, USP
Purified Water, USP
Total

mg/Tablet
750
39.9

% W/W
14.5
3.8
0.2
1.7
0.02
79.78
100.00

258a
Famotidine Coating Dispersion
Ingredients
Famotidine, USP
Opadry Blue ® (YS-1-4215)
Talc, USP
Purified Water, USP
Total

% W/W
2.0
10.0
9.0
79.0
100.0

Example 4
Naproxen and Famotidine Controlled Release
Core and Famotidine Immediate Release
A trilayer tablet which separates famotidine
contained in the film coat from controlled-release
naproxen and famotidine may be used in the
present invention. The core tablet of naproxen and
famotidine is formulated using excipients which
control the drug release for therapeutic relief from
pain and inflammation for 24 hours. FIG. 2 is an
example of an appropriate trilayer tablet. In this
particular example, naproxen and famotidine are
mixed with a polymeric material, hydroxypropylmethylcellulose and granulated with water. The
granules are dried, milled, and blended with a
lubricant, such as magnesium stearate. They are
then compacted into tablets.
The controlled-release core tablet of naproxen
and famotidine is film coated with a
pharmaceutically acceptable enteric coating. The

259a
function of the enteric coat is to delay the release
of naproxen until the dosage form reaches an
environment where the pH is above about 4. The
coating does not dissolve in the extremely acidic
pH of the unprotected stomach. The function of
methacrylic acid copolymers is to prevent the
release of naproxen until the pH of the stomach
rises. Triethyl citrate is a plasticizer, simethicone
emulsion is a anti-foaming agent, and sodium
hydroxide is used to adjust the pH of the dispersion
The outermost later contains an “acid
inhibitor” which is released from the dosage form
immediately after administration to the patient.
The acid inhibitor in the present example is a
proton pump inhibitor or, preferably, the H2
blocker famotidine which consistently raises the
pH of the stomach to above 4. The typical effective
amount of famotidine in the dosage will vary from
5 mg to 100 mg. A typical film coating formulation
contains Opadry Blue® YS-1-4215 which is
essential for film formation and for the uniform
application of famotidine to the core tablet.
Polymer film coating ingredients, hydroxypropylmethylcellulose
or
Opaspray®
K-1-4210A
(Colorcon, West Point, Pa.) may also be used.
Other ingredients which help in the formation of
the film and in the uniform application of
famotidine to the core tablet are: plasticizers such
as triethyl citrate and dibutyl phthalate; antiadhering agents such as talc; lubricating
ingredients such as magnesium stearate; and
opacifiers such as titanium dioxide. In addition,
the pH of the film coating solution can be adjusted

260a
to aid in dissolution of the famotidine. The film
coating is thin and rapidly releases famotidine for
absorption.
Core Tablet Ingredients
Naproxen, USP
Famotidine, USP
Hydroxypropyl
methylcellulose 2208,
USP (viscosity 15000 cps)
Magnesium Stearate, NF

% W/W
88.05
3.52
7.03
1.40

7.95

Total

100.00

567.85

Enteric Coating Dispersion
Ingredients
Methacrylic Acid Copolymer Type
C, NF (Eudragit L-100-55)
Talc, USP
Sodium Hydroxide, NF
Triethyl Citrate, NF
Simethicone Emulsion, USP
Purified Water, USP
Total

mg/Tablet
500
20.0
39.9

% W/W
14.5
3.8
0.2
1.7
0.02
79.78
100.00

Famotidine Coating Dispersion
Ingredients
Famotidine, USP
Opadry Blue ® (YS-1-4215)
Talc, USP
Purified Water, USP
Total

% W/W
2.0
10.0
9.0
79.0
100.0

Example 5

261a
Enteric Coated Naproxen Sodium Core and
Pantoprazole Immediate Release in Film Coat
A schematic diagram of a four layer tablet
dosage form is shown in FIG. 1. The first layer
contains naproxen sodium distributed throughout
a matrix of pharmaceutically acceptable fillers,
excipients, binding agents, disintegrants, and
lubricants.
The second layer is a barrier layer which
protects the first layer containing naproxen
sodium. The barrier film coat is applied by
conventional pan coating technology and the
weight of the barrier coat may vary from 1% to 3%
of the core tablet weight. In particular
embodiments, the core naproxen sodium tablet is
coated with coating ingredients such as
Opaspray® K-1-4210A or Opadry® YS-1-7006
(Colorcon, West Point, Pa.). Polymer film coating
ingredients such as hydroxypropylmethylcellulose
2910 and polyethylene glycol 8000 in a coating
suspension may also be used.
The third layer is an enteric film coat. It does
not dissolve in areas of the GI tract where the pH
may be below 4 such as in an unprotected stomach
but it dissolves only when the local pH is above
about 4. Therefore, the function of the third layer
is to prevent the release of naproxen sodium until
the dosage form reaches an environment where
the pH is above 4. In this example,
hydroxypropylmethyl-cellulose phthalate is the

262a
enteric coating ingredient, cetyl alcohol is a
plasticizer and acetone and alcohol are solvents.
The fourth layer contains an “acid inhibitor” in
an effective amount which is released from the
dosage form as soon as the film coat dissolves. The
acid inhibitor in this example is a proton pump
inhibitor, pantoprazole, which raises the pH of the
gastrointestinal tract to above 4. The typical
effective amount of pantoprazole in the dosage
form may vary from 10 mg to 200 mg. The film coat
is applied by conventional pan coating technology
and the weight of film coat may vary from 4% to
8% of the core tablet weight. Other ingredients are,
plasticizers such as triethyl citrate, dibutyl
phthalate, anti-adhering agents such as talc,
lubricating ingredients such as magnesium
stearate, opacifiers such as, titanium dioxide, and
ammonium hydroxide to adjust the pH of the
dispersion. The film coating is thin and rapidly
releases pantoprazole for absorption. Therefore,
pantoprazole releases first and then the core
erodes and releases naproxen sodium.
Core Tablet Ingredients
Naproxen sodium, USP
Microcrystalline cellulose,
NF (Avicel PH 200)
Povidone (K29/32), USP
Talc, USP
Magnesium Stearate, NF

% W/W
74.075
17.165

mg/tablet
500.00
115.87

3.450
4.350
0.960

23.29
29.36
6.48

Total

100.00

675.00

263a
Naproxen sodium, 50% microcrystalline
cellulose and povidone are dry mixed and wet
granulated in an appropriate granulator with
sufficient purified water. The wet granules are
dried, milled, and blended with the remaining 50%
microcrystalline cellulose, talc and magnesium
stearate. The final granule blend is compressed
into tablets.
Barrier Film Coating Ingredients
Opadry ® Clear YS-1-7006
Purified Water, USP
Total

% W/W
5.00
95.00
100.00

Opadry clear is added slowly to purified water
and mixing is continued until Opadry is fully
dispersed. The solution is sprayed on to the tablet
cores in a conventional coating pan until proper
amount of Opadry clear is deposited on the tablets.
Enteric Coating Ingredients
Hydroxypropyl methylcellulose
phthalate, NF
Cetyl alcohol, NF
Acetone, NF
Alcohol, USP
Total

% W/W
5.5
0.3
66.3
27.9
100.00

Hydroxypropylmethylcellulose phthalate and
cetyl alcohol are dissolved in a mixture of alcohol
and acetone. The solution is then sprayed on to the

264a
tablet bed in proper coating equipment. A sample
of the tablets is tested for gastric resistance and
the coating stopped if the tablets pass the test.

Pantoprazole Film Coating
Ingredients
Pantoprazole sodium, USP
Opadry ® Clear YS-1-7006
Sodium carbonate, NF
Purified Water, USP
Total

% W/W
5.00
5.00
1.20
88.80
100.00

Pantoprazole sodium is dissolved in purified
water containing sodium carbonate in solution.
After thorough mixing, Opadry clear is added
slowly and mixing is continued until Opadry is
fully dispersed. The suspension is sprayed on to
the tablet cores in a conventional coating pan until
the proper amount of pantoprazole sodium is
deposited.
Example 6
Enteric Coated Naproxen Sodium Core and
Omeprazole Immediate Release in Film Coat
A schematic diagram of a four layer tablet
dosage form is shown in FIG. 1. The first layer
contains naproxen sodium distributed throughout
a matrix of pharmaceutically acceptable fillers,
excipients, binding agents, disintegrants, and
lubricants.

265a
The second layer is a barrier layer which
protects the first layer containing naproxen
sodium. The barrier film coat is applied by
conventional pan coating technology and the
weight of the barrier coat may vary from 1% to 3%
of the core tablet weight. In particular
embodiments, the core naproxen sodium tablet is
coated with coating ingredients such as
Opaspray® K-1-4210A or Opadry® YS-1-7006
(Colorcon, West Point, Pa.). Polymer film coating
ingredients such as hydroxypropylmethylcellulose
2910 and polyethylene glycol 8000 in a coating
suspension may also be used.
The third layer is an enteric film coat. It does
not dissolve in areas of the GI tract where the pH
is below 4 such as in an unprotected stomach but
it dissolves only when the local pH is above 4.
Therefore, the function of the third layer is to
prevent the release of naproxen sodium until the
dosage form reaches an environment where the pH
is
above
about
4.
In
this
example,
hydroxypropylmethylcellulose phthalate is the
enteric coating ingredient, cetyl alcohol is a
plasticizer and acetone and alcohol are solvents.
The fourth layer contains an “acid inhibitor” in
an effective amount which is released from the
dosage form as soon as the film coat dissolves. The
acid inhibitor in this example is a proton pump
inhibitor, omeprazole, which raises the pH of the
gastrointestinal tract to above 4. The typical
effective amount of omeprazole in the dosage form

266a
may vary from 5 mg to 50 mg. The film coat is
applied by conventional pan coating technology
and the weight of film coat may vary from 4% to
8% of the core tablet weight. Other ingredients are,
plasticizers such as triethyl citrate, dibutyl
phthalate, anti-adhering agents such as talc,
lubricating ingredients such as magnesium
stearate, opacifiers such as, titanium dioxide, and
ammonium hydroxide to adjust the pH of the
dispersion. The film coating is thin and rapidly
releases omeprazole for absorption. Therefore,
omeprazole is released first and then the core
erodes and releases naproxen sodium.
Core Tablet Ingredients

% W/W

mg/tablet

Naproxen sodium, USP
Microcrystalline cellulose,
NF (Avicel PH 200)
Povidone (K29/32), USP
Talc, USP
Magnesium Stearate, NF

74.075
17.165

500.00
115.87

3.450
4.350
0.960

23.29
29.36
6.48

Total

100.00

675.00

Naproxen sodium, 50% microcrystalline
cellulose and povidone are dry mixed and wet
granulated in an appropriate granulator with
sufficient purified water. The wet granules are
dried, milled, and blended with the remaining 50%
microcrystalline cellulose, talc and magnesium
stearate. The final granule blend is compressed
into tablets.

267a
Barrier Film Coating Ingredients
Opadry ® Clear YS-1-7006
Purified Water, USP
Total

% W/W
5.00
95.00
100.00

Opadry clear is added slowly to purified water
and mixing is continued until Opadry is fully
dispersed. The solution is sprayed on to the tablet
cores in a conventional coating pan until the
proper amount of Opadry clear is deposited on the
tablets.
Enteric Coating Ingredients
Methacrylic Acid Copolymer, NF
(Eudragit L-100-55)
Triethyl Citrate, NF
Talc, USP
Purified Water, USP
Isopropyl Alcohol, USP
Total

% W/W
6.0
0.6
3.0
5.0
85.40
100.00

Methacrylic acid copolymer, triethyl citrate,
and talc are dissolved in a mixture of isopropyl
alcohol and water. The solution is then sprayed on
to the tablet bed in a proper coating equipment. A
sample of the tablets is tested for gastric resistance
and the coating is stopped if the tablets pass the
test.

268a
Omeprazole Film Coating
Ingredients
Omeprazole, USP
Opadry ® Clear YS-1-7006
Purified Water, USP
Isopropyl Alcohol, USP
Total

% W/W
5.00
5.00
10.00
80.00
100.00

Omeprazole is dissolved in a purified water
and isopropyl alcohol mixture. After thorough
mixing, Opadry clear is added slowly and mixing
is continued until Opadry is fully dispersed. The
suspension is sprayed on to the tablet cores in a
conventional coating pan until proper amount of
omeprazole is deposited on the tablets.
Example 7
Naproxen Sodium Delayed Release and
Omeprazole Immediate Release Capsule
A coordinated delivery dosage may be used to
provide fast release of an acid inhibitor, a proton
pump inhibitor, omeprazole which raises the pH of
the gastrointestinal tract to above 4, and the
delayed release of a non-steroidal antiinflammatory drug, naproxen sodium. Omeprazole
granules modify the pH of the stomach such that
the drug readily dissolves and is absorbed in the
stomach without significant degradation. The
typical effective amount of omeprazole in the
dosage form may vary from 5 mg to 50 mg. The

269a
release of naproxen sodium is delayed by enteric
coating.
Omeprazole granules contain an alkalizing
excipient such as sodium bicarbonate. Other
soluble alkalizing agents such as potassium
bicarbonate, sodium carbonate, sodium hydroxide,
or their combinations may also be used. The
alkalizing agent helps solubilize and protect
omeprazole
from
degradation
before
its
absorption. Sodium lauryl sulfate helps in the
wetting of omeprazole. Other surfactants may be
used to perform the same function. In the present
example, hydroxypropyl methylcellulose helps in
granule formation, sodium starch glycolate is a
disintegrant, and magnesium stearate is a
lubricant. Other excipients may also be used to
perform these functions.
Naproxen sodium pellets as shown in FIG. 3
are prepared by the wet massing technique and
the conventional extrusion and spheronization
process. The excipients used in the formulation are
microcrystalline cellulose, and povidone. The
pellets after drying and classification are coated
with a protective subcoating containing povidone.
Other coating ingredients may also be used such
as Opaspray K-1-4210A or Opadry YS-1-7006
(trademarks of Colorcon, West Point, Pa.).
Polymer film coating ingredients such as
hydroxypropyl-methylcellulose
2910
and
polyethylene glycol 8000 in a subcoating
suspension
are
also
alternatives.
Other
ingredients are, plasticizers such as triethyl

270a
citrate, dibutyl phthalate, anti-adhering agents
such as talc, lubricating ingredients such as
magnesium stearate, opacifiers such as, titanium
dioxide.
The subcoated pellets are enteric coated using
enteric coating polymers. In this example, the
enteric coating polymer is methacrylic acid
copolymer and the plasticizer is dibutyl phthalate
which are dissolved in a mixture of acetone and
alcohol. The enteric film does not dissolve in the
acidic pH but dissolves when the pH in the gut is
above about pH 6 and releases naproxen sodium.

mmmOmeprazole
Granules

% W/W

mg/capsule

Omeprazole, USP
Sodium Bicarbonate, USP
Hydroxypropyl
methylcellulose, USP
Sodium lauryl sulfate, NF
Sodium starch glycolate,
NF
Magnesium stearate, NF

12.9
82.40
2.00

20.00
127.72
3.10

0.20
2.00

0.31
3.10

0.50

0.77

100

100

Total

Hydroxypropylmethylcellulose is dissolved in
water, then sodium lauryl sulfate is added and the
solution is mixed. Omeprazole, microcrystalline
cellulose, and sodium bicarbonate are dry mixed
together and granulated with the granulating
solution. The granulation is mixed until proper

271a
granule formation is reached. The granulation is
then dried, milled, and blended with magnesium
stearate.
Pellet Ingredients
Naproxen sodium, USP
Microcrystalline
cellulose, NF (Avicel PH
200)
Povidone (K90), USP
Total

% W/W

mg/tablet

86.80
11.10

250.00
32.00

2.10

6.00

100.00

288.00

Povidone is dissolved in water. Naproxen
sodium and microcrystalline cellulose are dry
mixed and granulated with povidone solution. The
wet mass is mixed until proper consistency is
reached. The wet mass is then pressed through an
extruder and spheronized to form pellets. The
pellets are then dried and classified into suitable
particle size range.
Subcoat Ingredients
Povidone (K29-32), USP
Alcohol, USP
Total

% W/W
10.00
90.00
100.00

The pellet cores are coated using povidone
solution by a conventional coating pan method to a
weight gain of 1-2%.

272a
Enteric Coating Ingredients

% W/W

Methacrylic Acid Copolymer, NF
(Eudragit L-100)
Diethyl Phthalate, NF
Acetone, NF
Isopropyl Alcohol, USP

8.20
1.70
33.30
56.80

Total

100.0

Eudragit L-100 is dissolved in isopropanol and
acetone and diethyl phthalate is dissolved. The
solution is sprayed on the pellet cores using proper
film coating equipment. A sample of the pellets is
tested for gastric resistance before stopping the
coating process.
Omeprazole fast release granules
naproxen sodium delayed release pellets
blended together and filled into appropriate
capsules to contain 250 mg naproxen sodium
20 mg omeprazole per capsule.

and
are
size
and

Example 8
Naproxen Delayed Release and Omeprazole
Immediate Release Capsule
The present Example is directed to a
coordinated delivery dosage form containing
omeprazole and naproxen. The formulation
contains
10
mg
omeprazole
and
uses
methylcellulose as a binder and croscarmellose
sodium as a disintegrant. Naproxen pellets as
shown in FIG. 3 do not need a subcoating layer and

273a
are enteric coated with an aqueous dispersion of
methacrylic acid copolymer. Optionally, these
pellets could be compressed into a core and film
coated with an acid inhibitor and thereby form a
bilayer tablet.
Omeprazole Granules

% W/W

mg/capsule

Omeprazole, USP
Sodium Bicarbonate, USP
Methylcellulose, USP
Sodium lauryl sulfate, NF
Croscarmellose sodium,
NF
Magnesium stearate, NF

6.45
88.85
2.00
0.20
2.00

10.00
137.71
3.10
0.31
3.10

0.50

0.78

100

100

Total

Methylcellulose is dissolved in water, then
sodium lauryl sulfate is added to the solution and
mixed. Omeprazole, microcrystalline cellulose,
and sodium bicarbonate are dry mixed together
and granulated with the granulating solution. The
granulation is mixed until proper granule
formation is reached. The granulation is then
dried, milled, and blended with magnesium
stearate.

274a
Pellet Ingredients
Naproxen, USP
Microcrystalline cellulose,
NF (Avicel PH 200)
Povidone (K90), USP
Total

% W/W

mg/tablet

76.
21.

250.00
71.44

2.

6.56

100.

328.00

Povidone is dissolved in water. Naproxen and
microcrystalline cellulose are dry mixed and
granulated with povidone solution. The wet mass
is mixed until proper consistency is reached. The
wet mass is then pressed through an extruder and
spheronized to form pellets. The pellets are then
dried and classified into a suitable particle size
range.
Enteric Coating Ingredients
Methacrylic Acid Copolymer, NF
(Eudragit L30D 30% dispersion)
Talc, USP
Triethyl citrate, NF
Simethicone Emulsion, USP
(Silicone antifoam emulsion SE 2)
Purified Water, USP

% W/W
15.60
7.60
1.60
0.20
74.80

Eudragit 30D is dispersed in purified water
and simethicone emulsion. Talc and triethyl
citrate are then dispersed. The suspension is
sprayed on the pellet cores using proper film
coating equipment. A sample of the pellets is
tested for gastric resistance before stopping the
coating process. Omeprazole fast release granules

275a
and naproxen sodium delayed release pellets are
blended together and filled into appropriate size
capsules to contain 250 mg naproxen and 10 mg
omeprazole per capsule.
Example 9
Clinical Study of the Relationship of Gastric pH
to NSAID-Induced Gastric Ulcers
Sixty-two subjects were enrolled in a clinical
study and randomly assigned to three groups. The
following three groups were administered study
medication twice daily for five days: (a) 550 mg
naproxen sodium (n=10), (b) 40 mg famotidine
given with 550 mg of naproxen or famotidine
followed 90 minutes later by 550 mg naproxen,
(n=39) or (c) 20 mg omeprazole followed by 550 mg
naproxen sodium (n=13). Gastric pH was
measured hourly beginning at the time of dosing of
the final daily dose of study medication and for 810 hours thereafter. Subjects had a gastric
endoscopy performed at the beginning and on Day
5 prior to the morning dose of study medication to
identify gastric and duodenal irritation; no
subjects were admitted to the study if gastric
irritation was present at the time of initial
endoscopy.
Five patients, three (33%) in the naproxen
alone
group
and
two
(5%)
in
the
famotidine/naproxen group, presented with
gastroduodenal ulcers at the end of the study. In
the naproxen alone group, the pH was greater than

276a
4 only 4% of the time, and in the
famotidine/naproxen group the pH was greater
than 4 forty-nine percent of the time during the 810 hours following naproxen sodium dosing.
Additionally, Lanza grade 3 or 4 damage was
present in 28% (n=11) of the subjects receiving
famotidine/naproxen sodium, and present 100%
(n=10) in the naproxen sodium treatment group.
Monitoring of gastric acidity on day 5 indicated
that patients with Lanza scores of greater than 2
had integrated gastric acidity of greater than 100
mmol-hr./L. Only 20-40% of patients with
integrated gastric acidity of less than 100 mmolhr/L had gastric pathology, whereas all patients
with integrated gastric acidity greater than 100
mmol-hr/L had pathology.
Example 10
Famotidine and Enteric Coated Naproxen Reduce
Gastroduodenal Damage Due to NSAID Therapy
Thirty-seven patients were randomized to two
groups for a one week study of twice-daily dosing
of: 500 mg enteric coated naproxen, and 500 mg
enteric coated naproxen preceded by 40 mg
famotidine. Endoscopies were conducted on all
patients prior to first dosing and on the final day
of the study. No subjects had evidence of
gastroduodenal damage at the beginning of the
study (at first endoscopy).
At the second endoscopy, Lanza scores for
gastroduodenal damage were assessed for all

277a
subjects. 39% of the subjects in the enteric coated
naproxen 500 mg group had grade 3-4
gastroduodenal damage. This is lower than the
percentage that would be expected for the
administration of 500 mg of non-enteric naproxen
based upon previous work. Nevertheless, subjects
administered 500 mg enteric coated naproxen and
40 mg famotidine had an even lower incidence of
grade 3-4 gastroduodenal damage (26%) than
subjects who had previously taken enteric coated
naproxen alone which demonstrates the value of
combining acid inhibition with enteric coating of
NSAID to minimize the gastrointestinal damage.
All references cited herein are fully
incorporated by reference. Having now fully
described the invention, it will be understood by
those of skill in the art that the invention may be
performed within a wide and equivalent range of
conditions, parameters and the like; without
affecting the spirit or scope of the invention or any
embodiment thereof.
What is claimed is:
1. A pharmaceutical composition in unit
dosage form comprising therapeutically effective
amounts of:
(a) esomeprazole, wherein at least a portion of
said esomeprazole is not surrounded by an
enteric coating; and

278a
(b) naproxen surrounded by a coating that
inhibits its release from said unit dosage
form unless said dosage form is in a
medium with a pH of 3 .5 or higher;
wherein said unit dosage form provides for release
of said esomeprazole such that upon introduction
of said unit dosage form into a medium, at least a
portion of said esomeprazole is released regardless
of the pH of the medium.
2. The pharmaceutical composition of claim 1,
wherein naproxen is present in said unit dosage
form in an amount of 200-600 mg.
3. The pharmaceutical composition of claim 1,
wherein esomeprazole is present in said unit
dosage form in an amount of from 5 to 100 mg.
4. The pharmaceutical composition of claim 1,
wherein naproxen is present in said unit dosage
form in an amount of between 200-600 mg and
esomeprazole in an amount of from 5 to 100 mg per
unit dosage form.
*****

279a
UNITED STATES PATENT AND TRADEMARK
OFFICE
CERTIFICATE OF CORRECTION
Page 1 of 1

PATENT NO.
APPLICATION NO.
DATED
INVENTOR(S)

: 8,557,285 B2
: 13/215855
: October 15, 2013
: John R. Plachetka

It is certified that error appears in the aboveidentified patent and that said Letters Patent is
hereby corrected as shown below:
Title Page
In Item (56) - References Cited, page 2, 58th
reference in lefthand column - 6,162,816, delete
"210/95" and insert --514/338-- therefor.

Signed and Sealed this
Twenty-fifth Day of February, 2014

Michelle K. Lee
Deputy of the United States Patent and
Trademark Office

